SIGAR
SPECIAL INSPECTOR GENERAL


                                                                                                         SIGAR                  Special Inspector General for   OCT 30




                                 SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | OCT 30, 2009
FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                Afghanistan Reconstruction       2009
2221 South Clark Street
Suite 800
Arlington, VA 22202-3712




                                 4                                                                       QUARTERLY REPORT TO THE UNITED STATES CONGRESS
SIGAR
SPECIAL INSPECTOR GENERAL




                                                         SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | OCT 30, 2009
FOR AFGHANISTAN RECONSTRUCTION

2221 South Clark Street
Suite 800
Arlington, VA 22202-3712




        Cover Captions (clockwise from left):
        An ink-stained finger marks one of an
        estimated 15.3 million Afghan citizens who
        voted in the first Afghan-run elections on
        August 20. About 58% of voters were men.
        (U.S. Embassy Kabul Photo, Dan Wilkinson)
        Afghan contractors produce concrete at
        the construction site for the eight-room
        Haish Saidqi Girls School in the Rokha
        District of Panjshir Province. (U.S. Air Force
        photo, Capt. Stacie N. Shafran)
        Afghan children receive backpacks from
        U.S. service members at Rhey village. Five
        hundred backpacks, 20 five-pound bags of
        flour, 20 liters of cooking oil, and various
        school supplies were transported from
        Camp Stone. (U.S. Air Force photo,


                                                         4
        SrA Marc I. Lane)
        Non-commissioned officers of the Afghan
                                                                                                                                 QUARTERLY REPORT TO THE UNITED STATES CONGRESS
        National Police recite an oath of honor at a                                                                                         As a part of the 2009 Peace Day celebration, the United Nations Assistance Mission in
        graduation ceremony at the ANP Academy                                                                                             Afghanistan commissioned calligraphy pieces from Kabul University. This drawing, produced
        in Kabul, Afghanistan. (U.S. Air Force photo,                                                                                       by Abdul Haq Noori Ghaznawi, a Kabul Fine Arts faculty member, represents a peace tree.
        SSgt Beth Del Vecchio)
SIGAR                                      Special Inspector General for
                                           Afghanistan Reconstruction
                                                                                    OCT 30
                                                                                     2009




The National Defense Authorization Act (P.L. 110-181) established
the Special Inspector General for Afghanistan Reconstruction (SIGAR).

SIGAR’s mission is to enhance oversight of programs for the reconstruction
of Afghanistan by conducting independent and objective audits, inspections,
and investigations on the use of taxpayer dollars and related funds and by
keeping the Congress, as well as the Secretaries of State and Defense, cur-
rently informed of reconstruction progress and weaknesses. Afghanistan re-
construction includes any major contract, grant, agreement, or other funding
mechanism entered into by any department or agency of the U.S. government
that involves the use of amounts appropriated, or otherwise made available
for the reconstruction of Afghanistan with any private entity to build or re-
build physical infrastructure in Afghanistan; establish or re-establish political
or societal institutions of Afghanistan; and provide products or services to the
people of Afghanistan.

Source: P.L. 110-181 “National Defense Authorization Act for FY 2008,” 1/28/2008.
ISLAMIC REPUBLIC OF AFGHANISTAN

                                                   UZBEKISTAN
                                                                                                                      CHINA
                                                                                                         TAJIKISTAN


                                         JOWZJAN        BALKH           KUNDUZ
                                                                                            BADAKHSHAN
           TURKMENISTAN                                                           TAKHAR

                                                             SAMANGAN
                               FARYAB                                    BAGHLAN
                                         SAR-E PUL
                                                                                  PANJSHIR NURISTAN
                    BADGHIS
                                                       BAMYAN           PARWAN KAPISA      KUNAR
                                                                                   LAGHMAN

         HERAT                                                    WARDAK    KABUL
                                                                                           NANGARHAR
                              GHOR                                         LOGAR
                                          DAYKUNDI                               PAKTIYA
                                                               GHAZNI                KHOWST

                                        URUZGAN
           FARAH
                                                                        PAKTIKA
                                                     ZABUL

                                                                                                PAKISTAN

                    HELMAND
           NIMROZ                    KANDAHAR
  IRAN
                                 Special Inspector General
                              for Afghanistan Reconstruction




October 30, 2009


I am pleased to submit to the Congress the fifth quarterly report of the Office of the Special In-
spector General for Afghanistan Reconstruction (SIGAR). In compliance with the requirements
outlined in Section 1229 of P.L. 110-181, this report documents SIGAR’s activities since the July
30, 2009 report and provides an update on the status of reconstruction programs in Afghanistan.
Since 2002, the Congress has appropriated approximately $39 billion for the reconstruction of
Afghanistan. Funding requests for FY 2010 appear likely to increase this amount to $50 billion.
   During this quarter SIGAR continued to grow, expanding its capacity to conduct vigorous
oversight through audits, inspections, and investigations. Since our last report, our professional
staff has grown from 44 to 57. Our office issued five audit reports and five inspection reports
over the past three months. These reports cover a wide variety of individual projects and large
programs in the areas of security, governance, and development. We have another 10 audits and
7 inspections under way. SIGAR’s investigations team initiated seven new criminal investigations
and contributed to the indictment of two individuals and one company accused of bribery.
   It has been one year since SIGAR received its initial funding, enabling it to begin to recruit
staff and establish offices in the Washington area and in Afghanistan. Based on the work we have
done to date, personal observations in Afghanistan, and conversations with U.S., Afghan, and
international officials, SIGAR has identified four issues that must be addressed to improve the
effectiveness of the reconstruction program. First, U.S.-funded programs need to be more ac-
countable. Second, additional emphasis should be placed on building Afghan capacity to sustain
projects. Third, to achieve reconstruction objectives, U.S. and internationally funded projects
need to be better integrated. Fourth, greater consideration should be given to developing ef-
fective strategies to deter corruption. Lack of accountability, insufficient attention to capacity
building and sustainment, inadequate integration of projects, and corruption all lead to waste and
undermine the reconstruction effort.
   The U.S. Government is particularly concerned that corruption puts at risk our investment in
the reconstruction of Afghanistan. As a result of conversations with U.S. and Afghan government
officials, SIGAR has launched a series of audits to assess what the United States and other inter-
national donors are doing to build capacity within Afghan institutions to deter corruption. Dur-
ing this quarter, SIGAR began to conduct reviews of the performance and capability of various
Afghan government institutions to apply internal controls, mitigate the risk of corruption, and



           2221 South Clark Street, Suite 800             Arlington, Virginia 22202
improve accountability for U.S. and other donor funds. SIGAR issued the first of these reports in
the area of justice reform. If SIGAR receives sufficient funding, it will expand the anti-corruption ini-
tiative to cover Afghanistan’s provincial governments as well as its national governing institutions.
    On August 20, 2009, Afghans voted in the first Afghan-run presidential and provincial coun-
cil elections. The United States, which considered the elections an important step in building a
legitimate government, provided $263 million in reconstruction funds to support the electoral
process. Allegations of widespread fraud delayed the certification of the results. However,
Afghanistan’s election bodies—the Independent Election Commission (IEC) and the Electoral
Complaints Commission (ECC)—developed a process to evaluate the extent of the fraud, and on
October 20 the IEC announced that President Karzai won 49.7% of the vote, just shy of the 50%
needed to avoid a runoff election. The runoff is scheduled for November 7. SIGAR issued two
audit reports related to these elections during this quarter and will assess the entire elections
process, including lessons learned.
    In August, the Afghan government published its first annual report on the status of the
Afghanistan National Development Strategy (ANDS), and the U.S. Embassy in Kabul issued a
new civilian-military campaign plan to achieve U.S. strategic goals in Afghanistan. Although the
Afghan government reported some progress across most of the ANDS pillars and sectors, it
warned that the government and its international partners continue to face extraordinary chal-
lenges, particularly in the areas of governance and security. The U.S. plan emphasizes building
Afghan capacity to govern at the local, provincial, and national levels. Section 1 of this report
includes a summary of both documents.
    In testimony before the Subcommittee on National Security and Foreign Affairs in Septem-
ber, I outlined the steps SIGAR has taken to ensure oversight of the new inter-agency strategy
in Afghanistan. The full statement is available on our Web site: www.sigar.mil. Although the U.S.
strategy is evolving, the reconstruction effort continues and SIGAR is providing sustained and
comprehensive oversight to prevent waste, fraud, and abuse of reconstruction dollars.


    Very respectfully,




    Arnold Fields
    Major General, USMC (Ret.)
    Special Inspector General for Afghanistan Reconstruction




               2221 Clark Street, Suite 800             Arlington, Virginia 22202
TABLE OF CONTENTS




       SECTION 1
       AFGHANISTAN OVERVIEW
       Security                          4
       Governance                        4
       Project Integration               7
       Coordination of Oversight         8




       SECTION 2
       SIGAR OVERSIGHT
       Audits                            15
       Inspections                       22
       The SIGAR Hotline                 28
       Investigations                    29
       SIGAR Budget                      32
       SIGAR Staff                       33




       SECTION 3
       RECONSTRUCTION
       UPDATE
       Overview                          37
       Status of Funds                   41
       Security                          57
       Governance                        73
       Economic and Social Development   93
TABLE OF CONTENTS




   SECTION 4
   OTHER AGENCY OVERSIGHT
   Completed Oversight Activities             113
   Ongoing Oversight                          114
   Other Agency Investigations                122
   Other Agency Inspections                   123




   APPENDICES
   Appendix A: Cross-Reference of Report to
               Statutory Requirements         126
   Appendix B: U.S. Government Appropriated
               Funds                          132
   Appendix C: SIGAR Audits and Inspections   134
   Appendix D: SIGAR Hotline                  136
   Appendix E: Acronyms and Abbreviations     137




   ENDNOTES                                   140
Afghanistan Presidential Election
Voting ballots are organized and arranged for counting
by Afghan presidential election workers at a local school
in the Nawa District of Ghazni. The school was used as
a polling site. (U.S. Marine Corps photo, SSgt William
Greeson)
1          AFGHANISTAN
           OVERVIEW

Introduction: The Year of Transfer
    Rise in Income
    Expanding Iraqi Security Authority
    Afghanistan Reconstruction Update
    Afghanistan Audits
    Afghanistan Inspections
    Reconstruction Teams
    The Role of the International Community


Anticorruption Efforts


Security
    Security Conditions Still Hinder
    Reconstruction Activities
    Concerned Local Citizen Initiative


Legislative Developments


The Human Toll




                           1
          AFGHANISTAN OVERVIEW




       “Despite [the] very difficult
     conditions, what we’ve seen is
   elections take place, we have now
 seen the IEC and the ECC complete
      their work, we have seen the
candidates expressing a willingness to
abide by constitutional law, and there
is a path forward in order to complete
         this election process.”
                 —U.S. President Barack Obama




          Source: White House press release, “Remarks by President Obama and Prime Minister Maliki of Iraq After Meeting,”
          www.whitehouse.gov/the_press_office/Remarks-by-President-Obama-and Prime-Minister-Maliki-of-Iraq-After-Meeting, accessed 10/21/2009.




               2                         SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                         AFGHANISTAN OVERVIEW




AFGHANISTAN OVERVIEW
During this quarter in Afghanistan, overall security continued to deteriorate,
with insurgent attacks spiking during the period leading up to the August 20
presidential and provincial council elections. Afghanistan’s Independent Elec-
tion Commission (IEC) announced preliminary results in September, but allega-
tions of widespread fraud prevented certification of the results. The Electoral
Complaints Commission (ECC), together with the IEC, developed and carried
out an audit process to determine the extent of the fraud. On October 20, the IEC
announced the results of this audit, which showed that President Karzai received
49.7% of the vote, just short of the 50% plus one needed to secure a first-round
electoral victory. The IEC announced that it would conduct a runoff election on
November 7 between President Karzai and the second-place finisher, Dr. Abdul-
lah Abdullah, who received 30.6% of the vote.
   In August 2009, the Government of the Islamic Republic of Afghanistan
(GIRoA) released its first annual report on the implementation of the Afghanistan
National Development Strategy (ANDS), and the U.S. Government issued a new
integrated civilian-military campaign plan to stabilize Afghanistan. The ANDS
report described Afghan government efforts to align budgets to ANDS priorities
and establish mechanisms to monitor and evaluate progress toward achieving
ANDS goals. According to the report, gains across most of the ANDS pillars and
sectors have been limited because of security issues and a lack of governing
capacity to manage programs. The new U.S. Government Integrated Civilian-
Military Campaign Plan for Support to Afghanistan, building on the broad stra-
tegic objectives outlined by President Obama earlier this year, identified 11 key
counter-insurgency “transformative effects” to improve security and governance
at the community, provincial, and national levels.
   Developments during this quarter underscored the enormous challenges that
the reconstruction effort continues to face in Afghanistan. Two issues—the lack
of security and the need for governing capacity—remain the greatest obstacles
to progress. In addition to the problems posed by deteriorating security and
weak governance, SIGAR—through its audits, inspections, investigations, and
observations on the ground in Afghanistan—has identified four major oversight
concerns: lack of accountability, insufficient attention to capacity building and
sustainment, inadequate integration of projects, and corruption.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009         3
                                             AFGHANISTAN OVERVIEW




                                             SECURITY
                                             The lack of security in Afghanistan has a negative impact on every aspect of
                                             reconstruction, from building and repairing infrastructure to promoting good
                                             governance. The U.S. strategy to restore security is focused on developing signifi-
                                             cantly larger Afghan military and police forces capable of leading the counter-
                                             terrorism fight and protecting the Afghan population from insurgents. A substan-
                                             tial portion of U.S. reconstruction funds—$18.67 billion—has been provided for
                                             the Afghanistan Security Forces Fund (ASFF) to train and equip the Afghanistan
                                             National Army (ANA) and the Afghanistan National Police (ANP).
                                                Because of the importance of security and the size of the U.S. investment in
                                             building the Afghan security forces, SIGAR expanded its oversight of the security
                                             sector during this quarter, launching two new security sector audits. The first is
                                             evaluating the reliability of the ANA and ANP capability milestone assessments,
                                             which are used to gauge progress in developing independent security forces. The
                                             second is assessing progress in developing personnel management systems for
                                             the ANA and ANP, including continued efforts to stem fraudulent payments to
                                             “ghost” personnel. In addition to these audits, SIGAR is inspecting ANSF facili-
                                             ties in Kandahar and Farah that were funded through the Combined Security
                                             Transition Command - Afghanistan (CTSC-A). The inspections will determine
                                             whether the facilities were built in accordance with contract specifications and
Ambassador Richard C. Holbrooke,             are being maintained properly.
Special Representative for Afghanistan and      Because serious security problems exist throughout much of Afghanistan,
Pakistan, speaks with an IEC worker on
                                             both the U.S. Government and reconstruction contractors implementing U.S.-
Election Day. (U.S. Embassy Kabul photo,
Dan Wilkinson)                               funded projects employ security personnel through private security firms.
                                             Several complaints, including one received through the SIGAR Hotline from a
                                             U.S. contractor, allege that some of this private security is being provided by
                                             people connected to the Taliban. SIGAR has begun an audit reviewing how the
                                             U.S. Government and reconstruction contractors are providing for their security.
                                             SIGAR is looking at how each U.S. agency contracts for its security needs and at
                                             the degree of oversight each agency exercises over its contractors.
                                                SIGAR’s preliminary work indicates that at least 14,000 private security con-
                                             tractors are working directly for U.S. agencies. The U.S. government, however,
                                             does not know how many other private companies or individuals are providing
                                             security services to reconstruction contractors. Over time, SIGAR auditors expect
                                             to identify policy issues associated with the use of private security contractors.


                                             GOVERNANCE
                                             The new U.S. civilian-military campaign plan emphasizes “promoting a more
                                             capable, accountable, and effective government in Afghanistan” and calls for
                                             greater Afghan participation in the reconstruction of the country.1 During this
                                             reporting period, the United States focused on two aspects of good governance:
                                             supporting a credible and secure election process, and developing a strategy to
                                             deter corruption. The U.S. Government viewed the August 20 presidential and
                                             provincial council elections, the first to be managed by Afghans, as an important




                                                4               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




step in establishing a government that is legitimate in the eyes of its people. At
the same time, the U.S. Government has expressed great concern about corrup-
tion, which not only erodes trust in government but also undermines every other
aspect of the reconstruction effort.
   SIGAR is providing oversight in both of these areas. During this quarter,
SIGAR issued two audit reports related to the election process and began a
series of audits to evaluate the performance and capability of various Afghan
public institutions at the national and provincial levels. These audits will assess
the ability of Afghan ministries and government offices to apply internal controls,
mitigate the risk of corruption, and improve accountability over U.S. and other
donor funds.
                                                                                        U.S. Ambassador Karl Eikenberry
                                                                                        discusses election support issues with U.S.
The Presidential and Provincial Council Elections                                       Senate Foreign Relations Committee Chair
SIGAR has followed the elections closely because of the importance the U.S.             John Kerry. (U.S. Embassy Kabul photo)
government attached to them and the significant funding provided by the United
States and the international community in support of the election process. The
United States and its international partners view elections as critical to the devel-
opment of a sustainable, accountable government. SIGAR issued one audit report
this quarter that identified international assistance and the extent to which that
assistance was used to strengthen the capacity of the IEC to conduct elections. A
second audit assessed the participation of women in these elections.
    By the end of August 2009, the United States had contributed $263 million
(more than half) of the $488 million provided by the international community to
support secure and credible elections. The United Nations (UN) managed
$331 million of the funds provided by the international community. It used these
funds to cover the administrative costs of the entire process, from voter regis-
tration to the conduct of elections and resolution of disputed ballots. The UN
                                                                                        U.S. Army Gen. Stanley McChrystal stands
provided support to the IEC and to the ECC.                                             with Afghanistan’s Minister of Foreign Affairs,
    One of the UN objectives was to build the capacity of the IEC to hold elec-         Dr. Rangin Dadfar Spanta, as the two survey
tions. The IEC faces significant challenges in doing so, particularly in 2010 when      the damage caused by a suicide bomber,
it is supposed to conduct district and parliamentary elections, because it lacks        near ISAF Command Headquarters. (U.S.
the expertise and resources to carry out elections without international support.       Army photo, SGT David Alvarado)

Although the UN recognized the need for capacity development, it has not devel-
oped a long-term capacity-building strategy.
    In the August elections, the IEC reported that about 38.8% of those who voted
were women. SIGAR could not independently verify this figure. SIGAR found
that women confronted numerous obstacles to exercising their right to vote. The
lack of a secure environment, coupled with cultural constraints, limited their
ability to register, campaign, and vote. Many observers reported that men were
voting on behalf of women, even though proxy voting is a violation of the elec-
toral law. Because polling stations are segregated by gender, a shortage of female
polling officials across the country also reduced the number of women who were
able to cast ballots.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009            5
AFGHANISTAN OVERVIEW




   SIGAR has recommended that the U.S. Ambassador to Afghanistan work with
the GIRoA, the UN, and other key stakeholders to develop an overall strategy
and detailed plan for building and sustaining electoral capacity. This strategy and
plan should address the challenges that confront female candidates and voters.
   After the elections are concluded, SIGAR will conduct a final audit that will
provide an analysis of the conduct of the elections and the procedures estab-
lished to detect and discard fraudulent ballots. This report will identify lessons
learned for future elections.


Anti-Corruption Oversight
Strengthening Afghanistan’s ability to prevent corruption is a priority of the U.S.
reconstruction program, as well as the international community and the GIRoA
itself. The GIRoA has appealed to various U.S. government officials to help
strengthen its capacity to establish controls and improve accountability, both of
which are important deterrents to corruption. SIGAR has launched an audit ini-
tiative to review what the United States and other international donors are doing
to build capacity within Afghan institutions to deter corruption. This work will
also assess the internal controls and accountability procedures exercised by key
Afghan government institutions at the provincial and national levels. Although
SIGAR will not conduct training of Afghan officials, SIGAR’s audits are intended
to help Afghan officials as well as U.S. and other international donor personnel to
better understand the importance of having internal controls, accountability, and
strong anti-corruption measures.
   In August, SIGAR published the first in what will be a series of reports on
aspects of the U.S. effort to deter corruption and strengthen the rule of law.
This report found that insufficient funding and inadequate access to utilities had
delayed the construction of detention facilities urgently needed at the Counter-
Narcotics Justice Center in Kabul. This center, a critical component of U.S. and
Afghan counter-narcotics efforts, has exclusive nationwide jurisdiction over sig-
nificant narcotics cases. Delays in expanding its size could adversely affect U.S.
and Afghan government efforts to combat the illicit drug trade in Afghanistan.
In response to the SIGAR report, the Department of State (DoS) and the U.S.
Army Corps of Engineers indicated that they would work together to overcome
obstacles so that the construction of the facilities can proceed.
   In September, SIGAR began an audit of U.S. and other donor efforts to strengthen
the capabilities of the GIRoA’s High Office of Oversight (HOO), an entity implement-
ing the country’s anti-corruption efforts that reports to the President of Afghanistan.
This audit will assess the capacity of the HOO to meet its anti-corruption mission
and identify U.S. and other donor efforts to build its capabilities.

Sustainment of Infrastructure
Billions of dollars have been spent to build infrastructure—everything from
schools and health clinics to roads, water systems, and power generation
plants—in Afghanistan since 2002. U.S.-funded construction continues in many




   6                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




parts of the country. SIGAR has hired engineers, inspectors, and auditors to work
together, not only to determine whether these projects are being built according
to contract specifications and used as intended, but also to evaluate the capacity
of Afghan authorities to sustain them.
   SIGAR’s initial observation is that too little attention has been paid to sustain-
ment of these projects following their turnover to Afghan authorities. SIGAR is
not alone in this observation. For example, in two separate reports, the Govern-
ment Accountability Office (GAO) has pointed out that the GIRoA lacks the
capacity to maintain U.S.-funded infrastructure projects.2
   Regulations governing the use of Commander’s Emergency Response Program
(CERP) funds require that the USFOR-A Commander ensure that an appropri-
ate GIRoA authority is prepared to sustain a project after it has been transferred.
USFOR-A reported that during project review it requires a written document from
a GIRoA official agreeing to sustain and maintain the project. The letter is usually
provided by a provincial-level official and signals the “intent of commitment on
the part of the GIRoA.”3 According to USFOR-A, however, “the evidence is over-
whelming that Afghanistan cannot sustain the projects we complete.” USFOR-A
added, “There is an unwritten obligation to make progress with respect to recon-
struction efforts. We continue to build and meet the sustainment requirement of
the [Financial Management Regulation] by gracefully expecting the GIRoA to one
day be able to fulfill its share of the bargain by maintaining the projects they said
they would when transferred to them.” SIGAR will further examine this issue of
sustainability because of the potential waste of taxpayer dollars in building proj-
ects that cannot be maintained.


PROJECT INTEGRATION
The U.S. civilian-military campaign plan calls for better integration of reconstruc-
tion projects, not only between U.S. agencies but also with the international
donor community. The absence of an effective management information system
or other means to provide a complete view of programs undertaken by various
entities in Afghanistan makes it very difficult to coordinate the reconstruction ef-
fort effectively. SIGAR has recommended that U.S. civilian agencies and military
commands work together to develop an integrated management information sys-
tem that would provide a common operating picture of reconstruction programs
and projects.
   The GIRoA and the international community established the Joint Coordination
and Monitoring Board (JCMB) in 2006 to coordinate and oversee the implementa-
tion of the Afghan Compact. The JCMB, whose 28 members include 7 representa-
tives of the GIRoA and 21 representatives of the international community, is now
responsible for coordinating the formulation of development policies between the
GIRoA and the international community. The GIRoA and its international partners
coordinate through the JCMB to review progress toward achieving ANDS objec-
tives. When the JCMB met in July 2009 to review the status of the ANDS, the inter-
national community said then that the ANDS needed to be better focused and that
the GIRoA should develop an unambiguous set of priorities and programs.4



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009            7
AFGHANISTAN OVERVIEW




   SIGAR has initiated a series of performance audits for individual development
sectors. The first of these audits, which will be published during the next quarter,
is a review of U.S. and other donor assistance to the energy sector. The audit
will assess the degree to which U.S. and international projects complement each
other and determine how effective they have been in expanding Afghan access
to electricity.


COORDINATION OF OVERSIGHT
The inspector general community is acutely aware of the need to coordinate its
work to maximize oversight, avoid duplication, and minimize demands on the
implementing agencies. SIGAR is a member of the Southwest Asia Joint Planning
Group and its Pakistan/Afghanistan subcommittee, which coordinates oversight
activity in Afghanistan and Pakistan. The subcommittee is composed of SIGAR,
GAO, and the Inspectors General from USAID, DoD, and DoS.
   SIGAR is also a member of the International Contract Corruption Task Force
(ICCTF), the principal organization coordinating federal criminal and civil cases
that involve procurement fraud and corruption related to U.S. government spend-
ing in Southwest Asia. SIGAR’s investigators and attorneys work closely with
their colleagues at other federal law enforcement agencies in both the United
States and Afghanistan.




Maj. Gen. Arnold Fields (Ret.), Special Inspector General for Afghanistan
Reconstruction, in testimony before the House Subcommittee on National Security and
Foreign Affairs, September 9, 2009. (C-SPAN)




   8                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                 QUARTERLY HIGHLIGHT




THE U.S. GOVERNMENT INTEGRATED CIVILIAN-MILITARY
CAMPAIGN PLAN FOR SUPPORT TO AFGHANISTAN
In August, the U.S. Embassy, Kabul and USFOR-A                           The plan’s 11 transformative effects, establish U.S.
issued a new integrated civilian-military plan aligning              reconstruction priorities in the security, governance,
mission activities to achieving the broad U.S. strate-               and development pillars. U.S. personnel, in partner-
gic goal to disrupt, dismantle, and eventually defeat                ship with Afghans, are to implement programs simul-
al-Qaeda. Emphasizing that “every action must help                   taneously at the community, provincial, and national
secure, mobilize and support the Afghan people to de-                levels. The plan gives particular importance to the
feat the insurgency and establish effective governance,”             first three transformative effects: population security,
the plan describes 7 core principles, identifies 11                  elections and continuity of governance, and expansion
counter-insurgency (COIN) “transformative effects,” and              of accountable and transparent government.
outlines strategies to be executed over the next three                   The plan takes into account the different
years in each of the 11 areas to stabilize Afghanistan.              dynamics in each of four regions—
In addition to the new U.S. strategy, the plan draws on              north, south, east, west—and
guidance from the ANDS, the Afghanistan Compact,                     Kabul. It establishes
and NATO operational plans.                                          priorities and identifies
   The core principles include 1) developing Afghan                  the civilian-military
capacity; 2) paying greater attention to the subna-                  action needed in each
tional levels, where the insurgency is drawing strength              region, as shown in
through coercion and by exploiting dissatisfaction with              the map at right.
                                                                                                                        RC-Capital
the government; 3) integrating civilian and military                     The U.S. effort to                             RC-East
planning and operations at the national and subna-                   provide security for the                           RC-South
tional levels to assist Afghanistan; 4) working in close             Afghan population will concentrate on the key prov-
collaboration with the international community; 5)                   inces of Helmand, Kandahar, Khowst, Paktiya, and
providing guidance, resources, and authority to civilian             Paktika, where the insurgency is most active. In addi-
and military teams working in the field; 6) demonstrat-              tion to refocusing combat operations, the plan calls
ing tangible progress to the Afghan populations; and 7)              for a larger, more capable, and more professional
fostering government accountability and transparency.                ANSF. Greater emphasis will be placed on working
                                                                     with local communities on their own protection.
                                                                         The international community has provided
  The 11 Transformative Effects                                      significant assistance for elections as a vehicle for
  •   Population Security
                                                                     establishing a government that is legitimate in the
  •   Elections and Continuity of Governance
                                                                     eyes of its citizens. Under the campaign plan, a new
  •   Expansion of Accountable and Transparent Governance
                                                                     program to build institutional capacity and promote
  •   Claiming the Information Initiative
                                                                     accountability will be developed to help the Afghan
  •   Access to Justice
                                                                     government set a clear agenda for change. This will
  •   Action Against Irreconcilables
                                                                     require a new partnership between the United States,
  •   Creating Sustainable Jobs
                                                                     the international community, and the GIRoA, as well
  •   Agricultural Opportunity and Market Access
                                                                     as between the GIRoA and the Afghan people. Greater
  •   Countering the Nexus of Criminality, Corruption,
                                                                     attention will be given to working toward a political
      Narcotics, and Insurgency
  •   Government and Community-Led Reintegration                     solution that would involve granting amnesties and
  •   Border Access for Commerce, Not Insurgents                     developing a reintegration program.




          REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2009               9
                                       QUARTERLY HIGHLIGHT




FIRST ANNUAL REPORT ON THE ANDS
The Afghan National Development Strategy (ANDS),                    Noting that effective execution of sector strate-
approved in April 2008 by the President of Afghani-             gies requires close coordination of multiple line
stan and endorsed in June 2008 by the international             ministries, public agencies, and other domestic and
community, is organized under three broad pillars—              international partners, the report observes, “This is
Security, Governance, and Economic and Social                   a complex undertaking that requires capable leader-
Development—with 8 sub-pillars, 17 sectors, and                 ship at all levels of management of the process.”
6 cross-cutting issues. In its first annual report on           It adds that “the current capacity within the govern-
the implementation of the ANDS, the GIRoA reported              ment to undertake managing for results, embracing
some progress across most of the pillars and sectors            planning, implementation management, and monitor-
but warned that the government and its international            ing for results is not adequate to successfully un-
partners continue to face extraordinary challenges,             dertake these tasks.” The annual report highlighted
particularly in governance and security.                        achievements in the ANDS pillars.
   Over the past year, the GIRoA has focused on
creating institutional frameworks to manage, monitor,           SECURITY
and evaluate a national effort to achieve the ANDS              The ANDS considers security a precondition for
objectives. Line ministries have established “sec-              economic development. The report acknowledges a
tor results frameworks” that identify development               decline in the security situation over the past year but
activities together with their outputs and outcomes.            identifies some positive developments:
According to the report, these ministries are now               • A national security policy has been developed,
aligning their programs to contribute to realizing the             to promote coordination between Afghan and
ANDS objectives.                                                   international security forces for improved
                                                                   security delivery.
                                                                • Strengthening the ANA and ANP process is
AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY (ANDS)
                                                                   progressing as planned, with training opportuni-
                                    GOV         DEVE               ties expanded at both the national and provincial
                        SEC            ERN          LOPM
                           URIT            ANC                     levels
                                Y             E         ENT
                                                                • Coordination of the Afghan Security Forces
                                                                   improved because of a new national security
 REGIONAL COOPERATION
                                                                   policy and the establishment of 15 subnational
                                                                   coordination centers.
 COUNTER-NARCOTICS
                                                                • Mines and unexploded ordnance were cleared
 ANTICORRUPTION
                                                                   from 25% of the targeted area.

 GENDER EQUALITY


 CAPACITY


 ENVIRONMENTAL




                                         10              SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                               QUARTERLY HIGHLIGHT




GOVERNANCE                                                       • About 61 million textbooks—38 million for
Governance priorities include strengthening demo-                  primary schools and 22.8 million for secondary
cratic processes, improving the delivery of public                 schools—were published and distributed.
services, establishing the rule of law, increasing               • Approximately 317,000 Afghans, of whom 36%
access to justice, and deterring corruption. According             were female, graduated from literacy programs.
to the report, modest progress has been made in the              • The total electricity supply has increased from
following areas:                                                   485 MW in 2007 to 630 MW (including imports)
• The National Assembly passed 53 new laws,                        in 2009.
    including a water law and an anti-corruption law             • Detailed studies for the construction of several
    as well as laws relating to corporations, arbitra-             large dams have been completed.
    tion, intellectual property, and patents.                    • Some 13,000 water supply networks have been
• The government registered voters and conducted                   established and are providing access to potable
    presidential and provincial council elections.                 water to 2.8 million rural people.
• The Independent National Legal Training Center                 • Improvements in small-scale irrigation systems in
    was established to provide technical legal training.           1,891 villages have benefitted 644,777 households.
• The Independent Bar Association was established                • Agricultural gains include 53,000 metric tonnes
    to provide legal aid to the public.                            of wheat seed and fertilizer delivered to farmers,
                                                                   770 orchards established, 588 pistachio forests
ECONOMIC AND SOCIAL DEVELOPMENT                                    rehabilitated, and 3.2 million saplings planted.
The largest component of the ANDS, this pillar has               • Land surveys of a 339-square-km area identified
6 sub-pillars and 13 sectors. The sub-pillars include              500 gas fields and 400 mineral deposits.
Infrastructure and Natural Resources, Education and
Culture, Health, Agriculture and Rural Development,                  The ANDS puts a high priority on building a road
Social Protection, and Economic Governance. The                  network that facilitates the movement of people
report identifies the greatest gains in health and               within Afghanistan and connects the country to its
education. Noting positive developments in the high-             neighbors. Approximately 2,961 km of regional roads
priority sectors of energy, water resource manage-               have been completed. However, the ANDS report
ment, transport, and mining, the report highlights               observes that there has been no progress in the
the following:                                                   development of a fiscally sustainable system for road
• The Basic Package of Health Services is now                    maintenance.
    reaching 85% of the population.                                  According to the report, the GIRoA spending priori-
• 291 health sub-centers and mobile centers have                 ties are now in line with the ANDS but donor financing
    been established.                                            is not, in part because international grants to the
• Immunization programs cover 95% of children                    development budget have fallen. In 2008, the interna-
    under the age of five.                                       tional community pledged approximately $21 billion in
• The number of schools increased to 11,000,                     support of the ANDS, but about $7 billion of this was
    including 6,072 primary, 3,062 middle, and 1,866             a restatement of earlier pledges. That left only $13.9
    high schools.                                                billion in new resources. The GIRoA estimates that it
                                                                 will have a funding shortfall of approximately $3.2 bil-
                                                                 lion in the development budget in 2009/2010.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009             11
Training ANA Soldiers
An Afghan officer explains the coordinates used during a
live-fire exercise incorporating the Afghan National Army’s
4th Kandak forward observers, fire direction control person-
nel, and artillerymen on Forward Operating Base Kalagush
in Nuristan. (U.S. Army photo, Sgt. Matthew Moeller)
2
SIGAR
OVERSIGHT




    13
   “U.S. and donor funds are essential
  to rebuilding Afghanistan....Program
     coordination is becoming more
    difficult as the amount of funding
  for reconstruction increases and the
  number of...organizations involved...
  expands. The need for oversight, not
only of the contracting process, program
management, and quality assurance, but
 also of how U.S.-funded programs are
 aligned to advance U.S. policy goals...,
            has also increased.”
                             —Maj. Gen. Arnold Fields (Ret.)
Special Inspector General for Afghanistan Reconstruction




               Source: Testimony before the House Subcommittee on National Security and Foreign Affairs, 9/9/2009.




                   14                        SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




AUDITS
SIGAR issued 5 audit reports during this quarter and has 10 audits under way.
These audits address a range of issues that are critical to the effective implemen-
tation of the reconstruction program. They include not only contract oversight,
program management, and contractor performance, but also the degree to which
reconstruction projects funded by taxpayer dollars are helping the United States
achieve its strategic objectives in Afghanistan. Two of the audit reports published
over the past three months assessed aspects of the August 20 presidential and
provincial council elections, which the United States had identified as essential
to establishing a sustainable government.


COMPLETED AUDIT REPORTS
Four of the audit reports completed this quarter assessed facets of U.S. efforts
to improve governance. They include two reports on aspects of the presidential
and provincial council elections and two related to the anti-corruption effort. The
fifth audit report evaluates the accountability of the Commander’s Emergency
Response Program (CERP), a program intended to fund primarily small-scale
projects to meet urgent humanitarian and reconstruction needs in the provinces.

Strategy and Resources Needed To Sustain Afghan Electoral
Capacity, SIGAR Audit 09-06 (Elections)
The international community provided $488 million in assistance to support the
August 20 presidential and provincial council elections. The United States con-
tributed $263 million, more than half the total amount. The United Nations (UN),
which managed the majority of the international funding, focused its efforts on
fulfilling immediate and operational needs. These efforts included supporting the
development of regulations and procedures, hiring temporary staff, procuring
electoral equipment and supplies, and coordinating security planning.
   Developing Afghanistan’s institutional capability to conduct credible elections
is essential to building and sustaining a government that its citizens see as legi-
timate. The Afghan Independent Election Commission (IEC), which must also
conduct parliament and district council elections in 2010, faces significant chal-
lenges; without international support, it lacks the resources to manage elections.
Conducting credible elections depends not only on the integrity of the election
process but also on the willingness and ability of the next Afghan government
to build the Commission’s capabilities so that democratic principles and the
electoral process are sustained. SIGAR found that while the UN recognizes the



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009          15
SIGAR OVERSIGHT




need for capacity development, it has not developed a long-term strategy to build
elections capacity.
   SIGAR recommended that the U.S. Embassy in Kabul, in consultation with
the U.S. Agency for International Development (USAID), assist the Government
of the Islamic Republic of Afghanistan (GIRoA) in developing a strategic plan to
build Afghan capacity to conduct elections. The plan should include an Afghan
budget and human resource structure capable of supporting sustainable elec-
tion processes. SIGAR also recommended that U.S. officials urge the UN to hire
a capacity development advisor or appoint an executive agent to coordinate an
overall strategy with the IEC, the UN, and major donors and stakeholders for
monitoring the status and progress of all capacity-building efforts in Afghanistan.
The U.S. Embassy in Kabul and USAID concurred with the recommendations and
stated they will work through diplomatic and aid channels to implement them.

Barriers to Greater Participation by Women in Afghan Elections,
SIGAR Audit 10-1 (Elections)
SIGAR reviewed the level of women’s participation in the August 20 elections and
the extent to which the GIRoA created an environment in which women could
vote freely. Although the Afghan constitution mandates equal rights for men and
women and the Afghan National Development Strategy (ANDS) puts a priority
on increasing the participation of women in public affairs, SIGAR found that
women candidates and women voters faced numerous obstacles. The insecure
environment, coupled with cultural and structural constraints, limited the ability
of women to register, campaign, and vote in the elections. Election observers
reported a low turnout of women voters. They noted that those who did go to the
polls sometimes voted on instructions from their families or from people present
at the polling station. Moreover, election observers witnessed incidents of men
voting as proxies for women.
   Many groups, including national and international non-governmental organiza-
tions (NGOs), the UN, and GIRoA institutions, mounted civic education pro-
grams in the months preceding the elections, to encourage women to participate.
However, the IEC and the UN did not focus sufficiently on women’s issues. For
example, the IEC recruited only half of the 80,000 staff members it needed for
polling centers. As a result, there were no women electoral workers present at as
many as 650 polling centers (slightly more than 10%).
   SIGAR recommended that the U.S. Ambassador to Afghanistan, in conjunc-
tion with the UN, urge the IEC to recruit and train additional female election
workers; communicate to all IEC staff the importance of following the electoral
law, which prohibits proxy voting; and reprimand and report violators of the law.
To guarantee that women can register and vote free from intimidation, the IEC
should ensure that registration and polling center locations are secure and acces-
sible, and that polling centers have female staff. Broad civic education programs
are needed to raise awareness of the right of women to participate fully in the
electoral process.




  16               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




   USAID/Afghanistan and the U.S. Inter-agency Elections Team endorsed the
recommendations in the SIGAR report. The U.S. Ambassador to Afghanistan will
urge the IEC, in conjunction with the UN, to implement the necessary corrective
actions.

Actions Needed To Resolve Construction Delays at the Counter-
Narcotics Justice Center, SIGAR Audit 09-4 (Justice Reform)
The Counter-Narcotics Justice Center in Kabul, a key component of the U.S.
and Afghan counter-narcotics efforts, opened earlier this year and has already
reached capacity. The $11 million center, which houses Afghanistan’s sole court
for the prosecution and appeal of significant narcotics cases, urgently needs ad-
ditional detention and support facilities.
   SIGAR found that plans to expand the center have been delayed for 18 months
because of insufficient funding and inadequate utilities. The U.S. Army Corps of
Engineers has not been able to secure any construction bids within the amount
approved by the Department of State (DoS) under a $2 million inter-agency
support agreement. Moreover, expanding the facilities requires upgrading the
water, sewer, and electrical utilities. Although $1.4 million remained of the funds
originally obligated to this project, the Corps was reluctant to use this money to
make upgrades that were not included in the original scope of work. It also had
concerns about whether the funding was still available.
   Given the importance of the Center to the counter-narcotics effort, SIGAR
recommended that DoS amend the original scope of work of the inter-agency
support agreement to include the utility upgrades. SIGAR also recommended
that DoS either increase the amount of funding under that agreement to cover
the additional costs of building the detention and support facilities or issue a
new agreement to include the needed funding.
   The DoS’s Bureau of International Narcotics and Law Enforcement Affairs
(INL) generally concurred with the report’s findings and recommendations but
objected to the provision that funding be limited to a specific inter-agency sup-
port agreement. SIGAR did not intend to restrict the funding mechanism and
modified the recommendation accordingly. The Corps of Engineers concurred
with the report’s recommendations and indicated that it would work closely with
INL to ensure completion of the expansion of the Counter-Narcotics Justice Cen-
ter after execution of an amended or new inter-agency support agreement.

Documenting Detention Procedures Will Help Ensure
Counter-Narcotics Justice Center Is Utilized as Intended,
SIGAR Audit 09-07 (Justice Reform)
While assessing the causes for the delays in expanding the Counter-Narcotics
Justice Center, SIGAR auditors identified that all detention cells were occupied
by low-profile detainees in July 2009. According to officials from DoS and the
Department of Justice (DoJ), the Center, which consists of a detention building,
a courthouse, offices for judges and prosecutors, and related support facilities,
was built to deal with higher-profile drug traffickers. INL officials indicated that



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009            17
SIGAR OVERSIGHT




several factors, including overcrowding at the Ministry of Justice (MoJ) and Min-
istry of Interior (MoI) detention centers in Kabul, accounted for the detention of
mostly low-level drug traffickers.
   DoJ officials indicated that as of September 25, 2009, the Center was housing
three high-value criminals and has housed several other important targets in the
past. Some DoJ officials said that the prosecution of low-level drug traffickers
has provided useful information about higher-value targets. Moreover, DoJ and
INL officials maintained that no high-value detainees had been turned away for
lack of space. However, the Center has no written procedures for ensuring the
availability of detention cells for the mid- to high-level drug traffickers.
   The conduct of effective investigation and prosecution of criminals depends
upon investigators and prosecutors having good access to the detainees. If major
narcotics offenders are not present at the Counter-Narcotics Justice Center, it
becomes more difficult for the Criminal Justice Task Force to investigate them
and for the Central Narcotics Tribunal to prosecute them successfully.
   SIGAR recommended that the U.S. Ambassador to Afghanistan work with the
appropriate U.S. and Afghan officials to formalize and document procedures to
ensure that the detention facilities at the Counter-Narcotics Justice Center give
priority to mid- to high-level drug traffickers. The U.S. Embassy in Kabul con-
curred with SIGAR’s recommendation to formalize evaluation procedures for de-
tainees at the Center. The Embassy’s Coordinating Director for Development and
Economic Affairs indicated that, based on SIGAR’s recommendations, a process
is now under way to formalize the evaluation procedures conducted by Afghan
police investigations and prosecution staff and the Central Prison Directorate
command, in conjunction with their respective mentors.

Increased Visibility, Monitoring, and Planning Needed for
Commander’s Emergency Response Program in Afghanistan,
SIGAR Audit 09-05 (Commander’s Emergency Response Program)
Since 2004, the Congress has provided $1.6 billion to the Department of Defense
(DoD) for the Commander’s Emergency Response Program (CERP) in Afghani-
stan. CERP was created to fund primarily small-scale projects to meet urgent
humanitarian and reconstruction needs at the community and provincial levels.
   SIGAR found that while DoD has established procedures to account for CERP
funds, it has not established adequate mechanisms for monitoring and execut-
ing CERP projects. Program managers told SIGAR that their primary focus was
on obligating funds for projects rather than monitoring their implementation.
Program managers have limited visibility over the execution of CERP projects in
part because U.S. Forces - Afghanistan (USFOR-A), which oversees CERP, has
no central system for retaining the physical files in Afghanistan and electronic
records are either incomplete or nonexistent. For example, during the audit, pro-
gram officials at USFOR-A were unable to identify the number of ongoing CERP
projects funded before FY 2009.




  18               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




    SIGAR also found that CERP funds increasingly are being obligated for
large-scale projects that cost $500,000 or more. While these large-scale projects
account for only 3% of all projects, they consume 67% of CERP funds. These
projects pose increased risks for CERP because they are usually more complex
than the small projects and require several years to complete. Most CERP pro-
gram managers have been trained to implement smaller-scale projects. Moreover,
troop rotation schedules result in a lack of continuity in the management of
large, long-term projects.
    SIGAR recommended that the Commander of USFOR-A develop and imple-
ment, 1) a process to systematically collect and track information on CERP
projects, 2) a centralized system for maintaining records, and 3) a plan that
addresses how to manage the heightened risks associated with projects costing
$500,000 or more.
    USFOR-A agreed with the first two findings of the report and outlined sev-
eral actions it plans to take to address the deficiencies identified. These actions
include adding project managers for CERP administration, strengthening elec-
tronic record requirements, adding civilian information managers to facilitate
record keeping, setting limitations on the numbers of projects by region, and
reducing monetary approval authorities. These actions, if fully implemented, will
lessen program risk.
    USFOR-A disagreed that projects of $500,000 or more pose a risk for CERP. In
its response to the SIGAR draft report, USFOR-A indicated that most of its large-
scale projects were roads. “We have executed enough roads that we understand
those better than many smaller projects,” USFOR-A wrote. “With our history of
projects we know exactly how much a kilometer of grading costs, how much a
ton of gravel costs, how much a culvert costs, and so on. The contractors at this
point are known quantities in terms of abilities and performance.” The USFOR-A
response concluded, “Smaller projects can be very diverse, some being scoped
for the first time, and many involve vertical construction requiring the PPO [Proj-
ect Purchasing Officer] to have a working knowledge of utilities, building codes,
and land ownership issues. These issues are far more complex than road work.”5


ONGOING AUDITS
SIGAR has 10 additional audits under way. They address issues of security,
governance, and development. Auditors are evaluating agency procedures,
contractor performance, U.S. and international assistance, and Afghan institu-
tional capabilities.

Review of Agencies’ Management Oversight, Procedures,
and Practices for Reconstruction Funds and Projects
SIGAR is conducting a series of audits to evaluate how implementing agencies
are managing the reconstruction program. These audits examine an agency’s
ability to develop and manage projects, establish performance metrics, and con-
trol and account for funding flows. SIGAR previously reported on the Combined




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009          19
SIGAR OVERSIGHT




Security Transition Command - Afghanistan’s (CSTC-A’s) oversight of its own pro-
grams. In the audit currently under way, SIGAR is reviewing oversight at USAID.

Review of Contractor Performance and Agency Oversight of
USAID Contracts in Afghanistan with Louis Berger Group
This audit will identify the contracts that USAID has with the Louis Berger Group
and assess USAID’s oversight of this contractor. As part of its review, SIGAR is
analyzing the USAID Inspector General’s findings of the work performed by the
Louis Berger Group.

Review of U.S. and International Donor Programs To Assist
Afghanistan’s Energy Sector
In the first of a series of audits assessing reconstruction projects within a sector,
SIGAR is examining the U.S. and international programs in the energy sector.
The audit will
• identify U.S. and international goals for the reconstruction and sustainment
    of Afghanistan’s energy sector
• determine what performance metrics are used to evaluate whether project
    milestones and outcomes are adequately tracked
• assess the progress and results of energy sector reconstruction efforts
    against the ANDS and other criteria
• assess coordination between U.S. and international agencies in the energy
    sector
• assess Afghan participation in decisions and in the implementation of recon-
    struction programs

Review of U.S. Assistance for the Preparation and Conduct of
Presidential and Provincial Council Elections in Afghanistan
The last in a series of reports on the election process, this audit will
• identify all U.S. and international assistance for the election process
• assess the overall effectiveness of that assistance in areas such as voter reg-
  istration, voter education, polling center security, ballot box integrity, vote
  tallying, and resolution of allegations of fraud
• identify the strengths and weaknesses of the entire process and the lessons
  learned for future elections

Review of U.S. and Other Donor Efforts To Address and
Build Afghanistan’s Capacity to Address Corruption
SIGAR has initiated a series of audits to review the oversight and anti-corruption
capabilities of GIRoA institutions at the national level. These audits will assess
U.S. and donor efforts to strengthen Afghan capacity to implement internal
controls and account for funds. SIGAR will focus particularly on the ability of
Afghan officials to account for U.S. funds used by selected ministries. SIGAR is
evaluating the capability of the High Office of Oversight (HOO) to execute its




  20                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




mission as Afghanistan’s top oversight agency. This audit will identify U.S. and
donor assistance to the HOO and determine the degree to which this assistance
has been effective.

Review of U.S. and Other Donor Efforts To Address
and Build Afghanistan’s Capacity To Address Corruption
in the Provincial Governments
SIGAR has initiated a series of audits to review the oversight and anti-corruption
capabilities of GIRoA institutions at the provincial level. These audits will evalu-
ate U.S. and donor efforts to strengthen the capacity of provincial offices to imple-
ment internal controls and account for funds. SIGAR will assess the capacity of
provincial offices to account for U.S. funds used to support provincial activities.

Review of Agencies’ Use of Contractors To Provide
Security for Reconstruction Programs in Afghanistan
SIGAR is conducting a review to identify the number and volume of contracts to
provide private security services in Afghanistan. This assessment will
• identify the number of security contractors and personnel
• assess agencies’ management of security contractors and personnel
• determine the extent to which GAO and the inspector general community
   have conducted audits of private security contracts

Assessment of the Capabilities of the
Afghan National Security Forces
SIGAR is conducting this audit to determine the capacity of the Afghan National
Security Forces (ANSF) to provide security for the Afghan population. The
audit will
• identify the procedures by which ANSF capabilities are measured and verified
• assess the extent to which readiness assessment methods vary
   between and within the Afghan National Army (ANA) and the Afghan
   National Police (ANP)
• determine the degree to which the capability rating system provides a reli-
   able profile of ANSF capabilities
• identify the extent to which challenges have impeded the United States’ abil-
   ity to assess ANSF capabilities

Review of Afghan National Security Forces
Personnel Management
SIGAR is conducting this audit to evaluate the capacity of the ANSF to manage
personnel. It will describe and assess
• the extent to which ANA and ANP personnel have been counted and validated
• actions taken by the United States and international donors to support the
   development of ANSF personnel accounting systems




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009           21
SIGAR OVERSIGHT




• challenges associated with the completion and maintenance of routine sys-
  tems for personnel accounting
• the extent to which inaccurate personnel numbers have led to additional
  challenges, including the fraudulent collection of ANSF salaries

Review of the Use of Funds Earmarked for
Afghan Women and Girls
SIGAR is conducting this audit to identify how U.S. funds earmarked by Con-
gress for women and girls have been used and the extent to which their use has
complied with U.S. legislative requirements. SIGAR is also assessing how agen-
cies measure the effectiveness of these programs and what agencies are doing to
ensure their sustainability.



INSPECTIONS
SIGAR conducts inspections of Afghanistan reconstruction projects to deter-
mine whether U.S. funds are being used appropriately, contract terms are met,
adequate oversight is provided, and the project will be sustained following its
turnover to Afghan authorities. SIGAR issued five inspections reports during this
quarter and has seven inspections under way.
   The inspection reports issued during this quarter cover one road and four
school projects in Kapisa Province. SIGAR looked at road and school construc-
tion because both have been long-standing reconstruction priorities. SIGAR
inspections have identified concerns about the capacity of Afghans to sustain
completed projects.
   The United States, through DoD and USAID, has provided approximately $1.7
billion for road construction projects in Afghanistan since 2002. More than $800
million of this amount was funded through CERP between 2005 and 2009. Since
2005, road construction has accounted for 63% of all CERP funds.
   In support of Afghanistan’s educational goals, the United States has built hun-
dreds of schools and educational facilities across the country since 2002. In 2008,
Regional Command East—which covers 14 provinces—approved a major school
construction initiative using CERP funds. As part of this initiative, 12 school con-
struction projects have been started in Kapisa over the past 18 months. The four
schools that SIGAR inspected are located in Nijrab District, a remote, rugged,
mountainous area in the heart of the province.
   Ongoing inspections are assessing the capacity of Provincial Reconstruction
Teams (PRTs) to manage reconstruction efforts as well as at the implementation
of individual infrastructure projects. Because PRTs are on the front line of the
reconstruction effort, these inspections will determine whether a PRT is
• staffed adequately to conduct its reconstruction mission
• coordinating U.S. reconstruction efforts with inter-agency partners, coalition
    partners, Afghan authorities, and other stakeholders



  22                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




• adequately executing project management and contract oversight
  responsibilities
• complying with applicable guidelines from CERP and the International Secu-
  rity Assistance Force guidelines
• facilitating the ability of the GIRoA to sustain the infrastructure improve-
  ments provided by U.S. funding
• ensuring effective handover and transfer of tasks to successor PRT
  commanders and staff


COMPLETED INSPECTIONS
During this quarter, SIGAR completed five inspections of infrastructure projects
in Kapisa. One looked at a road project and four at school construction projects.

Inspection of Mahmood Raqi to Nijrab Road Project in Kapisa
Province: Contract Requirements Met; But Sustainability
Concerns Exist, SIGAR Inspection 09-2
SIGAR inspected a CERP-funded project that is building a 28.5-km road to con-
nect Kapisa’s provincial capital, Mahmood Raqi, with Nijrab, a town in an isolat-
ed area of the province. The Kapisa PRT developed the road construction plan in
coordination with Afghan provincial officials in 2008 as part of a larger program
to build 13 CERP-funded asphalt roads in the province. The PRT awarded a $6.6
million fixed-price contract to an Afghan company to build the road. By mid-
August, when SIGAR conducted its inspection, the road was about 60% complete.
   SIGAR found that the construction was on schedule and within the original
cost estimates. The Afghan contractor was using acceptable quality control
procedures. However, SIGAR is concerned that the project will not be sustained.
Although the Kapisa PRT had received assurances from the Kapisa Province Min-         The Mahmood Raqi to Nijrab Road in
                                                                                      Kapisa Province before contruction. (Kapisa
istry of Public Works (MoPW) that it would maintain the road, SIGAR found that
                                                                                      PRT photo)
the ministry lacks the equipment, materials, and personnel needed to maintain
and repair paved roads. The road is being built to last five years before serious
repairs are needed, but heavy traffic, including overweight trucks and armored
vehicles, is likely to significantly degrade large sections of it before five years
have passed. The DoD Financial Management Regulation (FMR) does not allow
CERP funds to be used for the maintenance and sustainment of infrastructure
projects such as this road. CERP funds cannot be used for military purposes.
Although the primary purpose of the roads is to facilitate transportation and
communication for Afghans, the U.S. military also uses the roads.
   SIGAR recommended that the Kapisa PRT and other appropriate U.S. authori-
ties, in partnership with the Kapisa Province MoPW, develop a sustainability plan
to provide for preventive maintenance and repairs.
   In its comments on the draft report, USFOR-A partially concurred with the
information in the report. It pointed out that although the FMR requires the Com-
mander to ensure that appropriate Afghan authorities are prepared to maintain
completed projects, “the evidence is overwhelming that Afghanistan cannot




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009          23
                                          SIGAR OVERSIGHT




                                          sustain the projects we complete.”6 “There is an unwritten obligation to make
                                          progress with respect to reconstruction,” wrote USFOR-A. “We continue to build
                                          and meet the sustainment requirement for the FMR by gracefully expecting the
                                          GIRoA to one day be able to fulfill its share of the bargain by maintaining the
                                          projects they said they would when transferred to them.”7

                                          Inspection of the Farukh Shah School Construction Project
                                          in Kapisa Province: Project Completion Approved Before All
                                          Contract Requirements Met, SIGAR Inspection 10-1
                                          Construction of the Farukh Shah Secondary School, which is designed to serve
                                          an isolated community with a growing population of children who previously
                                          did not have access to adequate school facilities, has been delayed for two years
                                          owing to repeated problems with contractors. The Kapisa PRT approved this
                                          $150,000 school project using CERP funds in January 2007. The work completed
                                          by the first contractor was deemed substandard. A second company took over
Placement of asphalt on the Mahmood
Raqi to Nijrab Road. (Kapisa PRT photo)
                                          the contract in February 2009 but also proved unable to complete the project to
                                          contract standards within the budget. The PRT terminated the second contract in
                                          May 2009 and engaged a third contractor to finish the construction. PRT officials
                                          issued a Project Closure Report on August 8, 2009.
                                             SIGAR found that the PRT had closed out the project before all the work
                                          required by the statement of work was completed. The remaining work includes
                                          completing the school building, latrine, guardhouse, power plant, and water
                                          pump, and cleaning up the site. SIGAR also found two project flaws that could
                                          affect the long-term viability of the school’s infrastructure. Improper grading,
                                          which includes a lack of terracing to mitigate the effects of soil erosion, and the
                                          absence of a retaining wall increase the risk that landslides will eventually dam-
                                          age the various structures in the school compound. SIGAR believes both these
                                          items should have been anticipated and included in the project’s scope of work.
                                             SIGAR recommended that the Commander of the Kapisa PRT
                                          • issue a follow-up contract to address the construction deficiencies noted in
                                             the report
                                          • place greater emphasis on developing detailed scopes of work which antici-
                                             pate and address critical design issues that are particular to each construc-
                                             tion project rather than relying solely on standard design plans
                                             The Kapisa PRT generally concurred with the information and recommenda-
                                          tions presented in the report.

                                          Inspection of Abdul Manan Secondary School Construction
                                          Project in Kapisa Province: Insufficient Planning, Safety
                                          Problems, and Poor Quality Control Affect Project Results,
                                          SIGAR Inspection 10-2
                                          In the summer of 2008, the Kapisa PRT developed a project to build a two-story
                                          school building to accommodate 800 students in a remote part of Nijrab District.
                                          In addition to the school, the CERP-funded project called for the construction of




                                            24               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




a building to house a 10-kilowatt diesel fuel generator, a 10-stall latrine, a hand-
operated water pump and reservoir, a stone masonry perimeter wall for security,
a guardhouse, and concrete walkways. The contractor was also responsible for
site preparation, removal of rubble and refuse, and the fabrication and installa-
tion of bench desks for 800 students.
   SIGAR found the project was significantly behind schedule, over budget, and
not in compliance with the quality standards required in the statement of work
and the national Ministry of Education design plans. SIGAR inspectors also
raised concerns about the structural integrity of the school building, which was
located on a steep slope. The contractor had not installed a proper retaining wall
to protect the school from the water runoff, rock falls, and mudslides that occur
every spring.
   SIGAR noted that problems began with the award of a contract in September
2008 to the Provincial Director of Education. Revised guidelines prepared in the
fall of 2008 by the U.S. Central Command prohibited line ministries from receiv-
ing contracts for CERP-funded projects. The Kapisa PRT had to cancel the con-
tract, which delayed the project for several months. A new contract was issued
in January 2009. The cost of the project increased from $208,000 to $250,000 by
May 2009 because the original scope of work had not included several structural
components, such as a guard building and perimeter wall, that the national Minis-
try of Education requires for every school.
   SIGAR identified serious flaws in the design plan and documented several
instances of poor construction. One of the more serious issues is that, in the
current design, the 10-stall latrine empties above a stream that provides potable
water for the local community. Although the PRT repeatedly raised this problem
with the contractor, construction of the latrine is continuing at the original site.
   SIGAR recommended that the Commander, USFOR-A and the Commander,
Kapisa PRT
• take actions to correct the multiple deficiencies noted in this report, includ-
    ing ensuring both the statement of work and the design plan for this project
    reflect specific construction requirements such as site location and contrac-
    tor capabilities
• develop standardized quality assurance guidelines that can be used to man-
    age this and other CERP-funded projects

   USFOR-A and the Kapisa PRT concurred with the first recommendation.
USFOR-A concurred with the second recommendation. The Kapisa PRT partially
concurred but stated that quality assurance plans need to be flexible enough to
allow PRT engineers to tailor specifics to each project’s unique requirements.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009           25
SIGAR OVERSIGHT




Inspection of Habib Rahman Secondary School Construction
Project in Kapisa Province: Design and Safety Issues Require
Attention, SIGAR Inspection 10-3
The design plan for the Habib Rahman Secondary School called for a two-story,
24-classroom building to accommodate 2,000 students. After a series of contract
award problems, the PRT awarded the current $312,000 contract in December
2008. In addition to the school building, the contract calls for the construction of
a power generation house to accommodate a 10-kilowatt diesel fuel generator, a
latrine, a hand-operated water pump and reservoir, and concrete walkways. The
contractor is to remove all rubble and refuse.
   SIGAR found that the PRT’s management and quality assurance program was
inadequate during the early phases of this project’s implementation. The project
suffered from a number of contracting missteps, a lack of project documenta-
tion, and insufficient quality control measures. However, SIGAR noted general
improvements during on-site visits in June and August 2009. SIGAR found that
construction was largely on time and within budget, and generally met the con-
tract’s quality requirements as a result of improved project oversight by the PRT.
   SIGAR found two areas of concern that required attention. First, unfinished
work left over from earlier construction at the site continues to cause major
design and safety issues. The contract does not require the removal of the prior
construction, and currently there are no plans to remove it. SIGAR believes the
abandoned construction occupies valuable space that could be used for a num-




Unfinished work not removed from earlier construction at Habib Rahman Secondary School, caus-
ing major design and safety issues. (SIGAR photo)




   26                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




ber of other purposes. Additionally, it presents an unsafe environment for school
children in its current state. Second, the lack of a reinforced retaining wall and
the associated earth removal work needed in the rear of the school, which is
adjacent to the base of a hill, could pose a hazard to building occupants from
potential rock and mudslides.
   USFOR-A and the Kapisa PRT concurred with the information in the report
and partially agreed with the recommendations. For example, the PRT agreed
with the need to address some deficiencies, particularly the rear retaining wall.
However, it indicated that the local government and community leaders did not
want the partially constructed structure demolished.
   SIGAR recommended that the Commander, USFOR-A, and the Commander,                 Back wall of Habib Rahman Secondary
                                                                                     School showing the lack of a reinforced retain-
Kapisa PRT, initiate a CERP project to correct the design and safety deficiencies    ing wall, posing a hazard from potential rock
identified in the report.                                                            and mudslides. (Kapisa PRT photo)


Inspection of Kohi Girls’ School Construction Project in Kapisa
Province: Construction Delays Resolved, But Safety Concerns
Remain, SIGAR Inspection 10-4
The Kapisa PRT, after receiving a request from the provincial government in the
summer of 2008, developed a proposal for the Kohi Girls’ School construction
project. The intent was to build a school compound for young girls who resided
in an area where they had no access to formal education.
    A series of contracting problems, including an improper award to the Provin-
cial Director of Education which was in conflict with revised CERP guidelines,
forced the PRT to execute a revised bid process in January 2009. The current
$220,000 contract was signed in January 2009. It calls for a two-story, 16-class-
room school building to accommodate 500 students in the ethnically polarized
Afghaniya Valley area of Nijrab District. In addition to the school building, the
contract calls for the construction of a power generation house to accommodate
a 10-kilowatt diesel fuel generator, a latrine, a hand-operated water pump and
reservoir, and concrete walkways. The contractor is to remove all rubble and
refuse.
    The project was about 30% complete at the time of SIGAR’s first site visit in
June 2009. SIGAR noted the project experienced significant construction delays
because the contractor had reduced his work force as a result of a shortage of
operating capital during the early stages of construction. Subsequent to SIGAR’s
follow-up visit in August, the contractor received the next scheduled payment,
following certification by the PRT that 40% of the project work had been com-
pleted. This payment allowed the contractor to hire the additional workers need
to accelerate the pace of construction. Consequently, SIGAR found the work to
be generally meeting the contract’s time, budget, and performance requirements.
SIGAR also observed potentially hazardous war-related debris on property that
is shared by the new girls’ school and an adjoining boys’ school. SIGAR believes
that removal of this war-related debris and other hazardous material should have
been included in the original statement of work for the contract.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009         27
                                          SIGAR OVERSIGHT




                                             SIGAR recommended that the Commander, Kapisa PRT, in partnership with
                                          the Kapisa provincial authorities, develop a plan for the removal of war-related
                                          debris from areas adjacent to the Kohi Girls’ school construction project that it
                                          shares with other Provincial Ministry of Education facilities.
                                             The Kapisa PRT partially concurred with SIGAR’s recommendation. However,
                                          USFOR-A and the Kapisa PRT questioned whether CERP guidelines allowed the
                                          removal of war-related debris from an area that was not the project site.


                                          ONGOING INSPECTIONS
                                          SIGAR’s seven ongoing inspections are assessing PRT capabilities and examining
                                          infrastructure projects.
SIGAR recommends removal of potentially
hazardous war-related debris from Kohi
Girls’ School. (SIGAR photo)              Inspections of the Management and Operational
                                          Capabilities of PRTs
                                          SIGAR is currently inspecting the management and operations of two PRTs: the
                                          Kapisa PRT and the Farah PRT. At the same time that SIGAR is assessing the
                                          overall capabilities of a PRT, it conducts inspections of individual PRT-managed
                                          projects. In Kapisa, for example, SIGAR conducted the five inspections discussed
                                          in the preceding section. The final report on the management and operations of
                                          the Kapisa PRT will be issued during the next quarter. In addition to the Farah
                                          PRT assessment, SIGAR will issue inspection reports on two individual projects:
                                          the Farah Radio and Television Broadcast Studio and the Togj Bridge.

                                          Inspections of Large Infrastructure Projects
                                          SIGAR is currently inspecting three large infrastructure projects worth about
                                          $400 million: two ANSF facilities funded through CSTC-A and the Kabul Power
                                          Plant, funded by USAID. In each case SIGAR will determine whether
                                          • the contract reflects the requirements identified during the development of
                                             the project
                                          • implementation of the project has been coordinated with the GIRoA and
                                             interested members of the Afghan public
                                          • the work complied with the terms and conditions of the contract
                                          • the U.S. government provided adequate oversight and quality assurance
                                          • the GIRoA has the capacity to maintain the infrastructure following handover


                                          THE SIGAR HOTLINE
                                          SIGAR operates a hotline with physical locations in Afghanistan and the United
                                          States to enable U.S. and coalition military and civilian personnel, contractors,
                                          and Afghan citizens to lodge complaints and allegations of waste, fraud, and
                                          abuse related to the reconstruction effort. Hotline complaints can be lodged by
                                          telephone, on the SIGAR Web site (www.sigar.mil/fraud), by letter, or in person.
                                          Every complaint is entered in a management database.




                                            28               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                         SIGAR OVERSIGHT




FIGURE 2.1

SIGAR HOTLINE COMPLAINTS RECEIVED THIS QUARTER


  Assigned/Open                                                                       16

    Referred Out                                     7

   Under Review         1

         Closed                                                           13


                   0                        5                 10                 15

Source: SIGAR Inspections Directorate, 10/22/2009.


  SIGAR has established a Hotline Complaints Review Committee (HCRC),
which is responsible for the initial consideration of all complaints. The HCRC
conducts a weekly review of complaints and takes one of these actions:
• assigns the complaint to a SIGAR directorate to gather additional information
• refers the complaint to another agency or inspector general
• closes the complaint, either because it is found to have no merit or because
   SIGAR is unable to obtain the minimal information needed to assess the
   complaint

   During this reporting period, SIGAR received 37 complaints. Of these, 16
have been assigned to SIGAR directorates for further investigation, 7 have been
referred to other agencies or inspectors general, one is still under review by the
Inspections Directorate, and 13 have been closed. SIGAR has assigned 12 of
the 16 complaints to its Investigations Division to review for potential criminal
activity. The remaining four have been assigned to other SIGAR directorates.
Allegations include election fraud, contract fraud (bid rigging and price fixing),
theft, non-payment for goods and services delivered, unfair hiring, whistleblower
retaliation, and waste of U.S. taxpayer dollars.
   Since the hotline’s launch in May 2009, SIGAR has received a total of 73 com-
plaints. Of these, 27 have been referred to other agencies, 22 have been assigned
for further assessment within SIGAR, one is still under review by the Investiga-
tions Directorate, and 23 have been closed. Figure 2.1 shows how the complaints
were submitted.


INVESTIGATIONS
The Investigations Directorate conducts criminal and civil investigations of
corruption, fraud, waste, and abuse involving the use of reconstruction funds in
Afghanistan. SIGAR investigations support the criminal prosecution of individu-
als through the DoJ and the offices of the Judge Advocates General. They also
facilitate the civil recovery of U.S. reconstruction funds through federal and
military judicial remedies.



            REPORT TO THE UNITED STATES CONGRESS          I   OCTOBER 30, 2009             29
SIGAR OVERSIGHT




   During this quarter, SIGAR focused on building a robust investigations team
and developing a comprehensive investigative strategy to combat fraud, waste,
and abuse; initiated seven new criminal investigations; and contributed to the
indictment of two individuals and one company accused of bribery. SIGAR is cur-
rently involved in the investigation of 30 pending criminal matters and evaluating
5 other allegations.


EXPANSION OF INVESTIGATIONS STAFF
With the additional funding provided for SIGAR in the FY 2009 Supplemental
Appropriation in June, SIGAR has been able to hire 10 former special agents, in-
cluding an assistant inspector general to oversee the Investigations Directorate,
from the federal law enforcement and inspector general communities. SIGAR
is building a team of investigators who have experience relevant to uncovering
criminal activities related to reconstruction. SIGAR investigators have expertise
in addressing procurement and government contract fraud, corruption, financial
crimes, and money laundering. They represent a cross-section of the federal law
enforcement and inspector general communities, including the Federal Bureau
of Investigation, the Criminal Investigation Division of the U.S. Department of
Army, the Naval Criminal Investigative Service, the Internal Revenue Service
Criminal Investigations Division, and the offices of the inspectors general offices
of the Department of Interior and DoS. SIGAR is currently evaluating candidates
for seven additional special agents, two prosecutors, two forensic intelligence
analysts, and a program manager. Figure 2.2 shows how the investigations team
is organized and deployed.

FIGURE 2.2

INVESTIGATIONS DIRECTORATE ORGANIZATIONAL CHART


                                              Assistant Inspector General                Program
                                                     Investigations                      Manager




                         Deputy Assistant                                    Deputy Assistant
  Analyst               Inspector General                                   Inspector General           Analyst
                               (U.S.)                                          (Afghanistan)




   SIGAR         Regional       Regional                Kabul   Kandahar      Bagram           CSTC-A   Future
    HQ            Office I      Office II                                      AFB                       Sites


       Current
       Planned

Source: SIGAR Investigations Directorate, 10/16/2009.




   30                        SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




INVESTIGATIVE STRATEGY
SIGAR has developed a multifaceted strategy to ensure the effective and efficient
utilization of its investigative resources. SIGAR is a member of the International
Contract Corruption Task Force (ICCTF), the principal organization coordinating
federal cases that involve contract fraud and corruption related to U.S govern-
ment spending in Southwest Asia.8 As the only member of the ICCTF whose sole
mandate is to investigate criminal activity related to the use of U.S. reconstruction
funds in Afghanistan, SIGAR is establishing a dominant presence at key locations
across Afghanistan. SIGAR special agents are being deployed throughout provinc-
es where the highest value and volume of reconstruction contracts are being man-
aged. Special agents are developing investigative leads and intelligence through
direct contact with the full spectrum of public and private entities involved in the
reconstruction effort: U.S. government officials, contractors, and Afghan nationals.
SIGAR investigators are aggressively exploiting all information provided through
the organization’s hotline. They are also leveraging the expertise in SIGAR’s audit
and inspections divisions to identify contract irregularities and suspicious activi-
ties. Equally important, SIGAR is continuing to collaborate with the ICCTF to
develop intelligence, share resources, and conduct joint investigations.


THE INTERNATIONAL CONTRACT CORRUPTION TASK FORCE
The ICCTF, which has offices in Kabul, Bagram, and Kandahar, investigates and
refers cases for prosecution to the International Sub-Committee of DoJ’s Na-
tional Procurement Fraud Task Force. SIGAR has deployed special agents to
these ICCTF offices to collaborate with task force members on joint investiga-
tions throughout Afghanistan. As of September 30, 2009, the ICCTF was actively
investigating 38 criminal matters. SIGAR is the lead investigative agency or a joint    FIGURE 2.3
participant in 30 of these cases. In addition, SIGAR is working closely with the
Office of the Special Inspector General for Iraq Reconstruction (SIGIR) to identify     SIGAR INVESTIGATIONS BY CLASSIFICATION
targets of SIGIR inquiries and investigations who may be operating in Afghani-
stan. The current distribution of the pending case load is depicted in Figure 2.3.                          Total: 30 Cases

                                                                                                                                Insufficient
INVESTIGATIVE ACCOMPLISHMENTS                                                                                                   Information
During this reporting period, joint ICCTF investigations resulted in the convic-                                                5%
tion of two individuals accused of attempting to bribe a U.S. official. In another
                                                                                                                          Bribery
case, the U.S. government entered into plea agreements with two individuals and                           Fraud           27%
a company indicted for bribery and conspiracy.                                                            33%
   On August 7, two dual Afghan-U.S. citizens pleaded guilty to one count of
offering a $1 million bribe to a U.S. Army contracting official in Afghanistan. The
bribery charge carried a maximum penalty of 15 years in prison and a fine of                                      Theft             Administrative
                                                                                                                  10%               Files
$250,000 or up to three times the value of the bribe. The two men are scheduled              False
                                                                                             Statements                             3%
to be sentenced on November 13, 2009.                                                                                Referred to
                                                                                             10%
   On August 18 and 19, two individuals entered into plea agreements that                                            Other Agencies
would restore losses to DoD. On September 24, the company that employed                                              12%

the two individuals also entered into a plea agreement. The defendants agreed           Note: Numbers affected by rounding.
                                                                                        Source: SIGAR, 10/15/2009.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009            31
SIGAR OVERSIGHT




to pay combined restitution of more than $600,000 and could also be subject to
court-imposed criminal fines totaling more than $1 million. The plea agreements
followed criminal indictments filed in May 2009 that charged the defendants
with conspiracy to inflate negotiating payments, known as Requests for Equi-
table Adjustments, and to bribe a U.S. Army Corps of Engineers official respon-
sible for managing military contracts for goods and reconstruction services.



SIGAR BUDGET
Congress has provided $23.2 million to SIGAR to conduct oversight of the ex-
panding U.S. reconstruction effort in Afghanistan. This includes $7.2 million that
was approved in June 2009 as part of the FY 2009 supplemental appropriation.
That amount, which was made available for a 16-month period, enables SIGAR
to hire additional auditors, inspectors, and investigators as well as local Afghan
staff (interpreters) in FY 2010.
   The President’s budget request for FY 2010 includes an additional $23 mil-
lion for SIGAR. Combined with the $7.2 million already appropriated, this would
bring SIGAR’s total budget for FY 2010 to $30.2 million. The funding is necessary
for SIGAR to continue to hire the staff it needs in the United States and Afghani-
stan to detect and prevent waste, fraud, and abuse of taxpayer dollars. Table 2.1
provides a funding summary.

TABLE 2.1

SIGAR FUNDING SUMMARY ($ MILLIONS)
Appropriation                      Public Law     Appropriated Made Available      Expires   Amount
Supplemental Appropriations for    P.L. 110-252    6/30/2008      6/30/2008     9/30/2009      $2.0
Fiscal Year 2008, HR2642
Supplemental Appropriations for    P.L. 110-252    6/30/2008      10/1/2008     9/30/2009      $5.0
Fiscal Year 2008, HR2642
Consolidated Security, Disaster    P.L. 110-329    9/30/2008      9/30/2008     9/30/2010      $9.0
Assistance, and Continuing
Appropriations Act, 2009
Supplemental Appropriations for    P.L. 111-32     6/24/2009      6/24/2009     9/30/2010      $7.2
Fiscal Year 2009, HR2346
Total                                                                                        $23.2




   32                       SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                     SIGAR OVERSIGHT




SIGAR STAFF
Since its last quarterly report to the Congress, SIGAR has increased the number
of federal employees from 44 to 57.9 This includes 53 staff hired under the 3161
authority, 3 DoD detailees, and 1 person detailed to SIGAR from another govern-
ment agency. Table 2.2 provides a breakdown of the staff. In order to fulfill its
oversight mission, SIGAR plans to expand its staff to 118 during FY 2010.
   SIGAR has an agreement with the U.S. Embassy in Kabul to station up to
32 staff at the Embassy and at three satellite offices in Afghanistan. About half
of the staff are permanently based in the country. To make the best use of the
limited spaces available, the remaining billets are reserved for auditors, inspec-
tors, and investigators who are deployed on temporary duty to conduct specific
missions. Once their work in Afghanistan is completed, these individuals return
to SIGAR headquarters to finalize their written reports.

TABLE 2.2

SIGAR STAFFING
Function                              October 2008                  Current   FY 2010 (planned)
Staffing Levels, Total
Front Office                                    2                        3                   6
Special Staff                                   0                        6                   6
Forward Support                                 2                        4                   4
Chief of Staff                                  3                        7                  16
Subtotal                                        7                       20                  32
Audit                                           0                       16                  28
Inspection                                      0                        9                  21
Investigation                                   0                        7                  22
Information Management                          0                        5                  15
Subtotal                                        0                       37                  86
 Total                                          7                       57                118     0



Staffing Levels, Afghanistan*
Forward Support                                 0                        4
Subtotal                                        0                        4
Audit                                           0                        6
Inspection                                      0                        5
Investigation                                   0                        3
Subtotal                                        0                       14
 Total                                          0                       18
Note: *Includes permanent TDY.
Source: SIGAR, 10/13/2009.




                REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009             33
Women Voting
A polling center worker dips a voter’s finger in indelible
ink, to show that the woman has cast a ballot. Polling
stations are segregated by gender. (U.S. Embassy Kabul
photo, Dan Wilkinson)
3    RECONSTRUCTION
     UPDATE

Introduction: The Year of Transfer
    Rise in Income
    Expanding Iraqi Security Authority
    Afghanistan Reconstruction Update
    Afghanistan Audits
    Afghanistan Inspections
    Reconstruction Teams
    The Role of the International Community


Anticorruption Efforts


Security
    Security Conditions Still Hinder
    Reconstruction Activities
    Concerned Local Citizen Initiative


Legislative Developments


The Human Toll




                          35
“Overall, [the GIRoA’s] spending
  priorities are in line with the
 ANDS. But donor financing is
 not appropriately aligned with
    [the GIRoA’s] priorities.”
            —First annual report on the
              implementation of ANDS




        Source: GIRoA, “The Afghanistan National Development Strategy: First Annual Report, 1387 (2008/09),” 8/1/2009.




            36                        SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                       RECONSTRUCTION UPDATE




OVERVIEW
Section 3 provides a holistic view of reconstruction efforts in Afghanistan, in-
cluding an overview of the conditions on the ground. This overview of the state
of the nation provides a broad context for the accomplishments and challenges
experienced during reconstruction.
   The section is organized by the three pillars of reconstruction, as laid out in
the Afghanistan National Development Strategy (ANDS): Security, Governance,
and Economic and Social Development. Counter-Narcotics and gender equality,
two cross-cutting issues that affect all three pillars, are also discussed. See the
Graphics Key page for information about how graphics are used to highlight the
discussion of the ANDS.


TOPICS
Section 3 discusses four broad topics: funding, security, governance, and eco-
nomic and social development. Quarterly highlights—short pieces that focus on
a single aspect of reconstruction—add detail or context about pertinent issues
within these topics.
    The Status of Funds subsection provides a comprehensive look at monies
pledged and spent for Afghanistan reconstruction. It gives specific information about
major U.S. funds, international contributions, and the Afghan government budget.
    The Security subsection details the activities of the Afghan National Security
Forces, including the Afghan National Army and the Afghan National Police. It also
discusses U.S. and international efforts to bolster security in Afghanistan. Where
possible, it provides updates on progress against established goals for security.
    The Governance, Rule of Law, and Human Rights subsection details the elec-
tions of 2009, including the results, election security issues, and other challenges
experienced. Where possible, it provides updates on progress in the areas of the
rule of law, justice, and human rights. It also includes two quarterly highlights:
one about the 2009 audit process and one about the preparations for the 2004
and 2009 elections.
    The Economic and Social Development subsection discusses reconstruction
activities in areas ranging from agriculture to transportation to health services.
Where possible, it provides updates on progress in the specific area being addressed.
It also includes a quarterly highlight about the women of Afghanistan.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009           37
RECONSTRUCTION UPDATE




METHODOLOGY
Section 3 is based on information provided by outside sources. Except where
SIGAR audits, inspections, or investigations are specifically referenced, none of
the data in this section has been audited, inspected, or investigated by SIGAR;
nor does this information reflect SIGAR’s opinions. The information was obtained
through U.S. agency responses to a data call and through open-source research.
All data is sourced to the reporting organization in endnotes or within tables and
figures. For SIGAR audits, inspections, and investigations, see Section 2.

Data Call
The data call is a series of questions posed to U.S. agencies. The questions focus
on reconstruction programming and the situation on the ground in Afghanistan.
U.S. agencies that participated in the data call for this quarterly report include
the following:
• Department of State
• Office of the Secretary of Defense
• Department of Defense
• U.S. Agency for International Development
• U.S. Treasury
• Overseas Private Investment Corporation
A preliminary draft of the report was provided to the responding agencies before
publication to allow them to clarify or update information.

Open-Source Research
Open-source research is the most current, publicly available data from a variety
of published reports and data:
• All U.S. agencies represented in the data call
• United Nations (and relevant branches)
• World Bank
• International Monetary Fund
• International Security Assistance Force
• Independent Election Commission of Afghanistan
• Electoral Complaints Commission
• Central Intelligence Agency
• White House
The majority of the open-source data was included in the preliminary draft sent
to the U.S. agencies that participated in the data call for review before
publication.




  38               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GRAPHICS KEY




UNDERSTANDING THE GRAPHICS

BAR CHARTS                                                             PROVINCE MAPS
This report deals with many funds                                      Province maps indicate locations discussed

    How to                                                            read Graphics
                                             $500
and projects with dollar values              $450
                                                                       in the text. Referenced provinces
ranging from millions to billions.                                     are highlighted.
To provide an accurate graphical             $400



    Tutorial
representation of these numbers,
some bar graphs appear with a
break (a wavy line) to indicate a
jump between zero and a higher
                                             $350




number.                                        $0




DISTINGUISHING BILLIONS AND MILLIONS                                   ANDS GRAPHIC
Because this report details funding in both billions                   The graphic represents the three pillars of the ANDS
and millions of dollars, it uses a visual cue to distin-               and the six cross-cutting issues affecting them.
guish the two measurement units. Dollars reported                      Throughout this section, the pillar or cross-cutting is-
in billions are                                                        sue being discussed is highlighted in the margin.
represented in       Pie Chart in Billions Pie Chart in Millions
blue, and dollars                                                                                            SEC         GOV
                                                                                                                            ERN
                                                                                                                                     DEVE
                                                                                                                                         LOPM
                                                                                                                URIT            ANC
reported in mil-                                                                                                     Y             E         ENT

lions are depict-
                                                                                      REGIONAL COOPERATION
ed in brown.
                                                                                      COUNTER-NARCOTICS


                                                                                      ANTICORRUPTION


                                                                                      GENDER EQUALITY


                                                                                      CAPACITY
FUNDING MARKERS
                                                                                      ENVIRONMENTAL
Funding markers identify individual funds discussed
in the text. The agency responsible for managing the
fund is listed in the tan box below the fund name.
These markers
are displayed
in the margin.
                                  ESF



                                   USAID




         REPORT TO THE UNITED STATES CONGRESS        I   OCTOBER 30, 2009              39
STATUS OF FUNDS




 40    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                 STATUS OF FUNDS




STATUS OF FUNDS
As of September 30, 2009, the United States has appropriated approximately
$39.33 billion to the relief and reconstruction effort in Afghanistan. This total has
been allocated as follows: $20.18 billion for security, $11.56 billion for gover-
nance and development, $3.27 billion for counter-narcotics efforts, $1.92 billion
for humanitarian aid, and $2.39 billion for oversight and operations, as identified
in Appendix B.
   The cumulative appropriated funding as of September 30, 2009 ($39.33 billion)
is more than the previously reported cumulative funding as of June 30, 2009
($38.07 billion). This change resulted from updated agency reported data, an
updated accounting of the Supplemental Appropriations Act signed on June 24,
2009, and inclusion of associated operating expenses, including Inspector Gen-
eral oversight, for Afghanistan reconstruction. Figure 3.1 provides an overview of
the major U.S. funds that contribute to these efforts.

FIGURE 3.1

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                       FUNDING SOURCES (TOTAL: $39.33)
                                                                                                                           ASFF: Afghanistan Security Forces Fund

     ASFF              CERP                  ESF                DA                   INCLE                 Other           CERP: Commander’s Emergency
                                                                                                                           Response Program
    $18.67            $1.64                $7.70              $0.89                  $2.03                 $8.40
                                                                                                                           ESF: Economic Support Fund
                                                        AGENCIES

         Department of                                                          Department of            Distributed       DA: Development Assistance
         Defense (DoD)                              USAID                        State (DoS)             to Multiple
            $20.31                                  $8.59                           $2.03                 Agenciesa        INCLE: International Narcotics Control
                                                                                                                           and Law Enforcement

                                                                                                                           Other: Other Funding
                          AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY (ANDS)

               Security                                 Governance                                Development

Notes: Numbers affected by rounding. aDoJ, DoD, DoS, Treasury, USDA, USAID, and other agencies.
Sources: DoD, responses to SIGAR data call, 10/9/2009, 10/14/2009, and 10/15/2009; USAID, response to SIGAR data call,
10/9/2009; DoS, responses to SIGAR data call, 10/13/2009 and 10/16/2009; DoJ/DEA, response to SIGAR data call, 7/8/2009;
USDA, response to SIGAR data call, 4/7/2009; OMB, responses to SIGAR data call, 9/30/2008 and 7/16/2009.




             REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2009                         41
                                                              STATUS OF FUNDS




                                                              Cumulative Appropriations
Reconstruction funds can be grouped into                      As of September 30, 2009, cumulative appropriations in FY 2009 were $39.33
five broad categories based on their primary                  billion. This amount can be divided into five major reconstruction categories:
objectives. However, funds can support                        Security, Governance and Development, Counter-Narcotics, Humanitarian, and
more than one objective.                                      Oversight and Operations. Figure 3.2 provides a breakdown of cumulative appro-
                                                              priations by funding category. For a complete breakdown of U.S. appropriations,
                                                              refer to Appendix B.
                                                                 Between FY 2007 and FY 2009, cumulative appropriations increased by 71%—
                                                              from $23.04 billion in FY 2007 to $39.33 billion in FY 2009. As of FY 2009, security
                                                              efforts have received the largest cumulative appropriations. Including funds
                                                              for the ASFF, security appropriations account for over 51.3% ($20.18 billion) of
                                                              total U.S. reconstruction assistance. Until FY 2007, governance and development
                                                              amassed the largest amount of cumulative appropriations; security had the sec-
                                                              ond largest cumulative appropriations. But in FY 2007, appropriations of $7.41
                                                              billion to the ASFF propelled security ahead. Including this appropriation, cumu-


   FIGURE 3.2

   CUMULATIVE APPROPRIATIONS AS OF SEPTEMBER 30, 2009                             ($ BILLIONS)




      $40                                                                                                                                                              $39.33

      $35

      $30                                                                                                                                         $29.24

      $25                                                                                                                    $23.04

      $20

      $15                                                                                                $13.01

      $10                                                                             $9.51

                                                               $4.67
       $5
                      $1.06               $2.07
       $0
                      2002                2003                 2004                   2005               2006                2007                 2008                  2009


                  Security           Governance/Development            Counter-Narcotics         Humanitarian         Oversight and Operations              Total

   Note: Numbers affected by rounding.
   Sources: DoD, responses to SIGAR data call, 10/9/2009, 10/14/2009, and 10/15/2009; USAID, response to SIGAR data call, 10/9/2009; DoS, responses to SIGAR data call, 10/13/2009 and
   10/16/2009; DoJ/DEA, response to SIGAR data call, 7/8/2009; USDA, response to SIGAR data call, 4/7/2009; OMB, responses to SIGAR data call, 9/30/2008 and 7/16/2009.




                                                                 42                           SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                               STATUS OF FUNDS




lative funding for security through FY 2007 surpassed the cumulative amounts
for all other categories combined over that same time period.

Appropriations by Fiscal Year
In FY 2009, $10.08 billion was appropriated for Afghanistan reconstruction ef-
forts, making it the year with the highest amount of appropriations. The second
highest level of appropriations was $10.03 billion in FY 2007.
   Security received a 103% increase in funding in FY 2009 over FY 2008 levels.
Out of total appropriations for FY 2009, security initiatives constitute 55.6%, fol-
lowed by governance and development programs with 27.4%. Between FY 2006
and FY 2009, security funding accounted for the majority of U.S. appropriations
for Afghanistan reconstruction efforts.
   Figure 3.3 shows annual appropriations by funding category between FY 2002
and FY 2009. The bars show the amount of appropriations by category, while the
pie charts represent the proportion appropriated for each.




FIGURE 3.3

APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND PERCENTAGE                               ($ BILLIONS)



                                                                                                                                $10.03                                $10.08
      $10
        $9
        $8
        $7
                                                                                                                                                    $6.20
        $6
        $5                                                                           $4.84

        $4                                                                                                  $3.50
        $3                                                     $2.60
        $2
                     $1.06                 $1.01
        $1
        $0
                     2002                  2003                2004                   2005                 2006                 2007                2008               2009


Percentage




                 Security             Governance/Development           Counter-Narcotics           Humanitarian          Oversight and Operations           Total


Note: Numbers affected by rounding.
Sources: DoD, responses to SIGAR data call, 10/9/2009, 10/14/2009, and 10/15/2009; USAID, response to SIGAR data call, 10/9/2009; DoS, responses to SIGAR data call, 10/13/2009 and
10/16/2009; DoJ/DEA, response to SIGAR data call, 7/8/2009; USDA, response to SIGAR data call, 4/7/2009; OMB, responses to SIGAR data call, 9/30/2008 and 7/16/2009.




             REPORT TO THE UNITED STATES CONGRESS                 I    OCTOBER 30, 2009                             43
                                                       STATUS OF FUNDS




                                                       AFGHANISTAN SECURITY FORCES FUND
     ASFF                                              The Combined Security Transition Command-Afghanistan (CSTC-A) is the
                                                       primary organization responsible for building the ANSF.10 CSTC-A uses ASFF
                                                       monies to provide the ANSF with equipment, supplies, services, training, facil-
     DoD                                               ity and infrastructure repair, renovation, and construction.11 The international
                                                       community’s plan is to gradually decrease international funding for this effort
                                                       and increase the ANSF’s ability to secure the country through the use of revenue
ASFF FUNDS TERMINOLOGY
                                                       from the Government of the Islamic Republic of Afghanistan (GIRoA), in accor-
DoD reported ASFF funds as available,                  dance with the Afghanistan National Development Strategy (ANDS).12
obligated, or disbursed.
Available: Total monies available for                  Status of Funds
commitments                                            Since FY 2005, almost $18.67 billion has been made available to the ASFF.13
Obligations: Commitments to pay monies                 This accounts for approximately 47.5% of total U.S. reconstruction assistance in
Disbursements: Monies that have been                   Afghanistan.
expended                                                  This amount includes the nearly $3.61 billion provided in the FY 2009 Supple-
                                                       mental Appropriations Act signed by the U.S. President on June 24, 2009.14 As of
Source: DoD, response to SIGAR data call, 10/9/2009.
                                                       September 30, 2009, over $17.30 billion has been obligated, with nearly $16.58
                                                       billion of that amount disbursed.15 Figure 3.4 displays amounts made available
                                                       for the ASFF by fiscal year.
                                                          Between June 30 and September 30, 2009, DoD obligated nearly $2.4 billion
                                                       and disbursed more than $1.88 billion to support ANSF initiatives.16 Figure 3.5
                                                       provides a cumulative comparison of amounts made available, obligated, and
                                                       disbursed for the ASFF.

                                                       FIGURE 3.4                                                  FIGURE 3.5

                                                       ASFF AVAILABLE FUNDS BY FISCAL YEAR                         ASFF FUNDS, CUMULATIVE
                                                       ($ BILLIONS)                                                COMPARISON ($ BILLIONS)

                                                       $8.0                                                        $19.0                                            Available
                                                                                                                                                                    $18.67


                                                       $6.0                                                        $18.0                                            Obligated
                                                                                                                                                                    $17.30
                                                                                                                                                                    Disbursed
                                                                                                                                          Available                 $16.58
                                                       $4.0                                                        $16.0
                                                                                                                                          $15.06
                                                                                                                                         Obligated
                                                                                                                                         $14.90
                                                       $2.0                                                        $14.0                 Disbursed
                                                                                                                                         $14.69

                                                        $0                                                            $0
                                                              2005         06         07         08          09             As of June 30, 2009       As of Sept 30, 2009


                                                       Notes: Numbers affected by rounding. ASFF funding terms     Notes: Numbers affected by rounding. ASFF funding terms
                                                       (available, obligated, disbursed) reported as provided by   (available, obligated, disbursed) reported as provided by
                                                       DoD except as specified.                                    DoD except as specified.
                                                       Source: DoD, response to SIGAR data call, 10/9/2009.        Sources: DoD, responses to SIGAR data call, 7/10/2009
                                                                                                                   and 10/9/2009.




                                                          44                         SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                           STATUS OF FUNDS




ASFF Budget Activities
DoD allocates funds to three budget activity groups within the ASFF: Defense Forces                                      Budget Activity Groups: Categories within
(Afghan National Army, or ANA), Interior Forces (Afghan National Police, or ANP),                                        each appropriation or fund account that
and Related Activities, which consists primarily of Detainee Operations. Funds for                                       identify the purposes, projects, or types
each budget activity group are further allocated to sub-activity groups: Infrastructure,                                 of activities financed by the appropriation
Equipment/Transportation, Training and Operations, and Sustainment.17                                                    or fund.

                                                                                                                         Sub-Activity Groups: Accounting groups
Funding by Budget Activity Group                                                                                         that break down the command’s disburse-
As of September 30, 2009, a total of $16.58 billion has been disbursed. Of this                                          ments into functional areas.
amount, $10.75 billion (64.85%) was disbursed for the ANA, $5.76 billion (34.73%)
for the ANP, and the remaining $0.07 billion (0.42%) focused on related activities.
   As shown in Figure 3.6, the majority of funds for the ANA have been disbursed                                       Source: DoD, “Manual 7110.1-M Department of Defense
                                                                                                                       Budget Guidance Manual,” www.fas.org/man/docs/basic/
for Equipment and Transportation ($4.43 billion), followed by Sustainment                                              man4.html, accessed 9/28/2009; Depar tment of the Navy,
                                                                                                                       “Medical Facility Manager Handbook,” www.med.navy.mil/.../
efforts ($2.81 billion). The majority of funds for the ANP have been disbursed for                                     BUMEDFacillityManagerHANDBOOK2002.DOC, accessed
                                                                                                                       10/2/2009, p. 5.
Infrastructure ($1.59 billion), followed by Sustainment efforts ($1.55 billion), as
shown in Figure 3.7.

FIGURE 3.6                                                  FIGURE 3.7

ASFF DISBURSEMENTS FOR THE ANA                              ASFF DISBURSEMENTS FOR THE ANP
By Sub-Activity Group,                                      By Sub-Activity Group, FY 2005–September
FY 2005–September 2009 ($ BILLIONS)                         2009 ($ BILLIONS)

                      Total: $10.75                                               Total: $5.76
                                                                                                    Equipment and
                                                                                                    Transportation
                                                                                                    $1.34
                      Equipment and
                      Transportation
                                                                         Infrastructure
                      $4.43
                                                                         $1.59
              Sustainment       Infrastructure
              $2.81                                                                       Sustainment
                                $2.44
                                                                                          $1.55


                                                                  Training and
           Training and                                           Operations
           Operations                                             $1.27
           $1.07

                                                            Note: Numbers affected by rounding. Numbers are as of
Notes: Numbers affected by rounding. Numbers are as of
                                                            September 30, 2009. ASFF funding terms (available,
September 30, 2009. ASFF funding terms (available,
                                                            obligated, disbursed) reported as provided by DoD except
obligated, disbursed) reported as provided by DoD except    as specified.
as specified.
                                                            Source: DoD, response to SIGAR data call, 10/9/2009.
Source: DoD, response to SIGAR data call, 10/9/2009.




            REPORT TO THE UNITED STATES CONGRESS            I   OCTOBER 30, 2009                             45
                                                        STATUS OF FUNDS




                                                        COMMANDER’S EMERGENCY RESPONSE PROGRAM
           CERP                                         CERP funds enable U.S. commanders in Afghanistan to respond to urgent
                                                        humanitarian relief and reconstruction requirements in their areas of responsi-
                                                        bility by supporting programs that will immediately assist the local population.
     DoD                                                Funding under this program is intended for small-scale projects costing less than
                                                        $500,000 each. Projects costing more than $2 million are permitted but require
                                                        approval from the Commander of U.S. Central Command (USCENTCOM) or
CERP FUNDS TERMINOLOGY
                                                        designees.18
DoD reported CERP funds as funded,
obligated, or disbursed.                                Status of Funds
Funding: Total monies available for                     Since FY 2004, USCENTCOM has funded nearly $1.64 billion for CERP, account-
commitments                                             ing for almost 4.2% of total U.S. reconstruction assistance in Afghanistan. As of
Obligations: Commitments to pay monies                  September 30, 2009, over $1.61 billion has been obligated and approximately
Disbursements: Monies that have been                    $0.96 billion disbursed.19 Figure 3.8 shows CERP funding by fiscal year.
expended                                                   Since June 30, 2009, DoD has obligated an additional $162.38 million and
                                                        disbursed $150.67 million for CERP projects. Figure 3.9 provides a cumulative
Source: DoD, response to SIGAR data call, 10/14/2009.
                                                        comparison of the amounts of funds appropriated, obligated, and disbursed for
                                                        CERP projects.

                                                        FIGURE 3.8                                                     FIGURE 3.9

                                                        CERP FUNDING BY FISCAL YEAR                                    CERP FUNDS, CUMULATIVE
                                                        ($ MILLIONS)                                                   COMPARISON ($ BILLIONS)
                                                                                                                                                                         Funded
                                                                                                                                                                         $1.64
                                                                                                                                              Funded
                                                        $600                                                           $1.6
                                                                                                                                              $1.62                      Obligated
                                                                                                                       $1.5                                              $1.61
                                                                                                                                              Obligated
                                                        $500                                                           $1.4                   $1.45

                                                                                                                       $1.3
                                                        $400
                                                                                                                       $1.2

                                                                                                                       $1.1
                                                        $300
                                                                                                                       $1.0
                                                                                                                                                                         Disbursed
                                                                                                                       $0.9                                              $0.96
                                                        $200
                                                                                                                       $0.8                   Disbursed
                                                                                                                                              $0.81
                                                        $100                                                           $0.7


                                                           $0                                                            $0
                                                                 2004 2005 2006 2007                 2008 2009                  As of June 30, 2009        As of Sept 30, 2009

                                                        Notes: Data may include inter-agency transfers. Numbers        Notes: Numbers affected by rounding. CERP funding terms
                                                        affected by rounding. CERP funding terms (funded, obligated,   (funded, obligated, disbursed) reported as provided by DoD
                                                        disbursed) reported as provided by DoD except as specified.    except as specified.
                                                        Source: DoD, response to SIGAR data call, 10/14/2009.          Sources: DoD, responses to SIGAR data call, 7/13/2009
                                                                                                                       and 10/14/2009.




                                                           46                          SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                          STATUS OF FUNDS




CERP Concerns                                                                        FIGURE 3.10
SIGAR auditors have highlighted several concerns about CERP projects in              LARGE-SCALE PROJECTS,
Afghanistan. The SIGAR audit report on CERP noted deficiencies in the monitor-       FY 2005—JUNE 2009 (PERCENT)
ing and execution of CERP-funded projects.20 Although the main purpose of            By Proportion and Allocation
CERP is to fund small-scale projects that can be sustained by the local popula-
tion, SIGAR noted that large-scale projects in excess of $500,000 are increasingly            Total Projects:      Total Obligations:
being funded under the program, reducing the resources available to execute                      10,524               $1.4 Billion
small-scale projects. SIGAR also noted that although the proportion of large-        100%
scale projects is minimal (3% of total projects), they consume a majority of the
                                                                                      90%
funds (67%).21 Figure 3.10 displays CERP fund usage by project scale.
                                                                                      80%
   U.S. Forces - Afghanistan (USFOR-A), which assumed responsibility for and
                                                                                      70%                                  67%
management of CERP in May 2009, has outlined specific procedures to correct
the deficiencies highlighted in the audit. Some of these procedures include add-      60%
ing a project manager to the CERP administration team and limiting the number         50%
of projects managed at any given time to 10. USFOR-A also indicated that it will      40%
develop a central record-keeping database, limit the number of open projects in       30%
specific regional commands, and increase the approval authority of the Com-           20%
bined Joint Task Force 101 Commander and USFOR-A Deputy Commander to                  10%
                                                                                                     3%
include projects costing over $1 million.22                                            0%
                                                                                                  Projects             Obligations


                                                                                                Large-scale projects
                                                                                                Large-scale project funding

                                                                                     Notes: Numbers affected by rounding. Large-scale projects
                                                                                     are defined as those costing $500,000 or more. Total
                                                                                     obligations amount differs from amount reported by DoD
                                                                                     because of rounding and timing differences.
                                                                                     Source: SIGAR, Audit-09-5, “Increased Visibility, Monitoring,
                                                                                     and Planning Needed for Commander's Emergency
                                                                                     Response Program in Afghanistan,” 9/9/2009, pp. 4, 14.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009         47
                                                         STATUS OF FUNDS




                                                         ECONOMIC SUPPORT FUND
                   ESF                                   ESF programs advance U.S. interests by helping countries meet short- and long-
                                                         term political, economic, and security needs. Programs range from supporting
                                                         counter-terrorism to bolstering national economies, to assisting in the develop-
                     USAID                               ment of effective, accessible, independent legal systems for a more transparent
                                                         and accountable government.23
ESF FUNDS TERMINOLOGY
                                                         Status of Funds
USAID reported ESF funds as appropriated,                Since FY 2002, the Congress has appropriated approximately $7.70 billion to ESF
obligated, or disbursed.                                 programs in Afghanistan.24 These appropriations account for nearly 19.6% of total
Appropriations: Total monies available for               U.S. assistance to the reconstruction effort. As of September 30, 2009, over $6.97
commitments                                              billion has been obligated and over $4.59 billion disbursed.25 Figure 3.11 displays
Obligations: Commitments to pay monies                   ESF appropriations by fiscal year.
Disbursements: Monies that have been                        Since June 30, 2009, USAID obligated over $883.90 million and disbursed near-
expended                                                 ly $419.61 million to support ESF programs.26 Figure 3.12 provides a cumulative
                                                         comparison of the amount of ESF funds appropriated, obligated, and disbursed.
Source: USAID, response to SIGAR data call, 10/9/2009.



                                                         FIGURE 3.11                                                  FIGURE 3.12

                                                         ESF APPROPRIATIONS BY FISCAL YEAR                            ESF FUNDS, CUMULATIVE
                                                         ($ BILLIONS)                                                 COMPARISON ($ BILLIONS)
                                                                                                                                                                     Appropriated
                                                         $2.5                                                                             Appropriated               $7.70
                                                                                                                                          $7.63
                                                                                                                      $7.0                                           Obligated
                                                                                                                                                                     $6.97
                                                         $2.0

                                                                                                                      $6.0                Obligated
                                                                                                                                          $6.09
                                                         $1.5

                                                                                                                      $5.0
                                                                                                                                                                     Disbursed
                                                         $1.0                                                                                                        $4.59
                                                                                                                                          Disbursed
                                                                                                                      $4.0
                                                                                                                                          $4.17
                                                         $0.5




                                                           $0                                                           $0
                                                                2002 03       04     05     06     07     08     09           As of June 30, 2009        As of Sept 30, 2009


                                                         Notes: Data may include inter-agency transfers. Numbers      Notes: Data may include inter-agency transfers. Numbers
                                                         affected by rounding. ESF funding terms (appropriated,       affected by rounding. ESF funding terms (appropriated,
                                                         obligated, disbursed) reported as provided by USAID except   obligated, disbursed) reported as provided by USAID except
                                                         as specified.                                                as specified.
                                                         Source: USAID, response to SIGAR data call, 10/9/2009.       Sources: USAID, response to SIGAR vetting, 10/16/2009;
                                                                                                                      USAID, responses to SIGAR data call, 7/10/2009 and
                                                                                                                      10/9/2009.




                                                            48                         SPECIAL INSPECTOR GENERAL          I   AFGHANISTAN RECONSTRUCTION
                                                             STATUS OF FUNDS




DEVELOPMENT ASSISTANCE
Primarily managed by USAID, DA programs are designed to advance sustainable,                                                                            DA
broad-based economic progress and social stability in developing countries, in-
cluding Afghanistan.27 DA funds finance long-term projects to provide humanitar-
ian assistance, address environmental issues, improve governance, and promote                                                                   USAID
socio-economic development.28
                                                                                                                           DA FUNDS TERMINOLOGY
Status of Funds
Since FY 2002, the Congress has appropriated nearly $891.78 million to support                                             USAID reported DA funds as appropriated,
DA programs in Afghanistan.29 This constitutes nearly 2.3% of total U.S. assis-                                            obligated, or disbursed.
tance for Afghanistan reconstruction support. As of September 30, 2009, approxi-                                           Appropriations: Total monies available for
mately $884.14 million has been obligated and over $720.01 million disbursed.30                                            commitments
Figure 3.13 depicts DA appropriations by fiscal year.                                                                      Obligations: Commitments to pay monies
   Since June 30, 2009, USAID has obligated almost $1.58 million, with almost                                              Disbursements: Monies that have been
$46.08 million disbursed.31 Figure 3.14 provides a cumulative comparison of the                                            expended
amount of DA funds appropriated, obligated, and disbursed.
                                                                                                                           Source: USAID, response to SIGAR data call, 10/9/2009.


FIGURE 3.13                                                  FIGURE 3.14

DA APPROPRIATIONS BY FISCAL YEAR                             DA FUNDS, CUMULATIVE
($ MILLIONS)                                                 COMPARISON ($ MILLIONS)


$200                                                                               Appropriated             Appropriated
                                                                                   $890.17                  $891.78
                                                             $900

                                                                                    Obligated                 Obligated
                                                             $850
$150                                                                                $882.56                   $884.14

                                                             $800


$100                                                         $750
                                                                                                              Disbursed
                                                                                                              $720.01
                                                             $700
                                                                                    Disbursed
                                                                                    $673.94
  $50                                                        $650




   $0                                                           $0
    2002 03          04     05     06     07     08    09              As of June 30, 2009       As of Sept 30, 2009

Notes: Data may include inter-agency transfers. Numbers      Notes: Data may include inter-agency transfers. Numbers
affected by rounding. DA funding terms (appropriated,        affected by rounding. DA funding terms (appropriated,
obligated, disbursed) reported as provided by USAID except   obligated, disbursed) reported as provided by USAID except
as specified.                                                as specified.
Source: USAID, response to SIGAR data call, 10/9/2009.       Sources: USAID, responses to SIGAR data call, 7/10/2009
                                                             and 10/9/2009.




               REPORT TO THE UNITED STATES CONGRESS               I   OCTOBER 30, 2009                            49
                                                        STATUS OF FUNDS




                                                        INTERNATIONAL NARCOTICS CONTROL
                                 INCLE                  AND LAW ENFORCEMENT
                                                        The International Narcotics Control and Law Enforcement (INCLE) fund is
                                                        managed by the Bureau of International Narcotics and Law Enforcement Affairs
                                   DoS
                                                        (INL) to advance the rule of law and to combat narcotics production and traffick-
                                                        ing. INCLE funds support several INL program groups, including police, counter-
INL FUNDS TERMINOLOGY                                   narcotics, and rule of law and justice.32

INL reported INCLE and other INL funds
as allotted, obligated, or liquidated.
                                                        Status of Funds
                                                        Since FY 2002, over $2.03 billion has been allotted for INCLE initiatives.33 This
Allotments: Total monies available                      amount represents almost 5.2% of total U.S. reconstruction assistance in Afghani-
for commitments                                         stan. As of September 30, 2009, more than $1.92 billion has been obligated and
Obligations: Commitments to pay monies                  over $1.55 billion liquidated.34 Figure 3.15 displays INCLE allotments by fiscal year.
Liquidations: Monies that have been                        Since June 30, 2009, more than $140.59 million has been obligated and over
expended                                                $74.40 million liquidated.35 Figure 3.16 provides a cumulative comparison of the
                                                        amount of INCLE funds allotted, obligated, and liquidated.
Source: DoS, response to SIGAR data call, 10/13/2009.


                                                        FIGURE 3.15                                                  FIGURE 3.16

                                                        INCLE ALLOTMENTS BY FISCAL YEAR ($ MILLIONS)                 INCLE FUNDS, CUMULATIVE
                                                                                                                     COMPARISON ($ BILLIONS)


                                                                                                                                                                         Allotted
                                                                                                                     $2.00                   Allotted
                                                                                                                                                                         $2.03
                                                                                                                                             $1.99
                                                        $700
                                                                                                                                                                         Obligated
                                                                                                                     $1.90                                               $1.92
                                                        $600
                                                                                                                     $1.80                   Obligated
                                                        $500                                                                                 $1.78
                                                                                                                     $1.70
                                                        $400

                                                                                                                     $1.60
                                                        $300                                                                                                             Liquidated
                                                                                                                                                                         $1.55
                                                                                                                     $1.50                   Liquidated
                                                        $200
                                                                                                                                             $1.48
                                                        $100

                                                          $0                                                            $0
                                                               2002 03        04     05     06     07    08     09            As of June 30, 2009         As of Sept 30, 2009

                                                        Notes: Data may include inter-agency transfers. Numbers      Notes: Data may include inter-agency transfers. Numbers
                                                        affected by rounding. INCLE funding terms (allotted,         affected by rounding. INL funding terms (allotted, obligated,
                                                        obligated, liquidated) reported as provided by DoS and INL   liquidated) reported as provided by DoS and INL except as
                                                        except as specified.                                         specified.
                                                        Source: DoS, response to SIGAR data call, 10/13/2009.        Sources: DoS, responses to SIGAR data call, 7/10/2009,
                                                                                                                     and 10/13/2009.




                                                           50                          SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                            STATUS OF FUNDS




GOVERNMENT OF AFGHANISTAN                                                                FIGURE 3.17

RECONSTRUCTION FUNDING                                                                   GIRoA BUDGET, 2009–2010 ($ BILLIONS)
In addition to the international donations that the GIRoA receives for recon-
struction efforts, the GIRoA also provides funding for that purpose. The GIRoA                                 Total: $7.5
Ministry of Finance (MoF) is responsible for the management and execution of
the budget, which includes Afghan funds for reconstruction efforts. The MoF
is also accountable for international funds when they are routed through govern-                             External Budget
ment ministries.36                                                                                           $4.9


Domestic Budget
The U.S. Treasury (Treasury) estimates the GIRoA budget for FY 2009 to be
$7.5 billion, an increase of more than 2.7% over FY 2008. The budget is split into two
                                                                                             Core Budget–                      Core Budget–
major categories: the $2.6 billion core budget and the $4.9 billion external budget.37       Development                       Operating
Figure 3.17 displays a breakdown of budget amounts by category.                              $1.0                              $1.6
                                                                                         Note: Numbers affected by rounding.

Core Budget                                                                              Source: Treasury, response to SIGAR data call, 9/30/2009.


The core budget consists of two sub-categories: the operating budget, which
accounts for $1.6 billion, and the development budget, which accounts for the
remaining $1.0 billion.38

OPERATING BUDGET
Since FY 2008, the operating budget has increased more than 14%, from
$1.4 billion to $1.6 billion. According to Treasury, the operating budget consists
mainly of recurrent costs such as wages and salaries.39 The GIRoA has identified
the following as contributors to the increase in the FY 2009 budget:40
• the expected addition of 23,500 recruits in the ANA, in addition to a salary
   increase of Afs 1,000 per member (approximately $20.15)
• an anticipated addition of 12,500 teachers and associated salary increases of
   Afs 1,300 (approximately $26.22) per teacher
• salary increases for university professors
• salary increases for judges

DEVELOPMENT BUDGET
According to Treasury, the FY 2009 development budget has remained con-
sistent with FY 2008 levels at $1.0 billion. Capital expenditures in the areas of
governance, rule of law, infrastructure, education, health, agriculture and rural
development, social protection, and private sector development make up the
development budget.41

External Budget
For FY 2009, the GIRoA’s external budget was approximately $4.9 billion. The
external budget is composed primarily of security expenses, though some
development funding is included. The external budget is entirely dependent on
international assistance.42




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009             51
                                                                STATUS OF FUNDS




                                                                International Contributions to the Core Budget - Operating
  Recurrent Cost Window: a funding                              In addition to funds contributed by the GIRoA, the international community pro-
  mechanism that provides for accelerated                       vides support in the form of grants to the core budget. Support for the operating
  disbursements of civil servant salaries, as                   budget comes from three main sources:43
  well as operating and maintenance costs.                      • Afghanistan Reconstruction Trust Fund – Recurrent Cost Window (ARTF-RC)
                                                                • Law and Order Trust Fund (LOTFA)
                                                                • CSTC-A
Source: World Bank, “Discussion Note: The ARTF
Recurrent Cost Window,” 9/2008, http://sitere-
sources.worldbank.org/AFGHANISTANEXTN/Resourc-
es/305984-1201489063036/4608353-1220998199117/                     The ARTF-RC finances the operating costs of the government, as well as main-
RCWindowNote.pdf, accessed 10/20/2009.
                                                                tenance expenses. Over $1.7 billion has been disbursed to date to ensure that the
                                                                government continues to function and deliver essential services such as educa-
                                                                tion and health care.44
                                                                   LOTFA supports the rehabilitation of police facilities, salaries, training and
                                                                capacity building, and procurement of non-lethal equipment. Grants for LOTFA
                                                                are expected to reach Afs 20 billion (approximately $403.39 million).45
                                                                   Grants from CSTC-A support a series of salary increases for ANA personnel.
                                                                The increases amount to $20 per month since 2008. Support is also provided for
                                                                meals for the ANA, military high school, and incentive payments in areas such as
                                                                medicine and reenlistment.46

                                                                International Contributions to the Core Budget - Development
  Investment Window: a funding mecha-                           The ARTF Investment Window provides a significant amount of support for the
  nism that provides grant financing for                        development budget. Support is provided for the rehabilitation of school buildings,
  national development programs.                                as well as for the provision of textbooks and school supplies. Programs financed
                                                                under the ARTF Investment Window are those the GIRoA determines are most
                                                                important. A total of $1.2 billion has been committed for these efforts since 2002.47
Source: World Bank, “The World Bank in Afghanistan: Quarterly
Country Update,” 10/2009.
                                                                Contributions to the Afghanistan Reconstruction Trust Fund
                                                                As of September 30, 2009, the World Bank reports that 30 international donors
                                                                have contributed a total of $3 billion to the ARTF. Of these donors, approximate-
                                                                ly half contribute on an annual basis.48 See Figure 3.18 for details on the amounts
                                                                contributed by donor country.
                                                                   The ARTF is the largest contributor to the Afghan budget, for both operating
                                                                and development costs.49 Contributions provide support to the GIRoA through
                                                                the Recurrent Cost Window, which helps build the capacity of the MoF by
                                                                providing a predictable source of funding that is administered through the gov-
                                                                ernment.50 Contributions also provide support for development efforts through
                                                                the Investment Window, which assists the GIRoA in aligning its development
                                                                planning with available resources.51
                                                                   The ARTF is the leading source of multi-donor funding in Afghanistan, accord-
                                                                ing to the World Bank.52 Donors agreed in 2008 to extend the fund through June
                                                                2020. In addition, the ARTF Incentive Program was established in December 2008.
                                                                The purpose of the program is to provide for a “phased and predictable exit from
                                                                the Recurrent Cost Window.”53 As of August 22, 2009, donors pledged over $607
                                                                million to the fund, of which more than $234 million (38.6%) has been paid in.54



                                                                  52                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                          STATUS OF FUNDS




Domestic Revenue                                                                                                   FIGURE 3.19

For FY 2009, Treasury estimates the GIRoA’s revenue to be approximately                                            GIRoA DOMESTIC REVENUE,
$980 million. As shown in Figure 3.19, tax revenues constitute nearly 78% of                                       2009–2010 ($ MILLIONS)
domestic revenue and fees make up the remaining 22%.55
                                                                                                                                         Total: $980
   Revenue from external sources fund 60% of the core budget. The majority of
this external revenue, 53.6%, is supplied by multi-donor trust funds, followed by
international financial institutions with 28.1%. The United States and other donor
                                                                                                                                         Tax Revenue
sources account for the remaining 18.4%.56                                                                                               $760


International Organizations at Work in Afghanistan
                                                                                                                                            Fees
In addition to U.S. assistance, a variety of international organizations contribute                                                         $220
to the reconstruction effort in Afghanistan. Assistance is provided across a multi-
tude of sectors including security, governance and development, and humanitar-
ian aid. This subsection highlights international organizations that are providing                                 Note: Numbers affected by rounding.
                                                                                                                   Source: Treasury, response to SIGAR data call, 9/30/2009.
assistance to Afghanistan.57

FIGURE 3.18

ARTF CONTRIBUTIONS FOR 2009, AS OF AUGUST 22, 2009 ($ MILLIONS)

                                                      Total Contributions/Pledges: $607
                                                              Total Paid-in: $234


  United States                                                       104                                    222
United Kingdom         0                                                      106
   Netherlands         3                          49
        Canada                       34           47
        Norway             18               38
      Germany          0                   36
          Spain                      35 35
        Sweden         0         18
         EC/EU         11       17
       Australia           15 15
         Others            15         24

                   0                             50                     100               150         200


                           Paid-in              Total Contributions/Pledges
Note: Numbers affected by rounding.
Source: World Bank, “ARTF: Administrator’s Report on Financial Status as of August 22, 2009,” p. 1.




            REPORT TO THE UNITED STATES CONGRESS                              I   OCTOBER 30, 2009          53
STATUS OF FUNDS




UN Assistance Mission in Afghanistan
Officials from the UN Assistance Mission in Afghanistan (UNAMA) stated that the
mission’s FY 2009 budget was $168 million.58 According to the UN Secretary-
General, the General Assembly approved a 70% increase in UNAMA’s budget for
FY 2010. This increase can be attributed to a 1,000-person increase in staff (in-
cluding 170 international staff) and an increase in the number of field offices.59
   The mandate for UNAMA, established in 2002 and renewed on March 23, 2009,
highlights the organization’s efforts to improve governance and the rule of law,
and fight corruption.60 UNAMA is charged with managing all humanitarian relief,
recovery, and reconstruction activities provided by the international community
in Afghanistan.61

UNDP/ELECT
One of the SIGAR audit reports on the elections noted that the international
community invested $331.2 million to support the United Nations Development
Programme/Enhancing Legal and Electoral Capacity for Tomorrow (UNDP/
ELECT) project. UNAMA established UNDP/ELECT to provide technical assis-
tance and build the capacity of Afghanistan’s Independent Electoral Commission
(IEC) to conduct the 2009 presidential and provincial elections.62
   UNDP/ELECT created a basket fund—a joint financing mechanism—to man-
age the donor contributions from the international community. The United States
contributed $143.1 million to the basket fund. Other international contributors
included Australia, Canada, Denmark, France, Germany, Italy, Japan, the Nether-
lands, Norway, Spain, Sweden, Switzerland, and the United Kingdom.63

World Bank
In the World Bank’s October 2009 “Quarterly Country Update,” officials stated that
since 2002, more than $1.89 billion has been committed to Afghanistan for emer-
gency reconstruction and development projects and budget support operations.
The World Bank currently has 26 active projects in the country. Support for recon-
struction consists of $1.45 billion in grants and $436.4 million in no-interest loans,
known as “credits.” A number of projects have been completed in various sectors
including education, emergency public works, infrastructure, and health care.64

Asian Development Bank
At the Paris Conference in June 2008, the Asian Development Bank (ADB)
extended its commitment to Afghanistan by pledging $1.3 billion between 2008
and 2013. Since 2002, the ADB has consistently pledged funds at conferences for
the reconstruction effort in Afghanistan. In 2002, it pledged $500 million over two
and a half years. In 2004, it pledged up to $800 million for 2005 through 2008. In
2006, it pledged an additional $200 million through 2010. With respect to overall
donor pledges between 2002 and 2013, the ADB ranks as the fourth largest donor
behind the United States, the United Kingdom, and the World Bank.65




  54                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          STATUS OF FUNDS




   The ADB’s assistance focuses on a variety of sectors, including energy, road
transport, and agriculture and natural resource management. The ADB also pro-
vides assistance to Afghanistan’s governance, financial, and private sectors.66

International Monetary Fund
According to the International Monetary Fund (IMF), current assistance to
Afghanistan ($120 million) is provided under the Poverty Reduction and Growth
Facility loan program. This assistance is set to expire in March 2010.67 The IMF
began providing assistance to the reconstruction effort in Afghanistan in 2002,
aiming to build the financial capacity of the country.68 To enable governments to
take advantage of opportunities, the IMF tracks global trends and performance,
alerts member countries of potential issues, provides a forum for policy dialogue,
and shares knowledge of how to handle economic difficulties.69




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009         55
SECURITY




 56    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                  SECURITY




SECURITY
According to the United Nations (UN) Secretary-General, “[i]nsecurity                                                                                                   GOV   DEV
                                                                                                                                                                 SEC        E     EL
                                                                                                                                                                      URIT RNANC OPMEN
[inadequate security] continues to be the single greatest factor impeding prog-                                                                                           Y     E     T
ress in Afghanistan.”70 This section provides information about Afghan and
international community efforts related to security. It describes the status of the                                                         REGIONAL
                                                                                                                                            COOPERATION
Afghan National Army (ANA), Afghan National Police (ANP), and the interna-
                                                                                                                                            COUNTER-NARCOTICS
tional forces in Afghanistan. It also addresses reconstruction efforts in the secu-
rity sector, including removing unexploded ordnance, disarming illegal armed                                                                ANTICORRUPTION
groups, and carrying out counter-narcotics activities.
                                                                                                                                            GENDER EQUALITY

                                                                                                                                            CAPACITY
SECURITY GOALS
The Security Pillar of the Afghan National Development Strategy (ANDS)                                                                      ENVIRONMENTAL
provides metrics to measure progress related to security. Since the release of
the ANDS, certain metrics for security were updated, as shown in Table 3.1.
Explanations of these metrics are provided throughout this each section.

TABLE 3.1

STRATEGIC PRIORITIES FOR SECURITY
ANDS Security Pillar            ANDS Target                                     Updated Target                                     Status                                   ANDS Completion Date
Afghan National Army            80,000 troops (plus 6,600 in training)          134,000 troops (by September 2010)                 93,980 troops                            End of 2010
Afghan National Police          82,180 professional policemen                   109,000 professional policemen                     81,509 professional policemen            End of 2010
                                                                                (by September 2010)
Disarmament of Illegal          All illegal armed groups disbanded in all                                                          84 of 119 targeted districts             March 20, 2011
Armed Groups                    provinces                                                                                          declared cleared
Removing Unexploded             Land area contaminated by mines and                                                                ANDS Update: 25% of target               End of 2010
Ordnance                        unexploded ordnance reduced by 70%                                                                 area cleared
                                90% of all known mine- or Explosive
                                Remnants of War (ERW)–contaminated                                                                 DoS: 1.70 billion square                 2012
                                areas cleared                                                                                      meters cleared, 690 million
                                All emplaced anti-personnel mines cleared                                                          square meters remain                     2013
Counter-Narcotics               Areas under poppy cultivation reduced by                                                           Areas under poppy cultivation            2013
                                half compared with 2007 levels                                                                     reduced by 36% compared with
                                                                                                                                   2007 levels

Note: Numbers affected by rounding.

Sources: GIRoA, “Afghanistan National Development Strategy, Executive Summary,” p. 6; NATO, “International Security Assistance Force and Afghan National Army Strength & Laydown,” www.nato.int/isaf/
docu/epub/pdf/placemat.pdf, accessed 9/30/2009; CSTC-A, response to SIGAR data call, 10/2/2009; DoD, “Progress Toward Security and Stability in Afghanistan,” 6/2009, p. 28; GIRoA, “ANDS First
Annual Report 1387 (2008/2009), Part II – Appendices,” 8/1/2009, p. 36; DoS, response to SIGAR data call, 10/2/2009; UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 9/2009, p. 2.




             REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2009                              57
                                                              SECURITY




FIGURE 3.20
                                                              SECURITY INCIDENTS
CIVILIAN CASUALTIES                                           The Combined Security Transition Command - Afghanistan (CSTC-A) reported
                                                              casualties for the ANSF, coalition forces, foreigners, and Afghans. Between July 1
By Province                                                   and September 20, 2009, 150 troops from coalition forces were killed in action
                                                              and 1,020 were wounded in action.71
                                                                 In that same period, there were 1,103 Afghan casualties, making up nearly all
                                                              of the 1,149 civilian casualties shown in Figure 3.20.72 The majority of civilian ca-
                                                              sualties occurred during August—almost double the number killed in July. More
                                                              than twice as many casualties occurred in Kandahar between July 1 and Septem-
                                                     0        ber 20 than in any other province, with 305 recorded. The next greatest numbers
                                                     1–20
                                                              of casualties occurred in Helmand (148) and Kabul (146).73
                                                     21–40
                                                     41–60
                                                     61–305   THE AFGHAN NATIONAL ARMY
                                                              The ANA’s target troop strength is 134,000 by September 2010, according to
By Month                                                      CSTC-A.74 Its strength in September 2009 was 93,980 troops, according to NATO.75
                   Total Wounded: 696
                                                              For 2009, the Central Intelligence Agency (CIA) estimates that approximately
                     Total Killed: 453                        4.37 million Afghan men age 16 to 49 are fit for military service. They also esti-
                                                              mate that over 382,700 become available for service annually.76
                          320
    300                                                       ANA Training Status
                                                              ANA graduates are trained in one of 12 military specialties, each serving a par-
    250
            205                 204                           ticular function within the ANA. The greatest number of soldiers graduated into
    200
                                         171                  the infantry, as shown in Figure 3.21.77
    150                                        142
                  107                                         FIGURE 3.21
    100
                                                              ANA TRAINING GRADUATES BY SPECIALTY
     50

       0
               July        August          Sept                            Total Graduates: 5,443                                                           Other Specialties


               Wounded                                                                                                      Artillery                                                 344
               Killed                                                                                                        Medic                                              251
                                                                                                                        Maintenance                                           240
Notes: Civilians include Afghans and foreigners.
No casualty data was provided for Daykundi.                                                                                Logistics                                    197
                                                                                          Other
Source: CSTC-A, response to SIGAR data call, 10/2/2009.
                                                                           Infantry                                        Engineer                               155
                                                                                          Professions
                                                                           3,661                                              Cook                          122
                                                                                          1,782                               Driver                    112
                                                                                                             SPG-9 Recoiless Rifle                      108
                                                                                                                             Mortar                    91
                                                                                                                  Communications                       90
                                                                                                                  Reconnaissance                  72

                                                                                                                                        0    50   100 150 200 250 300 350

                                                              Source: CSTC-A, response to SIGAR data call, 10/2/2009.




                                                                 58                        SPECIAL INSPECTOR GENERAL                    I   AFGHANISTAN RECONSTRUCTION
                                                                                                    SECURITY




   It is a goal of the ANDS to maintain a regional and ethnic balance within the                                                  FIGURE 3.22
ANA.78 The distribution of ethnicities in the ANA is not dissimilar to those of the
                                                                                                                                  ETHNIC REPRESENTATION: ANA TRAINING
country as a whole, as shown in Figure 3.22, except that in the ANA the leading
                                                                                                                                  GRADUATES COMPARED WITH AFGHAN
ethnicity is Tajik, while in the country the leading ethnicity is Pashtun.79                                                      POPULATION (PERCENT)
   CSTC-A oversees training for the ANA. From July 1 to September 30, 2009,
ANA training organizations graduated 13,890 soldiers.80 The majority graduated
                                                                                                                                   100%
from the Kabul Military Training Center (KMTC), as shown in Figure 3.23. The
KMTC is used primarily for training kandaks (battalions) and military leaders.
The KMTC training includes basic training, combat training, marksmanship,
                                                                                                                                     80%
battle drills, various combat conditions, and land mine warfare. The KMTC offers
leadership and sergeant training courses that develop tactical skills and leader-
ship capacity. Particular specialties of officer training courses include infantry
                                                                                                                                     60%
(heavy weapons and reconnaissance), field artillery, engineering, signals, trans-
portation, and ordnance. Advanced combat courses develop skills in logistics,
heavy weapons, field artillery, reconnaissance, maintenance, engineering, trans-
                                                                                                                                     40%
portation, medical, and signals.81
   Another ANA training program is the Logistics School, which offers specialized
training in the maintenance, transport, and supply skills required by an officer or
                                                                                                                                     20%
squad leader. The Command and General Staff College (CGSC) offers staff and
officer courses in the military decision-making process, tactical operations, and the
application of advanced military concepts and problem-solving models for use in
                                                                                                                                        0
military operations. Students taking the Higher Command and Staff Course at CGSC                                                                 Population        ANA Graduates

study foreign military, police, and governmental organizations within the geographic
                                                                                                                                            Other
region and compare them with their own institutions.82
                                                                                                                                            Uzbek
                                                                                                                                            Hazara
FIGURE 3.23                                                                                                                                 Tajik
                                                                                                                                            Pashtun
ANA TRAINING GRADUATES BY PROGRAM                                                                                                 Notes: Numbers affected by rounding. Numbers are as of
                                                                                                                                  9/30/2009. "Other" category for ANA graduates includes
                                                                                                                                  Arab, Nuristani, Turkman, and unspecified ethnicities.
                                                                                                                                  "Other" category for the population includes Aimak,
             Total Graduates: 13,890                                                  Other Training Programs: 447                Turkmen, Baloch, and unspecified ethnicities.

                                                                                                                                  Sources: CSTC-A, response to SIGAR data call, 10/2/2009;
                                                                         Logistics                                                CIA, “The World Factbook Afghanistan,” www.cia.gov/library/
                                                                           School                                          224
                                                                                                                                  publications/the-world-factbook/geos/af.html#top, accessed
                                                                                                                                  9/20/2009.
                Kabul Military
                                                               Explosive Ordnance
                Training                                                  Disposal                        116
                                                Other
                Center
                                                Training
                10,230                                             Command and                    72
                                                Programs      General Staff College
                                                447
                                                                Counterinsurgency
                                                                  Training Center–         35
                                                                       Afghanistan
                                    Consolidated
                                    Fielding Center                                   0    50       100      150     200    250
                                    3,213

Note: The Consolidated Fielding Center is not a training program. See ANA Training section for additional details.
Source: CSTC-A, response to SIGAR data call, 10/2/2009.




             REPORT TO THE UNITED STATES CONGRESS                         I   OCTOBER 30, 2009                             59
SECURITY




FIGURE 3.24

ANA TRAINING GRADUATES BY UNIT ASSIGNMENT

      Total Graduates: 5,443                                                                Other Graduates: 721

                   207th Corps      209th Corps
                          218       95                                   Capital Division                                          185
                 201st                                     Kabul Military Training Center                                  125
                                                                                Air Corps                            89
     203rd       Corps                      Headquarters Support and Security Brigade                           72
     Corps       984                                  Counter-Narcotics Infantry Kandak                        67
                                               National Military Academy of Afghanistan                      57
     1,438                                                  Detainee Protection Brigade                 41
                                                  Acquisition, Technology, and Logistics               32
                                          Medical Supply Support Command Department               10
              205th                               Mazar-e Sharif Regional Medical Depot           9
                                                          Herat Regional Medical Depot            9
              Corps                                                      Holding Kandak          7
              1,987                 Other                Gardez Regional Medical Depot           7
                                    Graduates                        Commando Brigade            5
                                                      Kandahar Regional Medical Depot           4
                                    721              Communications Support Element             2
                                                                                            0           50           100     150   200

Source: CSTC-A, response to SIGAR data call, 10/2/2009.



   The Counterinsurgency Training Center - Afghanistan teaches the principles
of counterinsurgency and their application to operations in Afghanistan. The
Explosive Ordnance Disposal organization trains in the handling and disarming
of improvised explosive devices (IEDs) and ordnance.83
   Two additional programs are used for ANA training but had no graduates
during this period. The Kabul Military High School (KMHS) and the National
Military Academy of Afghanistan (NMAA) are schools for the ANA. The KMHS
is a three-year academic program that prepares students for further training and
for attendance at the NMAA or a civilian university. At the NMAA, students earn
a bachelor’s degree and are trained and educated according to four pillars of
development: academic, military, physical, and personal character. Three majors
are offered: civil engineering, computer science, and law.84
   The Consolidated Fielding Center (CFC), though not a training course, is a
place where units form, equip, and conduct initial collective training to bolster
effective fielding and to maintain a common training standard. At the CFC, units
prepare to deploy to their designated areas of operations.85
   All ANA soldiers are given one of 21 unit assignments. Between July 1 and
September 30, 2009, the largest group of soldiers was assigned to the 205th
Corps, as shown in Figure 3.24. Unit assignments can also include the Air Corps,
the Commando Brigade, and the Counter-Narcotics Infantry Kandak.86

ANA Readiness
CSTC-A uses Capability Milestone (CM) ratings for the ANSF to express the
incremental improvements in the capability of the forces.87 Four additional
units were rated this quarter.88 As of September 13, 2009, CSTC-A reported 44




   60                        SPECIAL INSPECTOR GENERAL                      I   AFGHANISTAN RECONSTRUCTION
                                                                                                         SECURITY




FIGURE 3.25

ANA UNIT CM RATINGS, PERIOD-TO-PERIOD COMPARISON


Capability Milestone (CM)
                                                                                                                                 44
CM1: capable of operating independently           CM1
                                                                                                                                      47

CM2: capable of planning, executing, and                                                                             37
sustaining operations at the battalion level      CM2
with international support                                                                                    32

CM3: partially capable of conducting                                                                                        41
operations at the company level with              CM3
support from international forces                                                                                    37


CM4: formed but not yet capable of                                5
conducting primary operational missions           CM4
                                                                      7

                                                        0              10              20              30              40

                                                             As of September 13, 2009                  As of May 23, 2009

Note: CM1 = All criteria adequately met, quantitative measures >85%, qualitative assessment of functionality in role >85%. CM2 = Most
criteria adequately met, quantitative measures 70–85%, qualitative assessment of functionality in role 70–85%. CM3 = Few criteria adequately
met, quantitative measures 50–70%, qualitative assessment of functionality in role 50–70%. CM4 = No criteria adequately met, quantitative
measures <50%, qualitative assessment of functionality in role <50%. May not include fire support, close air support, and MEDEVAC.
Source: CSTC-A, response to SIGAR data call, 10/2/2009; DoD OSD, response to SIGAR data call, 7/8/2009.




ANA units at CM1, representing approximately 35% of the units rated for this
quarter.89 Last quarter, approximately 38% of ANA units were rated CM1.90 There
was a decline in CM1 ratings of approximately 6% from last quarter, as shown in
Figure 3.25. Based on the ANA CM ratings, an average CM rating was calculated
for each of the nine ANA corps represented in the data. Three of the corps were
rated CM1, four were rated CM2, and two were rated CM3. No corps had an aver-
age rating of CM4.91
                                                                                                                                               The security forces in Afghanistan use
ANA Infrastructure Status                                                                                                                      convoys to transport equipment and sup-
According to CSTC-A, 18 ANA infrastructure projects worth $176.98 million                                                                      plies. In a particular convoy operation on
were completed between July 1 and September 30, 2009. Infrastructure contracts                                                                 September 8, 2009, a platoon of U.S. Ma-
include such projects as garrisons, hospitals, troop medical clinics, and troop                                                                rines joined members of the ANA and their
training ranges. Between July 1 and September 30, contracts were awarded for                                                                   security mentors in a convoy departing
27 such projects worth $239.21 million.92                                                                                                      from Camp Leatherneck to deliver building
                                                                                                                                               supplies and mechanical parts to Forward
ANA Equipment Status                                                                                                                           Operating Base Dwyer. The convoy con-
                                                                                                                                               sisted of more than 40 vehicles, ranging
According to CSTC-A, the ANA classifies equipment as the critical weapons,
                                                                                                                                               from seven-ton trucks loaded with metal
vehicles, and tactical communication equipment required to support growth to
                                                                                                                                               containers to small pickup trucks.
its targeted strength of 134,000 by September 2010. ANA personnel are equipped
                                                                                                                                               Source: DoD, “Face of Defense: Marine Leads Convoy in
with M16 A2 rifles and M24 sniper rifles; M203A2 grenade launchers; and M2,                                                                    Afghanistan,” 9/14/2009.




               REPORT TO THE UNITED STATES CONGRESS                           I   OCTOBER 30, 2009                                 61
                                                            SECURITY



                                                            FIGURE 3.26

                                                            ANA EQUIPMENT

                                                                                                                                                        4,091
                                                            4,000

                                                            3,000
                                                                                       2,147 2,147                                                              2,040
                                                            2,000
                                                                                                                                                1,334
                                                            1,000                808                                                927
                                                                                                                            525
                                                                                                                      250
                                                                 0
                                                                                 Communications                        Transportation               Weaponry


                                                                                    Planned          Procured         Fielded
FIGURE 3.27
                                                            Source: CSTC-A, response to SIGAR data call, 10/2/2009.

ANA CASUALTIES
                                                            M240, and M249 machine guns. For transportation, the ANA uses light and me-
By Province                                                 dium tactical vehicles (LTVs and MTVs), armored high-mobility multi-purpose
                                                            wheeled vehicles (HMMWVs), and ambulances. For communication, the ANA
                                                            uses base-station, portable, vehicle-mounted, and handheld radios. Between
                                                            July 1 and September 30, 2009, the ANA fielded 2,040 weapons, 927 vehicles, and
                                                            2,147 radios, as shown in Figure 3.26.93
                                                               CSTC-A distributes weapons to the ANSF. The U.S. Army Security Assistance
                                                    0
                                                            Command and the Navy International Programs Office procure the weapons
                                                    1–10    for Afghan forces, and then DoD and its contractors ship the weapons by air to
                                                    11–20   Kabul. CSTC-A stores these weapons in separate storage units for the ANA and
                                                    21–40   the ANP and then issues them to the respective forces.94
                                                    41–67

                                                            ANA Casualties
By Month                                                    Between July 1 and September 20, 2009, CSTC-A reported that 331 ANA soldiers
            Total Wounded in Action: 331                    were wounded in action and 113 were killed in action. The majority of casualties
              Total Killed in Action: 113                   occurred in the southern and eastern border regions; the most casualties oc-
                                                            curred in Helmand, as shown in Figure 3.27.95
   150
                         130
   120      118                                             Afghan National Army Air Corps
                                                            The Afghan National Army Air Corps (ANAAC) is a growing branch of the ANA.96
     90                                 83                  The ANAAC has several roles:
                                                            • providing presidential airlift capabilities
     60
                                                            • logistic support and transport of the armed forces of Afghanistan and other
                               42            38
     30
                  33                                          organizations in Afghanistan
                                                            • air transport for humanitarian efforts in case of a natural disaster
      0                                                     • air support and air cover for armed forces on the battlefield
              July        August          Sept
                                                            • security for ANAAC aircraft97
               Wounded in Action
               Killed in Action                                The ANAAC uses MI-17 and MI-35 helicopters, AN-26 and AN-32 fixed-wing
Note: No casualty data was provided for Daykundi.
                                                            aircraft, and L-39 jet aircraft.98 The inventory currently consists of a total of 36
Source: CSTC-A, response to SIGAR data call, 10/2/2009.     fixed- and rotary-wing aircraft; it is expected to grow to 139 aircraft by 2016.99



                                                               62                        SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                 SECURITY




   Four ANAAC units were given CM3 ratings as of September 13, 2009. The rat-
ings indicate that these units are partially capable of conducting operations with
international support.100


THE AFGHAN NATIONAL POLICE
The target end strength for ANP personnel is 109,000 by September 2010, accord-
ing to CSTC-A.101 The ANP stood at 81,509 personnel as of May 2009, according to
DoD.102 The ANP consists of the Afghan Uniformed Police, the Afghan Civil Order
Police, the Afghan Border Police, the Counter-Narcotics Police of Afghanistan,
and additional specialized police with responsibilities that include criminal inves-
tigation, counter-terrorism operations, and customs enforcement.103
   The Afghan Public Protection Program (AP3), a civilian police program, was
initiated in March 2009 as a pilot program to contribute to security efforts in
                                                                                         Shura: Afghan leadership meeting.
Wardak. The AP3 is part of the Ministry of Interior (MoI) and is controlled by the
district chief of police. Afghans are chosen for AP3 by village shuras and then
undergo a three-week training session. Once trained, they provide security on          Source: DoD, “Education Moves Forward in Eastern
                                                                                       Afghanistan,” 6/23/2009.
roads and at schools and public buildings, and serve other functions like those
of a “neighborhood watch.” As of August 20, 2009, the Office of the Secretary of
Defense (OSD) reports that 548 AP3 personnel have been trained and positioned
in communities. U.S. Forces - Afghanistan (USFOR-A) is currently reviewing the
program and will decide whether to replicate it in other areas.104                     FIGURE 3.28

ANP Training Status                                                                    ANP TRAINING GRADUATES BY COURSE
According to CSTC-A, 8,270 personnel graduated from ANP training organiza-
tions between July 1 and September 30, 2009.105 The program with the most grad-                                   Graduates: 8,270
uates was the Kabul Security Acceleration Uplift/10k Growth program as shown
in Figure 3.28. This program provides Basic 8 training, which is an eight-week             Kabul Security
                                                                                       Acceleration Uplift/                                    3,343
program taught by ANP instructors with contractor oversight. Trainees learn                   10K Growth
                                                                                          Focused Border
first-responder responsibilities, tactical training, IED awareness, surveillance and        Development                      1,344

intelligence gathering, field training, civil disturbance, and shooting techniques.       Focused District
                                                                                                                             1,302
                                                                                            Development
The ANP is also trained through several other programs.106
                                                                                         Afghan National
                                                                                        Community Order                  990
                                                                                                  Police
                                                                                       Non-commissioned
                                                                                          Officer Training             722


                                                                                           Officer Training           569

                                                                                                              0      1,000     2,000   3,000

                                                                                       Source: CSTC-A, response to SIGAR data call, 10/2/2009.




                                                                                       The Mizan District Chief addresses ques-
                                                                                       tions during a shura held with local Afghan
                                                                                       town elders to discuss security issues with
                                                                                       the ANP chief and U.S. soldiers. (U.S. Army
                                                                                       photo, SGT Kris Eglin)




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009           63
                                                          SECURITY




                                                             The Focused District Development program consists of Advanced 8 training,
                                                          Leadership and Management Development training, and an Officer and Non-
                                                          commissioned Officer (NCO) Basic course. Advanced 8 training is an eight-week
                                                          course that introduces advanced police tactics and night operations, and gives
                                                          an overview of terrorist tactical operations. The Leadership and Management De-
                                                          velopment program teaches problem solving, planning, goal setting, and incident
                                                          management skills. It also develops leadership capabilities and teaches how to
                                                          best handle operational and personal issues that police leaders may encounter.
                                                          The Officer and NCO course teaches police station defense, firearms and marks-
                                                          manship, leadership, and anti-terrorism tactics.107
                                                             The ANP Academy Officer Training program is a three-year program taught
                                                          at the Afghan National Police Academy, where officers earn a bachelor’s degree.
                                                          The ANP Academy Non-commissioned Officer Training program, which runs four
                                                          and a half months, is also taught at the Academy.108
                                                             The Afghan Civil Order Police program consists of eight weeks of patrolman
                                                          instruction and eight weeks of advanced training. This program is taught by ANP
                                                          instructors with contractor oversight.109
                                                             The Focused Border Development program is a six-week, contractor-led
                                                          border training instruction, with two weeks dedicated to mentoring in the field.
                                                          Training is focused on survival and interdiction skills. Instruction is given in
                                                          marksmanship and advanced shooting skills as well as small-unit tactics and
                                                          vehicle operations.110
FIGURE 3.29                                                  CSTC-A reported that 2,611 ANP graduates were assigned to 11 provincial
ANP TRAINING GRADUATES BY PROVINCIAL                      police headquarters between July 1 and September 30, 2009. The majority of
ASSIGNMENT                                                graduates were assigned to the southern region. The largest group was fielded to
                                                          the Kandahar Police Headquarters, as shown in Figure 3.29.111
                                                             Several challenges to training exist. The U.S. Agency for International Develop-
                                                          ment reported that 50% of Afghan men over age 15 are illiterate.112 This means that
                                                          roughly half of men fit for military service cannot read or write. According to trainers
                                                          from the U.S. Marine Corps, other challenges to training include the language barrier
                                                          between trainers and trainees and the limited education of Afghan trainees.113

                                               0          ANP Readiness
                                               1–125      As of September 13, 2009, CSTC-A reported CM1 ratings for 11 ANP units, which
                                               126–250    represents approximately 12% of the units rated for this quarter.114 As reported last
                                               251–375
                                                          quarter, approximately 4% of units were rated CM1 as of May 23.115 The majority of
                                               376–590
                                                          units rated this quarter were given CM2 or CM3 ratings, as shown in Figure 3.30.116
Source: CSTC-A, response to SIGAR data call, 10/2/2009.
                                                          ANP Infrastructure Status
                                                          According to CSTC-A, ANP infrastructure is defined as the buildings and perma-
                                                          nent equipment necessary for support, redeployment, and operations of police per-
                                                          sonnel. It includes such buildings as barracks, headquarters, training buildings and
                                                          ranges, administrative spaces, warehouses and storage buildings, and maintenance
                                                          facilities. Infrastructure contracts active from July 1 to September 30, 2009, were




                                                            64                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                        SECURITY




FIGURE 3.30

ANP UNIT CM RATINGS
                                                                                       Total Units: 95
Capability Milestone (CM)

CM1: capable of operating independently           CM1                            11


CM2: capable of planning, executing, and
sustaining operations at the battalion level      CM2                                                                              37
with international support


CM3: partially capable of conducting
operations at the company level with              CM3                                                                         34
support from international forces


CM4: formed but not yet capable of
conducting primary operational missions           CM4                                 13


                                                        0                  10                  20                 30                40

Notes: CM1 = All criteria adequately met, quantitative measures >85%, qualitative assessment of functionality in role >85%.
CM2 = Most criteria adequately met, quantitative measures 70–85%, qualitative assessment of functionality in role 70–85%.
CM3 = Few criteria adequately met, quantitative measures 50–70%, qualitative assessment of functionality in role 50–70%.
CM4 = No criteria adequately met, quantitative measures <50%, qualitative assessment of functionality in role <50%
Source: CSTC-A, response to SIGAR data call, 10/2/2009.



for such projects as battalion headquarters, district headquarters, and provincial
headquarters.117
   CSTC-A reported 269 active ANP infrastructure contracts as of September 30,
2009. Of those, 32 contracts, with a collective value of $58.83 million, were
scheduled to be completed between July 1 and September 30.118 During the
same period, 14 infrastructure projects, collectively valued at $55.40 million,
were awarded.119 The greatest number of active infrastructure projects with
expected completion dates during this period was in Badakhshan. The highest
collective value of projects with expected completion dates during this period
                                                                                                                                         ANP officers maintain security during a
was in Samangan.120 Eleven contracts with a collective value of $23.10 million
                                                                                                                                         patrol with U.S. Marines in the Garmsir
were terminated.121                                                                                                                      district of Helmand. The Marines are
                                                                                                                                         deployed to train and mentor the ANP in
ANP Equipment Status                                                                                                                     counter-insurgency operations. (U.S. Ma-
According to CSTC-A, the ANP classifies equipment as critical weapons, vehicles,                                                         rine Corps photo, Sgt Pete Thibodeau)
and tactical communication equipment required to support growth to the ANP’s
targeted strength of 109,000 personnel by September 2010.122 From July 1 to Sep-
tember 30, 2009, CSTC-A reported that the ANP fielded 6,437 new individual and
crew-assigned weapons.123 CSTC-A supplies the ANP with weapons and equip-
ment through the same process as it uses for supplying the ANA. Donations and
U.S.-funded purchases of Warsaw Pact weapons contribute to the ANP weapon
supply.124 ANP personnel are equipped with 9mm pistols; AK-47, PKM, and RPK




              REPORT TO THE UNITED STATES CONGRESS                           I   OCTOBER 30, 2009                                  65
                                                          SECURITY




FIGURE 3.32                                               FIGURE 3.31

ANP CASUALTIES                                            ANP EQUIPMENT

By Province                                                                                                                                6,261         6,437
                                                            6,000
                                                            5,000
                                                                                    4,162
                                                            4,000
                                                            3,000                           2,450
                                                            2,000

                                                0           1,000                                             574         480
                                                                                                                    76                             288
                                                1–10
                                                                                0
                                                                 0
                                                11–20                         Communications                   Transportation                 Weaponry
                                                21–40
                                                41–80                                  Planned           Procured        Fielded

                                                          Source: CSTC-A, response to SIGAR data call, 10/2/2009.

By Month
            Total Wounded in Action: 350                  machine guns; and RPG-7, GP-25, and GP-30 rocket-propelled grenade (RPG)
              Total Killed in Action: 184                 weapons.125
                                                             From July 1 to September 30, the ANP fielded 476 Ford Ranger trucks,
   200
                                                          referred to as LTVs, and four International Harvesters, referred to as MTVs,
                         162                              according to CSTC-A.126 The ANP also uses all-terrain vehicles (ATVs) but did
   150
                                                          not field any vehicles of this type during this period. As of September 30, the
           106                 101                        ANP is planning for 574 additional vehicles in the future.127 The ANP is expected
   100
                                       82                 to be supplied with armored HMMWVs in the late fall of 2009, according to
                 61                                       CSTC-A. The Afghan Civil Order Police and Afghan Border Police units also
    50
                                                          want to acquire ambulances.128
                                            22
                                                             During this quarter, the ANP fielded 2,450 radios, according to CSTC-A. The
      0                                                   ANP procured 4,162 radios during this period, as shown in Figure 3.31. As of
              July        August         Sept
                                                          September 30, the ANP is not planning for any additional radios.129
              Wounded in Action                              In another communications effort, CSTC-A is building an Internet Protocol–
              Killed in Action                            based network and a wireless radio network for the ANP and the Afghan MoI,
Note: No casualty data was provided for Daykundi.         according to DoD. These networks will connect the five regional commands
Source: CSTC-A, response to SIGAR data call, 10/2/2009.   and units in all 34 provinces, and as many districts as possible. CSTC-A is also
                                                          installing network and radio systems in Regional and Provincial Operational
                                                          Coordination Centers that will link the MoI’s National Police Command Center
                                                          and the Ministry of Defense’s National Military Command Center. CSTC-A plans
                                                          to complete the radio networks by 2012.130

                                                          ANP Casualties
                                                          CSTC-A reported that 350 ANP personnel were wounded in action and 184 were
                                                          killed in action between July 1 and September 20, 2009. The majority of casual-
                                                          ties occurred in the border regions, as shown in Figure 3.32. The largest number
                                                          occurred in Helmand.131




                                                             66                       SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                                  SECURITY




DISARMAMENT OF ILLEGAL ARMED GROUPS                                                   FIGURE 3.33

It is an ANDS goal that all illegal armed groups will be disarmed by March 20,        NUMBER OF ILLEGAL ARMED GROUPS
2011.132 This section provides the status of illegal armed groups in the country      DISARMED
and the progress of the efforts under way to disarm them.
    According to the Congressional Research Service, illegal armed groups are
“illegal militias that were empowered by Afghanistan’s years of warfare.”133 These
groups pose a direct threat to national security, according to the Government of
the Islamic Republic of Afghanistan (GIRoA). According to the GIRoA, many of
the commanders of these groups have close links with the police or are members
of local governments. This contributes to the issue of corruption in the country;
it is also considered a key obstacle in eliminating the narcotics industry. The                                                      0
threat of illegal armed groups will persist until the government is able to provide                                                  1–10
                                                                                                                                     11–20
adequate security in the country, according to the GIRoA.134
                                                                                                                                     21–50
                                                                                                                                     51–102
Status
The effort to disarm illegal armed groups in Afghanistan is led by the Afghanistan    Source: DoS, response to SIGAR data call, 10/2/2009.

New Beginnings Programme (ANBP). The ANBP supports the GIRoA’s Disband-
ment of Illegal Armed Groups (DIAG) program, which continues the efforts of
the Disarmament, Demobilization, and Reintegration program.135
   According to the Department of State (DoS), ANBP and DIAG have targeted              Afghanistan New Beginnings Programme:
119 districts for the disarmament of illegal armed groups. From July 1 to Septem-       established under the United Nations
ber 30, these programs disarmed 44 such groups.136 In total, they have disarmed         Development Programme (UNDP) in April
685 of the 987 groups in the targeted districts. The majority of these disarma-         2003 to assist the GIRoA in the disband-
ments occurred in the northern half of the country, as shown in Figure 3.33.137         ment, demobilization, and reintegration of
Once disarmed, former members of these groups are monitored by DIAG region-             the Afghan Military Forces.
al offices to ensure they do not re-form into illegal armed groups.138 Currently,
84 districts of the 119 targeted have been declared compliant by the ANBP and         Source: UNDP, “Afghanistan’s New Beginnings Programme
DIAG. Since the beginning of the programs, the ANBP and DIAG have collected           (ANBP),” www.undp.org.af/WhoWeAre/UNDPinAfghanistan/
                                                                                      Projects/psl/prj_anbp.htm, accessed 10/9/2009.
45,576 weapons from illegal armed groups.139

ANSF Operations
According to DoS, the ANA and the ANP contribute to DIAG efforts but do not
                                                                                        Disbandment of Illegal Armed Groups:
lead any other programs to disarm illegal armed groups.140
                                                                                        a program that the MoI is developing the
                                                                                        capacity to implement. The MoI is expected
Challenges                                                                              to have full capabilities to do so by March
DIAG faces several challenges in continuing its efforts. According to the               2010. In April 2009, provincial governors
UNDP, its activities are restricted because the unstable security situation in          conducted mapping of illegal armed
many provinces makes access for disarmament efforts difficult. DIAG’s limited           groups in their jurisdictions, enabling DIAG
information on illegal armed groups and the rampant trafficking of weapons              to get information on their locations.
that occurs in the country make it difficult to maintain accurate records. The
weak governance at the provincial and district levels, combined with varying
                                                                                      Source: UNDP Afghanistan, “DIAG Second Quarter Project
levels of political commitment to DIAG, has made it difficult for the program         Progress Report – 2009,” pp. 3, 6, 9.
to gain traction.141




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009         67
                                                                SECURITY




On September 16, 2009, a resident of                            REMOVING UNEXPLODED ORDNANCE
Kunar’s Sarkani District turned in nine                         The primary ANDS goal for the removal of unexploded ordnance is to reduce the
mines to the Manogai district center.
                                                                land area contaminated by mines and unexploded ordnance by 70% before the
Soldiers from the U.S. Army’s Task Force
                                                                end of 2010.142 This section describes the progress of organizations involved in
Lethal went to the district center to
safely remove and dispose of the mines.
                                                                the mine clearing effort.
The resident who turned in the mines                               Afghanistan is one of the most heavily land-mined areas in the world, accord-
was rewarded through the Small Rewards                          ing to the UN.143 The work to remove this unexploded ordnance has involved a
Program, which provides incentives to Af-                       large community effort. The GIRoA and local and international NGOs continue
ghans who turn in weapons and ordnance                          the tasks of clearing explosive remnants of war (ERW), caring for survivors of
and who provide tips and information on                         ERW accidents, and destroying or securing recovered munitions to prevent their
insurgent activity.                                             use by insurgents in future attacks.144
Source: DoD, “Civilians, Soldiers Work Together for Change in      According to the UN Secretary-General, community-based demining is an effec-
Afghanistan,” 9/28/2009.
                                                                tive approach in the very insecure areas of the country, particularly the south and
                                                                east, because it is difficult to bring in international organizations. This effort brings
                                                                salaries to locals while clearing villages of dangerous unexploded ordnance.145

                                                                Status
                                                                The Mine Action Program of Afghanistan (MAPA) is the primary organization
                                                                responsible for removing land mines and other ERW, according to DoS. MAPA
                                                                is made up of more than 20 humanitarian partners from Afghanistan and the
                                                                international community. The UN-assisted Mine Action Coordination Center of
                                                                Afghanistan and the Afghan Department of Mine Clearance work with MAPA to
                                                                coordinate strategy, planning, and activity.146
                                                                   According to the “ANDS First Annual Report,” 25% of the targeted area has
                                                                been cleared.147 According to DoS, MAPA has cleared approximately 1.70 billion
                                                                square meters of hazardous area across Afghanistan from the program inception
                                                                in 1988 through September 30, 2009. In total, MAPA removed 12.39 million land
                                                                mines and other ERW from all provinces.148
                                                                   DoS contributes to the removal of unexploded ordnance through its Conven-
                                                                tional Weapons Destruction (CWD) program, which directly funds five Afghan
                                                                NGOs, three international NGOs, and one U.S. government contractor. Through
                                                                this program, these groups clear ERW and destroy or secure abandoned or other-
                                                                wise at-risk munitions and explosive ordnance that could be used by insurgents
                                                                to construct roadside bombs and IEDs. Of the area reported cleared by MAPA, a
                                                                portion was cleared by DoS-funded organizations. From 1993 to September 30,
                                                                2009, DoS-funded organizations cleared more than 160.50 million square meters
  Metric ton: equivalent to 1.1 tons, or
                                                                of land and destroyed approximately 3.06 million land mines and other ERW.
  2,205 pounds.
                                                                These organizations also destroyed or removed more than 11,585 metric tons of
                                                                stockpiled, abandoned, at-risk, or unserviceable ordnance and ammunition.149




                                                                  68                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                  SECURITY




ANSF Operations                                                                         The Kunar Project is a community-
                                                                                        based initiative to remove land mines and
CSTC-A and U.S. Forces - Afghanistan (USFOR-A) are responsible for training
                                                                                        unexploded bombs that threaten the local
and monitoring ANA and ANP forces engaged in the removal of mines and ERW.
                                                                                        population in the province. This project
Training and monitoring activities are conducted through the ANSF Explosive
                                                                                        is managed by the Organization for Mine
Ordnance Disposal (EOD) Counter-Improvised Explosive Device (C-IED) Pro-                Action and Afghan Rehabilitation, based
gram and the ANA Engineer School.150 As described earlier in the section on ANA         in Kabul.
training, the EOD C-IED program trained 116 ANSF personnel between July 1               Source: DoS, “Community-Based Demining Links Development
and September 30, 2009. The program includes an eight-week course on Impro-             and Counterinsurgency in Afghanistan,” 6/23/2009.

vised Explosive Device Defeat. The ANSF are trained to be EOD technicians
in a 12-week course on how to undertake demining and unexploded ordnance
removal operations. A five-day course trains ANSF members to be instructors in
C-IED awareness.151

Challenges
According to DoS, 60 casualties per month are associated with unexploded ord-
nance. Children constitute the majority of the victims.152 According to the “ANDS
First Annual Report,” 75% of the targeted area remains to be cleared.153 According
to DoS, approximately 690 million square meters of land is still considered hazard-
ous, as of September 30, 2009. These areas adversely affect 2,090 communities.154
   The UN is educating Afghan citizens on unexploded ordnance for the purpose
of safety. It has provided mine risk education to more than 750,000 citizens in the
past 12 months.155

                                                                                                                  GOV   DEV
COUNTER-NARCOTICS                                                                                           SEC       E     EL
                                                                                                                URIT RNANC OPMEN
This section describes the challenge posed by the narcotics industry in the coun-                                   Y     E     T
try. It outlines the efforts to remove existing narcotics and eliminate the potential
                                                                                        REGIONAL
for further development of the industry by eliminating the crop source. It also         COOPERATION
shows the progress made in these efforts.                                               COUNTER-NARCOTICS

                                                                                        ANTICORRUPTION
Status
The ANDS target for poppy eradication is a 50% reduction from the 2007                  GENDER EQUALITY
level by 2013.156 Based on figures from the United Nations Office on Drugs and
                                                                                        CAPACITY
Crime (UNODC), this equates to 96,500 hectares (ha). From January to July 2009,
approximately 5,400 ha of poppy were eradicated, reducing the total poppy level         ENVIRONMENTAL
to date by approximately 36% from the 2007 level. The Poppy Eradication Force,
the GIRoA’s national eradication force, was responsible for approximately half
the eradicated poppy reported. The Governor-Led Eradication was responsible
for the other half.157 The Poppy Eradication Force is staffed and directed by the
MoI. The Governor-Led Eradication program is supported by the Counter-
Narcotics Advisory Team to eradicate poppy in the key provinces where most
of the cultivation occurs.158




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009           69
                                                               SECURITY




FIGURE 3.34                                                       Approximately 82% of poppy eradication from January to July took place in
                                                               the southern and western regions, where 99% of poppy was cultivated in 2009.159
 POPPY ERADICATION BY PROVINCE,
                                                               During this period, the greatest area—4,119 ha—was eradicated in Helmand, as
 JANUARY–JULY 2009 (HECTARES)
                                                               shown in Figure 3.34.160 Poppy cultivation decreased 22% from 2008 to 2009. Dur-
                                                               ing that period, the number of poppy-free provinces increased from 18 to 20.161

                                                               ANSF Operations
                                                               According to DoD, the ANSF is targeting drug production facilities and traffick-
                                                               ers in their counter-narcotics efforts.162 This year, the ANA Counter-Narcotics
                                                               Infantry Kandak has provided protection for the GIRoA’s poppy eradication
                                                  0            efforts.163 The Counter-Narcotics Police of Afghanistan is the ANP component
                                                  1–50         responsible for counter-narcotics efforts.164
                                                  51–100          From January to July 2009, combined ANSF and ISAF forces conducted
                                                  101–500
                                                               counter-narcotics operations in seven provinces (Badakhshan, Farah, Helmand,
                                                  500–4,119
                                                               Herat, Kandahar, Nangarhar, and Uruzgan), focusing mainly on Helmand and
                                                               Nangarhar, according to UNODC. In these operations, these forces seized 459
 Source: UNODC, “Afghanistan Opium Survey 2009:
 Summary Findings,” 9/2009, p. 2.                              tons of poppy seed and 50 tons of opium, with the vast majority coming from
                                                               Helmand. They seized narcotics-producing materials, including 5,480 liquid tons
                                                               of acetic anhydride (a chemical used in narcotics production), as well as 94 tons
                                                               of other narcotics precursors and chemicals. They also destroyed 27 narcotics
                                                               labs, 17 located in Helmand, 8 in Nangarhar, 1 in Farah, and 1 in Kandahar.165


  “The trafficking of illegal
drugs and narcotics contin-
 ues to threaten the people
    of Afghanistan and the
       country as a whole.”
                           —Special Inspector
                         General Arnold Fields

    Source: SIGAR, “Inspector General Audit Report Aims To
      Ensure Counter-Narcotics Justice Center Is Utilized as
                                   Intended,” 10/1/2009.




                                                               U.S. Marines pour gasoline on bags of poppy seeds after a bazaar raid in Helmand. (ISAF photo)




                                                                  70                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                                 SECURITY




Challenges                                                                               FIGURE 3.35

Criminals, insurgents, and corrupt officials engage in the trade of opium from           SECURITY INCIDENTS DURING POPPY
poppy cultivation, according to UNODC.166 From January to July 2009, there were          ERADICATION, JANUARY–JULY 2009
34 security incidents related to counter-narcotics activities including attacks,
demonstrations, and mine explosions. The highest number occurred in Helmand,
as shown in Figure 3.35, where the UNODC reported 52 wounded and 21 killed as
a result of these incidents.167


INTERNATIONAL SECURITY ASSISTANCE FORCE
The ISAF, mandated by the UN and under the command of the North Atlantic
Treaty Organization (NATO), is a key component of the international community’s
                                                                                                                                          0
involvement in Afghanistan.168 It commands 67,700 security forces throughout the                                                          1–5
country.169 According to NATO, 42 nations contribute military forces to the ISAF.                                                         6–10
The United States is the largest contributor with 31,855 troops, as of September                                                          11–16
                                                                                                                                          No data
30, 2009. The next largest contributors are Britain, Germany, France, Canada,
                                                                                         Notes: Incidents reported include attacks, demonstrations,
Italy, and the Netherlands.170                                                           and mine explosions. Data not reported for every province.
    In leading the international efforts in the country, NATO’s main role is to assist   Source: UNODC, “Afghanistan Opium Survey 2009: Summary
                                                                                         Findings,” 9/2009, p. 22.
the GIRoA in reconstruction activities and in establishing the GIRoA’s authority
and influence across the country for effective governance. NATO executes this
role through the ISAF.171 The ISAF assists with initiatives that include disarming
illegal armed groups and implementing counter-narcotics efforts. It supports the
GIRoA in counter-narcotics through intelligence sharing and conducting a public
information campaign. It also supports the ANSF in its operations, with over 90%
of all ISAF operations conducted in conjunction with the ANA.172
                                                                                         FIGURE 3.36
Challenges
Increased levels of violence in Regional Command-South (RC–South; see Figure             ISAF REGIONAL COMMANDS
3.36) have led U.S. Marines to deploy to conduct “clear and hold” operations
in a region that is traditionally a Taliban stronghold, according to OSD. In July
2009 in Helmand, 4,000 U.S. Marines and sailors partnered with the Afghanistan
National Security Forces (ANSF) and launched Operation Khanjar (“Strike of the
Sword”). According to OSD, the objective of this operation was to clear the area
of insurgents and secure the population, protecting it from violence and intimida-
tion. After the clearing operations, U.S. forces remained stationed in the area to
conduct the hold phase of the operation, which maintains security and encour-
ages the eventual transfer of security responsibilities to the ANSF. This allows the
opportunity for reconstruction and development activities to occur. According to                                            RC-Capital
OSD, the ANP is particularly necessary for maintaining security.173                                                         RC-East
                                                                                                                            RC-South
                                                                                                                            RC-West
                                                                                                                            RC-North


                                                                                         Source: NATO, “International Security Assistance Force
                                                                                         and Afghan National Army Strength & Laydown,”
                                                                                         www.nato.int/isaf/docu/epub/pdf/placemat.pdf,
                                                                                         accessed 9/30/2009.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009             71
GOVERNANCE




72    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                 GOVERNANCE




GOVERNANCE, RULE OF LAW,
AND HUMAN RIGHTS
                                                                                                                                                 GOV   DEV
This section addresses recent developments in Afghanistan in the areas of                                                                   SEC      E     EL
                                                                                                                                               URIT RNANC OPMEN
governance, rule of law, and human rights.                                                                                                         Y     E     T
   On August 20, 2009, Afghanistan held the first Afghan-run presidential and
                                                                                                                          REGIONAL
provincial council elections. Despite international concerns about low voter turn-                                        COOPERATION
out, initial results indicated that approximately 38% of Afghan voters participated                                       COUNTER-NARCOTICS
in the election process. Investigations into allegations of electoral fraud delayed
certification of results for the presidential election.174                                                                ANTICORRUPTION

   Afghanistan’s Independent Election Commission (IEC), which is responsible                                              GENDER EQUALITY
for ensuring legitimate, free, and fair elections, and the Electoral Complaints
Commission (ECC), which is responsible for investigating allegations of electoral                                         CAPACITY

irregularities, developed an audit and recount process designed to ascertain an                                           ENVIRONMENTAL
accurate count of legitimate votes.175 On October 20, 2009, the IEC annouced the
results, which prompted a runoff election between the two leading presidential
candidates. The runoff election is scheduled for November 7.176


ELECTIONS
The Afghanistan National Development Strategy (ANDS), adopting the bench-
marks in the Afghanistan Compact, identified two specific metrics regarding
Afghan elections.177 Table 3.2 provides an update on these goals, as of September
30, 2009. Because the IEC postponed the elections to accommodate greater voter
turnout, the actual date for the presidential and provincial council elections was
later than the target date.178

TABLE 3.2

STRATEGIC PRIORITIES FOR ELECTIONS
Afghanistan Compact Goal                                         Status                          Target Completion Date
The Afghanistan IEC will have the high integrity, capacity,      Presidential and provincial     March 2009
and resources to undertake elections in an increasingly          council elections held on
fiscally sustainable manner with the GIRoA contributing          August 20, 2009
to the extent possible to the costs of future elections
from its own resources.
A permanent civil and voter registry with a single               No update reported              March 2010
national identity document will be established.

Source: GIRoA, “The Afghanistan Compact,” 1/31–2/1/2006, p. 7.




              REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2009                 73
                                                            governance




                                                               According to the United Nations (UN) Secretary-General, the elections have
                                                            had both positive and negative effects on Afghanistan. Some of the positive ef-
                                                            fects included the following:179
                                                            •	 Public engagement in the elections went far beyond initial expectations.
                                                            •	 Despite the security and logistics challenges, the IEC successfully opened,
                                                               equipped, and staffed thousands of polling stations across the country.
                                                            Negative effects of the elections included the following:180
                                                            •	 A “campaign of intimidation” conducted by the Taliban resulted in limited
                                                               voter turnout, especially in the southern provinces.
                                                            •	 Voting “irregularities” (potential fraud) sparked political turmoil within
                                                               Afghanistan.
Incumbent President Hamid Karzai.
(AP photo)
                                                            Presidential Elections
                                                            According to the IEC, only 32 of the 41 candidates listed on the presidential elec-
                                                            tion ballot received votes.181 Of these candidates, only President Hamid Karzai
                                                            and Dr. Abdullah Abdullah received a significant percentage. Each claimed vic-
                                                            tory.182 The initial election results suggested that President Karzai had received
                                                            more than 50% of the votes.
                                                                Final certification of the results was delayed while the IEC and ECC investi-
                                                            gated allegations of fraud. On October 18, 2009, the ECC issued three separate
                                                            decisions related to the certification of the results.183 One of these decisions
                                                            affected the distribution of the votes reported for each candidate in the prelimi-
                                                            nary uncertified results. That decision ordered the IEC to invalidate a specified
                                                            percentage of each candidate’s votes based on the proportion of fraud identified
                                                            in the audit.184
Dr. Abdullah Abdullah. (AP photo)                               The ECC’s audit findings reduced President Karzai’s share of the total votes
                                                            below the 50% threshold required for the IEC to declare him the victor, as shown
                                                            in Figure 3.37.185 On October 20, 2009, the IEC announced that a runoff election
                                                            is scheduled for November 7 between President Karzai and Dr. Abdullah, in ac-
                                                            cordance with Article 62 of the Afghan Constitution.186

                                                            Figure 3.37

To be elected president, a candidate must                   PRESIDENTIAL ELECTION: FINAL RESULTS
receive the majority—50% plus one or                        For 2 Leading and 30 Other Candidates
more—of the valid votes cast. If no candi-
                                                                                      Voted for                                           Voted for                     Voted for other
date receives that amount, a runoff (second                                      Hamid Karzai: 49.7%                              Abdullah Abdullah: 30.6%            candidates: 19.8%
round) election is to be held approximately
six weeks after the original election. Only
the two candidates with the highest number
of votes in the initial election may compete
in the runoff election. The candidate who
                                                                   Amount needed to win election: 50% + 1 vote
receives the most votes in the runoff is
declared president.
                                                            Note: Percentages as announced by the IEC on October 21, 2009.
Source: IEC Fact Sheet, “Presidential Election,” www.iec.   Sources: IEC, press release, “Reference to Announcement of Preliminary Results of 2009 Presidential Election,” 9/16/2009; IEC,
org.af/assets/PDF/FactSheet/eng/fs4E.pdf, accessed          “Presidential & Provincial Council Elections Afghanistan 2009 Elections,” www.iec.org.af/results/leadingCandidate.html, accessed
10/19/2009.                                                 10/22/2009.




                                                                74                         special inspector general                I   afghanistan reconstruction
                                                                                  GOVERNANCE




Voter Turnout                                                                                                                     FIGURE 3.39
The IEC initially estimated that 38.7% of the approximately 15.3 million eligible                                                 ECC STRUCTURE
Afghans voted on August 20, 2009.187 The majority of voters in the 2009 elections
were male, as shown in Figure 3.38.188 On October 21, the IEC reported that
                                                                                                                                      ELECTORAL COMPLAINTS COMMISSION
4,597,727 valid votes were cast in the presidential elections.189 It determined that
225,363 (4.7%) of all the votes cast were invalid.190

Presidential Election Fraud                                                                                                         2 National Commissioners, 3 International Commissioners

Complaints about ballot stuffing and other voting irregularities began on Election
Day.191 Election complaints are the responsibility of the Electoral Complaints
Commission (ECC), an independent five-member panel that investigates allega-                                                        The AIHRC and the Supreme The Special Representative
tions of election fraud. Figure 3.39 provides an overview of the ECC. The ECC                                                       Court of Afghanistan each   to the Secretary-General
                                                                                                                                    appoint one of the national appoints the three
received over 3,000 complaints of electoral fraud during the elections and the                                                      commissioners.              international commissioners.
tallying period. Approximately 29% (893) were classified as “Priority A” (high pri-
ority) complaints which, if determined to be valid, would have a material effect                                                  Source: ECC, “Commissioners,” www.ecc.org.af/en/
                                                                                                                                  index.php?option=com_content&view=article&id=46&
on the final results.192                                                                                                          Itemid=61, accessed 10/17/2009.

   Allegations of fraud included the following:193
• ballot box stuffing
• premature closing of centers
• opening of unauthorized centers
• underage voting
• multiple voting
• proxy voting
• campaigning by candidate agents inside polling centers
• prohibiting candidate agents from voting observation
                                                                                                                                  The ECC has independent authority and ju-
   In response to the complaints, the ECC conducted an investigation of several                                                   risdiction to adjudicate complaints related
polling stations and concluded that sufficient evidence existed of fraudulent                                                     to electoral offenses. The ECC’s term expires
activity to warrant an audit of the results.194 On October 5, 2009, the IEC and                                                   30 days after certification of the election
ECC began the audit and recount of 3,498 questionable ballot boxes.195                                                            results. The IEC, however, is responsible for
                                                                                                                                  managing the electoral process. The IEC
                                                                                                                                  must adhere to the decisions of the ECC.
FIGURE 3.38
                                                                                                                                  Source: GIRoA, “Electoral Law,” Articles 7, 52, 5/31/2004.
ELIGIBLE VOTERS BY PARTICIPATION AND BY GENDER


             Participating: 38.7%                                            Non-Participating: 61.3%




                 Male: 58.4%
                Female: 38.8%                                  Male          Female      Data Not Available   Non-Participating



Note: Among participating voters, remaining 2.8% represents Kuchi. Data for Kuchi not available by gender.
Source: UNDP/ELECT, ELECT Weekly, 9/8–9/21/2009, p. 10.




             REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2009                         75
                                               GOVERNANCE




                                                  The IEC created an audit checklist to facilitate the examination of each ballot
                                               box.196 The audit team had to visually inspect each ballot box for physical irregu-
                                               larities, in the presence of accredited party agents and electoral observers. After
                                               each inspection, the contents were replaced in the box, the box was resealed,
                                               and new serial numbers were assigned and recorded.197 The ECC completed the
                                               audit process on October 8, 2009, and announced its findings on October 19.198

                                               International Observations on Fraud
                                               Representatives of the international community were present as observers of the
                                               integrity of the election process. They included organizations such as Democracy
                                               International, the National Democratic Institute, the European Union Election
                                               Observation Mission, the Organization for Security and Co-operation in Europe
                                               (OSCE) Election Support Team, and the Free and Fair Elections Foundation of
                                               Afghanistan (FEFA).199
                                                  The IEC established the National Tally Center as the depository of the election
                                               results in Kabul. Before Election Day, the IEC conducted tours of the Center and
                                               briefed visitors. UNDP/ELECT estimated that approximately 40 stakeholders—as
                                               well as some 5 to 10 election observers or candidate agents who would be pres-
Karl W. Eikenberry, U.S. Ambassador
                                               ent on the viewing platform to oversee the ballot tabulation process—visited the
to Afghanistan, right, along with Richard C.   Center daily in the weeks preceding Election Day.200 The IEC-reported observers
Holbrooke, U.S. Special Representative for     included 21 domestic observer groups, 30 international observer organizations,
Afghanistan and Pakistan, center, look at      51 national media organizations, 149 international media houses, and 31 political
the voter list during their visit to the IEC   parties.201 Representatives from the OSCE Elections Support Team, FEFA, and
office in Kabul. (AP Photo)
                                               the top four presidential candidates were also frequent visitors.202
                                                  The U.S. Embassy Kabul, which monitored the election process closely as an
                                               observer, found “many of the anti-fraud mechanisms put in place by the IEC with
                                               [the] support of UNDP to be robust by international standards,” but also found
                                               that many were severely constrained on Election Day. Some of these constraints
                                               included the following:203
                                               • poor security
                                               • shortage of female staff
                                               • widespread illiteracy
                                               • voter intimidation
                                               The U.S. Department of State (DoS) expressed confidence in the ECC’s
                                               fraud investigation capabilities to remove remnants of fraud from the final tally.204

                                               Women’s Participation
                                               Of the 41 candidates for president, only two were women: Dr. Fana Frozan and
                                               The Hon. Shahla Ata.205 Neither has held an elected position or been affiliated with
                                               a party; both were independent. Dr. Frozan, the widow of the late Afghan aviation
                                               minister Abdul Rahman, is a surgeon from Balkh Province.206 Shahla Ata is from
                                               Kandahar and holds an appointed position in the upper house of Parliament.207
                                                  According to UNDP/ELECT, female candidates reported that they received in-
                                               sufficient media attention and were not viewed as viable candidates.208 The UN’s
                                               Gender Unit and Public Outreach Department (Gender Unit) also reported that



                                                 76                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




female journalists were turned away from polling stations, whereas male
journalists at the same stations were permitted entry.209
   Although the IEC’s Gender Unit conducted voter education seminars for             Neither female candidate garnered
women, female voter participation was low. Many women voters received                more than 1% of the valid votes—Dr. Frozan
instructions from their families or from people present at the polling station on    Fana received approximately 21,512 votes
how to cast their votes, according to the Gender Unit.210                            (0.5%), and the Hon. Shahla Ata received
   In July, according to UNDP/ELECT, the Gender Unit and the IEC commission-         approximately 10,687 votes (0.2%).
ers hosted a session on developing strategies to recruit women as body checkers      Source: IEC, “Presidential & Provincial Elections, Afghanistan
                                                                                     2009 Elections,” www.iec.org.af/results/leadingCandidate.
or to serve in other temporary polling staff positions for the elections. Partici-   html, accessed 10/14/2009.

pants included representatives from the Ministry of Women’s Affairs, the Ministry
of Rural Development, the Ministry of Interior, the United Nations Development
Fund for Women, the U.S. Agency for International Development (USAID), local
women’s groups, and international organizations.211
   The UN Gender Unit identified challenges that must be overcome in order to
improve female participation in the next elections:212
• Women need greater awareness of political processes. Many illiterate women
    relied on male opinions and the advice of others at polling stations.
• More thorough planning is needed for the security of female candidates.
    Planning should take place earlier, more training should be provided, and
    more bodyguards allocated.
• An early warning system relating to security for female IEC and polling
    center staff members needs to be designed.
• Voter registration cards should have photographs of women, in order to             Indelible ink stains the forefinger of an
    prevent fraud.                                                                   Afghan woman after she cast her vote at a
• Collection of data on the breakdown of voters by needs to be improved, and         polling center. (UNAMA photo, Jawad Jalali)
    this may necessitate addressing how to gather this information in a more
    thorough way.
• A clause in any agreement with key ministries that employ women (Women’s
    Affairs, Health, Education) should be written to smooth the way for their
    female staff members to work in polling centers on voting day.

Election Security
The IEC identified a lack of security during the elections as a significant con-
cern.213 DoD reported that the Taliban’s attempts to derail and disrupt the elec-
tion process through fear and intimidation of Afghan voters adversely affected
voter turnout.214 The difficult security environment affected the elections in
several ways:
• It caused the IEC to reduce the number of polling sites that it was able to
   open.215
• It stifled voter turnout.216
• It hampered candidates’ ability to stand for office and campaign freely.217
• It limited freedom of association and peaceful assembly, amplifying the
   challenges women faced in participating in the electoral process.218




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009           77
                                                               GOVERNANCE




                                                                  The IEC, in close coordination with the Afghan National Security Forces
                                                               (ANSF) and the international forces, worked to secure access to polling locations
                                                               for voters, IEC staff, observers, and agents of candidates.219 The Afghan National
                                                               Police (ANP), and in some instances, community members, provided additional
                                                               security for voters.220 Over 160,000 police and soldiers provided security by
                                                               manning polling stations and patrolling travel routes for Afghan voters, accord-
                                                               ing to the Department of Defense (DoD).221 The Combined Security Transition
                                                               Command - Afghanistan (CSTC-A) provided additional weeks of training to the
                                                               ANP in anticipation of the elections.222 According to DoD, the International Securi-
                                                               ty Assistance Force (ISAF) and U.S. Forces - Afghanistan (USFOR-A) made these
                                                               elections their primary mission and worked closely with their Afghan partners.223
                                                                  The international community also recognized the security challenges that the
                                                               elections presented to the Government of the Islamic Republic of Afghanistan
                                                               (GIRoA). For example, DoD reported that Great Britain deployed an additional
                                                               700 troops to assist with the elections, Hungary provided an additional 40 troops,
                                                               and Greece added two additional 20-member medical teams.224

                                                               Security Incidents
                                                               According to UNDP/ELECT, over 100 violent incidents occurred on Election Day.225
                                                               Eighteen ANP members were killed and 27 were wounded. Thirty civilians were
FIGURE 3.40
                                                               killed and 31 wounded.226 Many of the incidents were rocket and mortar attacks
                                                               that did not directly target Afghan voters.227
GEOGRAPHICAL DISTRIBUTION OF                                       UNDP/ELECT reported that the geographical distribution of increased levels
ELECTION DAY VIOLENCE                                          of Election Day violence was consistent with previous observations of violence
                                                               in Kunduz, Kandahar, Khowst, Kunar, and Nangarhar, as shown in Figure 3.40.
                                                               Election-related incidents continued after Election Day, with a number of attacks
                                                               reported on polling centers and vehicle convoys in attempts to destroy ballot mate-
                                                               rials or exact retribution against IEC staff.228
                                                                   According to UNDP/ELECT, allegations of incidents targeting civilians—includ-
                                                               ing intimidation, abductions, and assassinations—occurred countrywide. Threats
                                                               to cut off fingers that were marked with indelible ink—representing that the
                                                               person had voted—were reported, as were increased numbers of faction-inspired
                                                               incidents of intimidation.229
                                                                   The transport of ballot materials to provincial centers in some of the provinces
                                 Heightened violence present   (such as Faryab, Nuristan, Uruzgan, and Wardak) was a significant challenge,
                                                               according to UNDP/ELECT. Some convoys were attacked and ballot materials
Note: Highlights violence in select provinces, but does not
include all reported incidents and attacks on Election Day.    destroyed.230
Source: UN, Report of the Secretary-General,
“The Situation in Afghanistan and Its Implications for
International Peace and Security,” 9/22/2009, p. 8.            Provincial Council Elections
                                                               On September 26, 2009, the IEC announced the preliminary results for the pro-
                                                               vincial council elections in 30 of Afghanistan’s 34 provinces.231 There were 3,339
                                                               candidates for 420 positions; 251 men and 106 women won seats.232 The results
                                                               of the elections in the remaining provinces—Paktika, Nangarhar, Kandahar, and
                                                               Ghazni—had not been released as of October 21, 2009. According to DoS, one of
                                                               the main challenges in the provincial election process was the large number of



                                                                 78                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                             GOVERNANCE




candidates competing for each seat, which produced exceptionally long ballots
that were likely difficult for voters to comprehend.233

Seat Allocation
The number of seats in a provincial council is determined by the province’s
population.234 The highest concentration of the Afghan population is in Kabul,
followed by Balkh, Ghazi, Herat, and Nangarhar. Figure 3.41, depicts the
allocation of provincial council seats in the 2009 elections.

FIGURE 3.41

ALLOCATION OF SEATS FOR PROVINCIAL COUNCILS
                                                                                                                                           TAJIKISTAN                CHINA
                                                                               UZBEKISTAN


                                                                   JOWZJAN                           KUNDUZ        BADAKHSHAN
                     TURKMENISTAN                                     9             BALKH                   TAKHAR     15
                                                                                     19                15
                                                                                                              15

                                                                                       SAMANGAN   BAGHLAN
                                                        FARYAB                            9
                                                          15                                         15
                                                                   SAR-E PUL                             PANJSHIR
                                                                                                            9     NURISTAN                   Provincial Population
                                                                       9
                                          BADGHIS                                               PARWAN KAPISA         9
                                             9                                     BAMYAN         15                    KUNAR
                                                                                                             9 LAGHMAN 9                     Fewer than 500,000
                                                                                     9                KABUL
                                                                                                        29         9
                      HERAT                                                                 WARDAK                                           500,000–1 million
                                                                                                                 NANGARHAR
                       19                              GHOR                                    9    LOGAR            19
                                                        15                                             9                                     1 million–2 million
                                                                    DAYKUNDI
                                                                       9                              PAKTIYA
                                                                                        GHAZNI            9 KHOWST                           2 million–3 million
                                                                                          19                    9
                                                                                                                                             More than 3 million
                                                                 URUZGAN
                          FARAH                                     9
                            9                                                                        PAKTIKA
                                                                                 ZABUL                  9
                                                                                   9


                                                                                                                                PAKISTAN
                        NIMROZ
   IRAN                    9              HELMAND
                                             15               KANDAHAR
                                                                 15




Note: Ranges for provincial population as reported by IEC.
Source: IEC, "Seats Allocation for Provincial Council," www.iec.org.af/SubContent.asp?sect=4&Page=seatallocation, accessed 10/14/2009.




             REPORT TO THE UNITED STATES CONGRESS                    I   OCTOBER 30, 2009                           79
                                                                   GOVERNANCE




FIGURE 3.42

CANDIDATES ON PROVINCIAL COUNCIL ELECTION BALLOT

                                                                                    UZBEKISTAN                                                           TAJIKISTAN           CHINA



                                                                      JOWZJAN                            KUNDUZ
                     TURKMENISTAN                                       74              BALKH
                                                                                                           124 TAKHAR BADAKHSHAN
                                                                                         138                     143      113

                                                                                           SAMANGAN  BAGHLAN
                                                       FARYAB                                 70
                                                         85                                            193
                                                                      SAR-E PUL                            PANJSHIR
                                                                                                              51     NURISTAN
                                                                         59
                                          BADGHIS                                                  PARWAN KAPISA        32
                                            47                                         BAMYAN        115                  KUNAR
                                                                                                               54 LAGHMAN 57
                                                                                         94              KABUL
                                                                                                          524        60
                      HERAT                                                                    WARDAK
                                                                                                                    NANGARHAR                              0–50
                       184                             GHOR                                       41   LOGAR
                                                        75              DAYKUNDI                         48
                                                                                                                                                           51–100
                                                                           89                            PAKTIYA
                                                                                            GHAZNI             KHOWST
                                                                                                                                                           101–150
                                                                                                                  38
                                                                    URUZGAN                                                                                151–200
                         FARAH                                        26
                           34                                                                            PAKTIKA
                                                                                     ZABUL                 69                                              201+
                                                                                       33
                                                                                                                                                           Unavailable

                                                                                                                                     PAKISTAN
                        NIMROZ
   IRAN                   32             HELMAND
                                            54                KANDAHAR




Note: No information reported on the provincial elections in Ghazni, Kandahar, Nangarhar, and Paktiya.
Source: IEC, "Final Uncertified Provincial Council Results," www.iec.org.af/results/Provincial/resultsVoteOrder.html, accessed 10/14/2009.



                                                                      Figure 3.42 identifies the number of candidates on each ballot in the provincial
                                                                   council elections. Each council has between 9 and 29 seats.235 In each council,
                                                                   25% of the seats are reserved for female candidates. Men and women compete
                                                                   against each other, but if not enough women win the reserved seats in each
                                                                   province, those seats are assigned to female candidates to ensure that women
                                                                   hold the number of seats reserved for them by law.236 In all the provinces except
                                                                   Uruzgan and Kandahar, there were enough female candidates to fill the seats
                                                                   reserved for women.237




                                                                        80                         SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                                                        GOVERNANCE




Provincial Election Fraud
In the provincial elections, allegations of voter fraud such as ballot stuffing and
bribes were made, but observers were unable to identify concrete evidence to
support such allegations. The Provincial Electoral Complaints Commissions
(PCCs) serve as representative extensions of the ECC to address allegations of
electoral fraud within each province.238 Anyone who has a legitimate interest and
who alleges that there has been a violation of Electoral Law may file a complaint
with the ECC and PCCs.239

Voter Education
Before the elections, civic educators worked to raise voter awareness of election
procedures. Afghan media outlets covered campaigns and election events across
the country.

Campaigning
The last official campaign day for the presidential and provincial council elec-
tions was August 17, 2009.240 To encourage Afghans to vote, over 1,600 IEC civic
educators traveled throughout the country prior to the elections, distributing
information, including the location of polling centers. Mobile theater teams
conducted educational performances in two languages (Dari and Pashtu) in 24
of the 34 provinces, as illustrated in Figure 3.43.241

FIGURE 3.43

CIVIC EDUCATION: MOBILE THEATER TEAMS                                                                      TAJIKISTAN
                                                                                                                        CHINA

                                                       UZBEKISTAN


            TURKMENISTAN                     JOWZJAN                      KUNDUZ             BADAKHSHAN
                                                         BALKH                      TAKHAR


                                                               SAMANGAN
                                 FARYAB                                     BAGHLAN
                                             SAR-E PUL                         PANJSHIR
                                                                                        NURISTAN
                       BADGHIS
                                                                        PARWAN KAPISA
                                                         BAMYAN                             KUNAR
                                                                                    LAGHMAN
                                                                             KABUL
                                                                   WARDAK
           HERAT                                                                      NANGARHAR
                                 GHOR                                       LOGAR
                                              DAYKUNDI                       PAKTIYA
                                                                 GHAZNI               KHOWST

                                          URUZGAN
            FARAH
                                                                          PAKTIKA
                                                       ZABUL


                                                                                                PAKISTAN
            NIMROZ
 IRAN                  HELMAND
                                        KANDAHAR
                                                                            Mobile Theater Team Presence




Source: UNDP/ELECT, ELECT Weekly, 9/1–9/7/2009, p. 3.




            REPORT TO THE UNITED STATES CONGRESS                              I     OCTOBER 30, 2009                    81
                                    QUARTERLY HIGHLIGHT




ELECTION PREPARATIONS AND CHALLENGES
Conducting elections in a country entrenched in                   Outcome for 2009 Election
conflict, with weak institutions, weak infrastructure,            Although new registrants were linked to specific prov-
a high illiteracy rate, and 41 presidential candidates,           inces, lenient procedures contributed to multiple reg-
is challenging from many perspectives, according to               istrations and registration of ineligible voters. Having
the UN Secretary-General.242 This quarterly highlight             substantially more voters registered than were actually
discusses the preparations and challenges that                    eligible had an adverse effect on the credibility of the
the GIRoA encountered in preparing for both the                   elections.249 An unusually high number of female reg-
2004/2005 and 2009 elections. Some of these                       istrants were reported to be registered in less secure
challenges included voter registration and turnout,               and more traditionally conservative provinces. Elec-
security, and fraud.                                              toral officials interpreted the high number of female
                                                                  registrants as an indication of “proxy voting,” a form
REGISTRATION AND TURNOUT                                          of fraud in which men in traditional areas voted in the
In 2004 and 2005, voter registration activities failed            place of the women in their families.250
to assign voters to specific districts or polling centers,
making voter turnout unpredictable.243                            SECURITY
                                                                  Afghanistan’s security environment has deteriorated
2004/2005 Election Preparation                                    considerably since the 2004/2005 elections, possibly
For the 2004/2005 elections, voter registration was               having an adverse effect on the electoral process.251
conducted in two phases and resulted in approxi-
mately 10.6 million registrants.244 To educate poten-             2004/2005 Election Preparation
tial voters on registration and election processes, the           For the 2004/2005 elections, overall security objec-
Joint Electoral Management Body (JEMB) Secretariat                tives included protecting electoral staff, securing JEMB
established a Public Outreach Office.245 The Public               facilities, and providing security for the transport and
Outreach Office included a public information unit,               counting of sensitive polling materials.252 The United
which disseminated information on voter registration              States deployed several hundred additional troops
and electoral processes. Public outreach efforts in-              to reinforce the 18,000 U.S. troops stationed in
corporated initiatives such as organized marches and              Afghanistan. European countries such as Spain and
media events to encourage and promote the impor-                  Italy provided an additional 2,500 troops through the
tance of the participation of women.246                           International Security Assistance Force (ISAF).253 The
                                                                  U.S.-trained Afghan National Army and Afghan National
2009 Elections Preparation                                        Police forces also had prominent roles in election
For the 2009 elections, voter registration was con-               security missions.
ducted in four phases and resulted in approximately
4.4 million new registrants. Voter registration data              2009 Elections Preparation
for 2009 linked new registrants to specific provincial            For the 2009 elections, several new security measures
polling centers, allowing for better predictability of            were implemented in response to the deteriorating se-
voter turnout.247 According to the IEC, over 1,600                curity environment. The European Union Police Mission
civic educators traveled throughout the country and               in Afghanistan provided training to the Afghan National
distributed information, including the location of poll-          Police on security provisions for the election, with an
ing centers.248                                                   emphasis on human rights. Furthering this security ef-
                                                                  fort, the Joint Security Planning Group was established
                                                                  to bolster joint and coordinated security planning




                                      82                   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                QUARTERLY HIGHLIGHT




between the entities that were offering security                                              Human Rights Commission, in partnership with the
assistance during the elections.254                                                           United Nations Assistance Mission in Afghanistan,
                                                                                              noted the limitations placed on freedom of movement
Outcome for 2009 Election                                                                     by the lack of security, as well as the disadvantages
Despite the IEC’s concerted efforts to secure the                                             faced by women.259
electoral facilities, security posed significant challeng-
es on Election Day 2009. These challenges included                                            Outcome for 2009 Election
intimidation, threats, abduction, and assassination of                                        Despite efforts to safeguard the electoral environ-
election workers and monitors, according to a SIGAR                                           ment, the UN Secretary-General noted that the ECC
audit report on the elections.255                                                             received over 3,000 complaints regarding allegations
                                                                                              of ballot stuffing and other irregularities during the
FRAUD PREVENTION                                                                              electoral process, including Election Day.260
Weak capacity, limited safeguards, and lack of under-
standing of electoral procedures can have an adverse                                          LESSONS LEARNED
effect on electoral credibility.256                                                           During the interim period following the 2005 elec-
                                                                                              tions, attempts to build the capacity and resources of
2004/2005 Elections Preparation                                                               the IEC were met with difficulty.261 Although specific
For the 2004/2005 elections, the JEMB implemented                                             issues were identified during the previous election
several safeguards to deter fraud, including the use                                          cycle, limited preparatory actions were taken. Issues
of indelible ink and the punching of holes in voter                                           not addressed included assessing security needs,
registration cards, both actions signifying that an                                           conducting a census, and reconstructing the voter
individual had voted.257                                                                      registry.262
                                                                                                  One of the SIGAR audit reports on the elections
2009 Elections Preparation                                                                    indicated that despite international advisor input,
For the 2009 elections, initiatives to safeguard the                                          the IEC did not create a strategic plan that could
electoral environment included the implementation                                             enhance capacity building or devise measurable
of the ECC and political rights monitoring. The ECC                                           benchmarks.263 The IEC faces significant challenges
was responsible for adjudicating all challenges and                                           as it strives to become a self-sustaining institution.
complaints related to a candidate’s eligibility and the                                       SIGAR’s audit report recommended an increased fo-
electoral process.258 The Afghanistan Independent                                             cus on capacity building to better position the IEC to
                                                                                              fully assume technical duties and lessen dependence
                                                                                              on international support in future elections.264
AFGHANISTAN’S ELECTORAL HIGHLIGHTS

                        DEC–AUG: Voter                                                                                                                             OCT 5–9:
                        registration for 2004   2005–2006:                                                                                                         ECC conducts
                        presidential election   Transition Phase                                                                                                   fraud audit

2003                     2004                    2005                    2006                    2007                    2008                    2009                    2010
  ttttt ttttt ttttt ttttt ttttt ttttt ttttt ttttt
             JULY 26:                      OCT 9:                SEPT 18:                                                                  OCT 6–FEB 2:          AUG 20:
             Joint Electoral               Hamid Karzai          Provincial                                                                Voter registration    Polling
             Management                    elected               election                                                                  for 2009              (Election) Day
             Body created                  president                                                                                       presidential election


Sources: IEC, “Phases & Mobile Update,” www.iec.org.af/subContent.asp?sect=4&page=phases, accessed 10/20/2009; IEC, “Key Dates,” www.iec.org.af/subContent.asp?sect=4&page=keydates, accessed
10/20/2009; ECC, “Statistics,” www.ecc.org.af/en/index.php?option=com_content&view=article&id=50&Itemid=65, accessed 10/20/2009; UNDP/Elect, “Background,”
www.afghanelections.org/index.php?page=en_Background, accessed 10/19/2009.




            REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2009                            83
                                                             GOVERNANCE




FIGURE 3.44                                                  Media Coverage
EMC RESPONSIBILITIES
                                                             Afghanistan’s media presented issues for debate during the presidential cam-
                                                             paigns, providing Afghans with information about the candidates.265 The IEC
                                                             established the Electoral Media Commission (EMC) to monitor fair reporting in
   INDEPENDENT ELECTION COMMISSION                           the media and the media coverage of all the candidates during the campaigns.266
                                                             The EMC also organized presidential roundtables and debates, and held press
                                                             conferences before and after the election to provide updates on election activi-
                                                             ties.267 Figure 3.44 provides information about EMC election responsibilities.
            Electoral Media Commission
                 (3-member panel)
                                                             PRE-ELECTION DAY COVERAGE
                                                             Starting on July 16, 2009, the EMC reported the percentage of coverage for each
r Monitors coverage by the mass media                        political candidate. The IEC requested that the media cooperate with the EMC to
r Addresses violations of the Mass Media                     educate citizens on the following:268
  Code of Conduct
                                                             • the importance of voting
r Oversees Sponsored Advertising Program
                                                             • the platforms of the candidates
r Verifies media silence for 48 hour before                  • the basic issues of the campaign
  polling starts
                                                             • how to participate in elections
Source: IEC, “Electoral Media Commission,” www.iec.org.af/
Content.asp?sect=2&page=electoralmedia, accessed
10/13/2009.                                                     According to UNDP/ELECT, the GIRoA, through the ministries of Foreign
                                                             Affairs and Interior, prohibited media coverage of violence in the lead-up to the
                                                             elections.269 During the 48 hours before the election and during the polling day,
                                                             the media is prohibited by law from covering any candidate’s political activity.
                                                             This prohibition included publishing or broadcasting results from opinion
                                                             surveys, opinion polls, or exit polls.270 The EMC monitored activities during
                                                             the media silence period on August 18 and 19, 2009, as well on Election Day
                                                             between 7 a.m. and 8 p.m.271

                                                             ELECTION DAY COVERAGE
                                                             According to UNDP/ELECT, the United Nations Assistance Mission in Afghanistan
                                                             requested that the GIRoA allow the media free access to cover all aspects of the
                                                             elections. The IEC selected 10 international and national media representatives to
                                                             visit polling center openings in Kabul to ensure coverage to Election Day activi-
                                                             ties, including setup of the polling stations and images of Afghans voting through-
                                                             out the day. The Office of the UN Special Representative of the Secretary-General
                                                             coordinated the media visits with the arrival of the UN Secretary-General.272
                                                                On Election Day, the IEC held daily press conferences to provide updates to
                                                             the international community regarding the status of events throughout the day,
                                                             such as the number of polling stations opened, the number of security incidents,
                                                             and allegations of ballot stuffing.273 After Election Day, the IEC continued to host
                                                             daily press conferences, to provide updates on Election Day events as well as
                                                             on the counting and retrieval of the ballots. The press conferences also covered
                                                             voter turnout, candidate claims of victory, the timing for the release of results,
                                                             and the audits. Between 100 and 150 representatives from the media and interna-
                                                             tional observers attended each press conference.274




                                                               84                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                            GOVERNANCE




Election Capacity
According to one of the SIGAR audit reports on the elections, hosting credible
elections depends on the integrity of the election process, as well as the commit-
ment of the next Afghan government to continue to build electoral capabilities.
The IEC’s long-term elections capacity will require the participation and coordi-
nation of the UN, international donors, and the GIRoA to assist Afghanistan in
sustaining a legitimate and fairly elected government. This SIGAR audit noted
that the “IEC faces significant challenges as it strives to become a self-sustaining
institution free from dependence on international support.” The IEC must de-
velop its own qualified staff to orchestrate the election cycle. Once institutional
capabilities are established, such capabilities will also be needed at the ECC,
should it be established as a permanent electoral institution.275


BUILDING GOVERNANCE CAPACITY
Fortifying and increasing the capacity of central and subnational administrative
structures across all levels of government in Afghanistan, according to USAID, is
essential to establishing a strong government presence.276 The electoral process,
however, crowded out almost all other political activity during this quarter, ac-
cording to the UN Secretary-General.277 Table 3.3 shows the target completion
dates for the public administration reform goals.278
    USAID reported that the GIRoA’s legitimacy as a functional government entity is
predicated on the integrity and effectiveness of the civil service. For a re-emerging
state like Afghanistan, the development of capacity in the government structure
is fundamental to successful state building. According to USAID, an efficient and
competent civil service is paramount in helping stabilize the country, restore the
rule of law, implement reforms, and deliver services to the Afghan people.279 

TABLE 3.3

STRATEGIC PRIORITIES FOR PUBLIC ADMINISTRATION REFORM
Afghanistan Compact Goal                                                                                                Status               Target Completion Date
Government machinery (including the number of ministries) will be restructured and rationalized to ensure a fiscally    No update reported   March 2011
sustainable public administration.
Clear and transparent national appointments mechanism will be established within 6 months, applied within 12            No update reported   June 2009–June 2010
months, and fully implemented within 24 months for all senior-level appointments to the central government and
the judiciary, provincial governors, chiefs of police, district administrators, and provincial heads of security.
Review of the number of administrative units and their boundaries will be undertaken with the aim of contributing       No update reported   March 2007
to fiscal suitability.
Merit-based appointment, vetting procedures, and performance-based reviews will be undertaken for civil service         No update reported   March 2011
positions at all levels of government, including central government, the judiciary, and police, and requisite support
will be provided to build the capacity of the civil service to function effectively.

Source: GIRoA, “The Afghanistan Compact,” 1/31–2/1/2006, p. 7.




            REPORT TO THE UNITED STATES CONGRESS                    I   OCTOBER 30, 2009                           85
                                                      QUARTERLY HIGHLIGHT




INVESTIGATION OF ELECTION RESULTS
This quarterly highlight describes the audit and                                                exceeded expectations, based on credible observer
recount process developed by the IEC and ECC in                                                 reports of voter turnout.282
response to clear and convincing evidence of fraud in                                              At the conclusion of its preliminary investigation, the
Afghanistan’s first democratic presidential election.                                           ECC instructed the IEC to conduct an audit and recount
                                                                                                of ballots to address electoral irregularities in 3,498
ALLEGATIONS OF FRAUD                                                                            questionable ballot boxes.283
According to the UN Secretary-General, complaints
of ballot stuffing and other electoral irregularities                                           AUDIT PROCESS
prompted the ECC to investigate allegations of                                                  Because it would have been impossible to investigate
fraud.280 UNDP/ELECT reported that the IEC quaran-                                              all the allegations of voter irregularities in a timely
tined certain polling stations and provided all per-                                            manner, the two commissions agreed to conduct an
tinent information related to these stations to the                                             audit and a recount on the basis of sampling of poll-
ECC for further investigation. These stations included                                          ing stations where there were indicators of serious
those in polling centers for which results forms were                                           electoral irregularities.284 This approach would permit
either missing or inaccurate.281                                                                sufficient time to conduct a runoff election if neces-
   After examining the results from several polling                                             sary.285 The sample reflects approximately 10% of the
stations, the ECC concluded that sufficient evidence                                            estimated number of ballot papers included in the
existed of fraudulent activity, such as “either an ex-                                          3,498 ballot boxes.286
ceptionally high number of presidential votes cast per                                              On October 19, 2009, the ECC announced that a
station in relation to the number of ballots available;                                         certain percentage of votes initially designated to the
or an exceptionally high percentage of ballots cast for                                         candidates would be invalidated. As a result, no candi-
only one candidate; or both.” The ECC also invalidat-                                           date received the 50% plus one vote required to be de-
ed ballots from certain polling stations. It observed                                           clared the winner and a runoff election was scheduled
that in a significant number of stations in which fraud                                         between the two candidates with the most votes.287
was identified, the number of ballots that were cast

FRAUD INVESTIGATION: AUDIT CATEGORIES


                                                           OPERATIONAL CONTROL AND COMMAND GROUP




   AUDIT TEAM A1                 AUDIT TEAM A2                     AUDIT TEAM B1                AUDIT TEAM B2                    AUDIT TEAM C1                 AUDIT TEAM C2


                    CATEGORY A                                                    CATEGORY B                                                     CATEGORY C
       Polling stations in which 600 or more                       Polling stations with more than 100 votes                      Polling stations in which 600 or more valid
                valid votes were cast                                in which one candidate received 95%                         votes were cast and one candidate received
                                                                            or more of the votes cast                                    95% or more of the votes cast

              Ballot boxes sampled: 85                                     Ballot boxes sampled: 177                                    Ballot boxes sampled: 96


Sources: IEC, “Fact Sheet on the Audit Process in Response to ECC Order of 8 September 2009,” www.iec.org.af/assets/pdf/factsheet/eng/fs14E.pdf, accessed 10/14/2009;
IEC, “Universe of Polling Stations of the First Three Categories,” www.iec.org.af/assets/pdf/audited/random_first_sample_audit.pdf, accessed 10/14/2009; IEC, “Universe of Polling
Stations of the Second Three Categories,” www.iec.org.af/assets/pdf/audited/random_first_sample_audit.pdf, accessed 10/14/2009.




                                                         86                         SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




GOVERNANCE ADMINISTRATION
The limited institutionalized structures and administration in Afghanistan under-
score the need for competent leadership in public administration positions,
according to the UN Secretary-General. Distrust and a lack of confidence in pub-
lic administration undermine the GIRoA’s authority and legitimacy, “playing into
the hands of the insurgency.”288
    Afghanistan’s current public administration system lacks capacity and is
under-resourced as a result of a shortage of qualified civil servants who are
capable of implementing necessary reforms and delivering services to the public,
according to USAID. Widespread deficiencies in managerial, legal, and organiza-
tional competencies hinder the effectiveness of administrative reforms. Civil ser-
vants continue to be recruited for or keep positions on the basis of patronage.289
    USAID supports GIRoA initiatives to reform public administration. USAID
provides financial assistance for public administration programs, such as a Civil
Service Capacity Development and Civil Service Reform program, to educate and
train civil servants for strengthening government administration.290
    The UNDP also assists in public administration reform, with a capacity-
building program.291 According to USAID, the goal of this capacity-building
program is to support an Afghan-led effort to increase the effectiveness of
ministries. Specifically, the program has three objectives:292
• improve the competencies of Afghan civil servants to offset years of war,
    Taliban rule, and corruption
• modernize, institutionalize, and harmonize common administrative systems
    across ministries
• promote a capacity for change, revitalization, and staff development within                                 GOV   DEV
                                                                                                         SEC      E     EL
    the GIRoA                                                                                               URIT RNANC OPMEN
                                                                                                                Y     E     T

   According to DoS, the Bureau for International Narcotics and Law Enforce-         REGIONAL
                                                                                     COOPERATION
ment Affairs (INL) has 35 advisors working with the Ministry of Counter-
Narcotics (MCN) through the Counter-Narcotics Advisory Team program and the          COUNTER-NARCOTICS

Colombo Plan’s Counter-Narcotics Public Information Program. These advisors          ANTICORRUPTION
are responsible for building MCN capacity to support counter-narcotics pro-
grams both centrally and provincially.293                                            GENDER EQUALITY

                                                                                     CAPACITY
Challenges
Lack of security and corruption throughout Afghanistan continue to affect the        ENVIRONMENTAL

reform of public administration, according to the UN Secretary-General. The
United States and the international community have made significant invest-
ments in strengthening Afghanistan’s governance capacity, but after eight years,
progress remains minimal. The UN Secretary-General identified several chal-
lenges to establishing a stable Afghan state:294
• insufficient number of trained and qualified Afghans
• tolerance for patronage and corruption




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009         87
                                                                 GOVERNANCE




                                                                 • lack of an administrative culture
                                                                 • tendency of Afghan politicians to perpetuate old rivalries rather than to
                                                                   focus on needs of state-building

                                                                    In addition to a deteriorating security environment, which interferes with the
                                                                 development of law-based institutions, qualified Afghans are not attracted to
                                                                 public service positions because of the lower compensation and the patronage-
                                                                 based promotion systems. As a result, public administration reform programs
                                                                 focus on increasing government salaries, evaluating the competencies of existing
                                                                 personnel, and creating opportunities for merit-based career advancement.295


                                                                 RULE OF LAW
                                                                 As shown in Table 3.4, the target completion date for the ANDS Rule of Law
                                                                 goals, adopted from the Afghanistan Compact, is March 2011.296 No progress
                                                                 related to these goals was reported during this quarter.

                                                                 Justice Reformation
                                                                 The Afghanistan National Justice Sector Strategy is the road map for reforming
                                                                 the justice system; it is implemented through the National Justice Program.297
                                                                 Determining the effectiveness of the National Justice Program requires an as-
                                                                 sessment of how many courts and prosecutors’ offices are needed, as well as a
                                                                 determination of staffing priorities, according to the UN Secretary-General.298
                                                                    According to INL, the Federal Bureau of Investigations, Drug Enforcement
                                                                 Administration, Department of Justice, USAID, and CSTC‐A serve as mentors for
                                                                 Afghan ministries to support the GIRoA’s efforts to enforce Afghan criminal law.299

                                                                 Legislative Updates
                                                                 More than 15 key Afghan criminal laws have been passed since the enactment
                                                                 of the Constitution in 2004, as shown in Table 3.5.300
TABLE 3.4

STRATEGIC PRIORITIES FOR RULE OF LAW
Afghanistan Compact Goal                                                                                                              Status                       Target Completion Date
The legal framework required under the constitution, including civil, criminal, and commercial law, will be put in                    No update reported           March 2011
place, distributed to all judicial and legislative institutions, and made available to the public.
Functioning institutions of justice will be fully operational in each province of Afghanistan, and the average time to                No update reported           March 2011
resolve contract disputes will be reduced as much as possible.
Review and reform of oversight procedures relating to corruption, lack of due process, and miscarriage of justice                     No update reported           March 2007
will be initiated.
Review and reform of oversight procedures relating to corruption, lack of due process, and miscarriage of justice                     No update reported           March 2011
will be implemented.
Reformations to strengthen the professionalism, credibility, and integrity of key institutions of the justice system (the             No update reported           March 2011
Ministry of Justice, the Judiciary, the Attorney-General’s Office, the Ministry of Interior and National Directorate of Security).

Source: GIRoA, “Afghanistan National Development Strategy: Governance, Rule of Law, and Human Rights,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development%20
Strategy_eng.pdf, p.65; GIRoA, “The Afghanistan Compact,” 1/31–2/1/2006, p. 8.




                                                                     88                         SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                       GOVERNANCE




   The most recent laws passed were the Anti-Terrorism Law and the Anti-
Kidnapping and Human Trafficking Law, both in 2008. The Interim Code of
Criminal Procedure for Courts was enacted in 2004, but the official criminal
code has not been released, according to DoS.301
   INL reported that it continues to provide advisors to assist the GIRoA in
correctly applying the current laws enacted. Because Afghanistan’s Criminal
Procedure Code has been adopted in various forms, INL advisors are assisting
the GIRoA in ensuring that new legislation is adopted, as well as ensuring that
existing laws for arrests, prosecutions, and trials conform to the existing adopted
legislation.302
   For example, the 33 advisors from INL’s Justice Sector Support Program
(JSSP) constantly update their curriculum materials to conform to the latest Af-
ghan legislation and conduct special training sessions to update prosecutors and
criminal investigative police.303 The JSSP advisors also provide special training
on newly enacted legislation as well as old laws that the Attorney General or the
Minister of Justice have identified as not being followed appropriately.304
   During this reporting period, DoS reported that the Taqnin of the Ministry of                          Taqnin: the Ministry of Justice’s (MoJ’s)
Justice would be reviewing every existing law (enacted prior to the adoption of the                       legislative drafting department, according
current 2004 Constitution). In addition, the Taqnin drafts and reviews proposed new                       to INL. It was established in Solar Year
laws as needed.305                                                                                        1341 (1962) to assist the then-Office of
   The Criminal Law Reform Working Group, JSSP, and the United Nations Office                             the Prime Minister in drafting and review-
                                                                                                          ing all national legislation, primarily for
on Drugs and Crime (UNODC) presented a revised draft of the Criminal Procedure
                                                                                                          compliance with the Constitution, Islamic
Code (CPC) to the Taqnin during the past quarter, but the draft has not been
                                                                                                          law, and international legal standards, and
                                                                                                          to remedy conflicts.
TABLE 3.5

AFGHAN CRIMINAL LAWS PASSED, 2004–2009                                                                  Source: MoJ, www.moj.gov.af, accessed 10/19/2009.

Legislative Title                                                                  Year Enacted
Anti-Money Laundering Law                                                          2004
Counter-Narcotics Law                                                              2003, amended 2006
Law Combating the Financing of Terrorism                                           2005
Law on the Campaign Against Money Laundering and Its Proceeds                      2004
Interim Code of Criminal Procedure for Courts                                      2004
Law on the Campaign Against Bribery and Administrative Corruption                  2004
Law on Prisons and Detention Centers                                               2005
Police Law                                                                         2005
Law on Firearms, Ammunition, and Explosives                                        2005
Military Court Reform Law                                                          2005
Military Courts Law                                                                2005
Military Criminal Procedure Code                                                   2006
Military Penal Code                                                                2006
Anti-Terrorism Law                                                                 2008
Anti-Kidnapping and Human Trafficking Law                                          2008

Source: INL, response to SIGAR data call, 10/5/2009.




             REPORT TO THE UNITED STATES CONGRESS               I   OCTOBER 30, 2009               89
                                                                 GOVERNANCE




                                                                 submitted to Parliament, according to INL. The revised draft of the CPC was sev-
                                                                 eral hundred pages long and was available in both Dari and English. The revised
                                                                 draft was also delivered to the U.S. Embassy Kabul and to INL.306
                                                                    According to INL, the Taqnin collaborates with the JSSP and UNODC regard-
                                                                 ing the content and intent of the revised CPC draft as needed. The Taqnin is
                                                                 responsible for deciding which proposed revisions should be adopted.307
                                                                    Some of the challenges that INL observed in drafting the CPC included the
                                                                 following:308
                                                                 • a patchwork of old and new laws, requiring extensive review and analysis
                                                                     before comprehensive revision of the CPC
                                                                 • consistency of provisions with the 2004 Constitution, including rights not
                                                                     presented before Afghan courts
                                                                 • limited analytical legal precedent, requiring additional dialogue with Afghan
                                                                     justice sector partners for clarification
                                                                 • drafting in multiple languages, English and Dari, to ensure that Afghan
                                                                     justice sector representatives and international legal advisors have a compre-
                                                                     hensive understanding of the proposed legislation
                                                                 • having to provide accurate translations of technical legal terms, principles,
                                                                     and concepts within specific time constraints
                                                                 • understanding of pertinent Islamic legal principles and the effect of interna-
                                                                     tional conventions to which Afghanistan is a party


                                                                 HUMAN RIGHTS
                                                                 As identified in the Afghanistan Compact, the GIRoA intends to improve its
                                                                 human rights record. No progress was reported related to these goals. Table 3.6
                                                                 provides a list of the GIRoA’s metrics for improving human rights.309
                                                                    The rights of women in Afghanistan captured the attention of the internation-
                                                                 al community during this quarter with the signing of the Shia Personal Status
                                                                 law. Concerns from the international community about the gradual erosion of
                                                                 existing rights moved to the forefront with the controversy surrounding the
TABLE 3.6

STRATEGIC PRIORITIES FOR HUMAN RIGHTS
Afghanistan Compact Goals                                                                                               Status               Target Completion Date
The government’s capacity to comply with and report on its human rights treaty obligations will be strengthened.        No update reported   March 2011
Government security and law enforcement agencies will adopt corrective measures including codes of conduct and proce-   No update reported   March 2011
dures aimed at preventing arbitrary arrest and detention, torture, extortion and illegal expropriation of property.
Human rights monitoring will be carried out by the government and independently by the AIHRC.                           No update reported   March 2011

Source: GIRoA, “The Afghanistan Compact,” 1/31–2/1/2006, p. 7.




                                                                   90                     SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                             GOVERNANCE




law. On July 19, 2009, the President of Afghanistan signed legislation intended
to reduce violence against women. According to the UN Secretary-General, the                                                GOV   DEV
                                                                                                                       SEC      E     EL
law criminalizes sexual violence, including rape, forced and underage marriage,                                           URIT RNANC OPMEN
                                                                                                                              Y     E     T
forced labor, and prostitution.310
   Violence against women in public life and sexual abuse of women and girls                       REGIONAL
                                                                                                   COOPERATION
undermines efforts to attain gender equality. According to the UN Secretary-
General, cultural tolerance for rape perpetrators encourages the acceptance of                     COUNTER-NARCOTICS

pervasive violence against women, reinforced through customs, attitudes, and                       ANTICORRUPTION
practices that oppress women or force women into subservient roles in society.311
                                                                                                   GENDER EQUALITY
For more information about the women of Afghanistan, see the quarterly high-
light in the Economic and Social Development section.                                              CAPACITY
   During this reporting period, the UN assisted the MoJ in establishing a Human
                                                                                                   ENVIRONMENTAL
Rights Support Unit. The unit is intended to support the GIRoA in developing and
implementing programs and policies in accordance with Afghanistan’s interna-
tional human rights obligations. For example, the UN visited several detention
centers in and around Kabul to view the conditions of the detention centers
to ensure that the detainees were able to contact family members and were
provided access to legal advice. The UN continues to support Afghan justice
institutions in improving their capacity to adhere to international human rights
standards.312




Cultural and legal barriers hinder women’s full participation in Afghan society. (U.S. Air Force
photo, Capt. Stacie N. Shafran)




          REPORT TO THE UNITED STATES CONGRESS        I   OCTOBER 30, 2009                 91
ECONOMIC AND SOCIAL DEVELOPMENT




  92    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




ECONOMIC AND SOCIAL DEVELOPMENT
                                                                                                                    GOV   DEV
The Afghanistan National Development Strategy (ANDS) stresses the importance                                 SEC        E     EL
                                                                                                                  URIT RNANC OPMEN
of economic development, listing it as one of the three pillars of reconstruction                                     Y     E     T
progress.313 Elements of economic and social development discussed in this
                                                                                        REGIONAL
section include economic growth, essential services, industry, counter-narcotics,       COOPERATION
and the women of Afghanistan.                                                           COUNTER-NARCOTICS

                                                                                        ANTICORRUPTION
ECONOMIC GROWTH
                                                                                        GENDER EQUALITY
The ANDS strategy for economic growth anticipates an increased reliance on
the private sector.314 In order to create a stable macroeconomic environment and        CAPACITY
supportive financial system, the ANDS lists certain priorities that may bolster the
                                                                                        ENVIRONMENTAL
economy, including inflation control and regulation reforms—both the responsi-
bility of the Government of the Islamic Republic of Afghanistan (GIRoA).315

Afghan Currency
Since its introduction in 2002, the exchange rate for the Afghan currency (the          The Afghani is accepted throughout
Afghani) has remained fairly stable against the U.S. dollar, according to the U.S.      Afghanistan; on the borders, the Iranian
Treasury (Treasury). However, inflation rates experienced a double-digit increase       Rial and the Pakistani Rupee are also
in 2008 and 2009 because of high global fuel prices and a drought that affected         used extensively, as reported by Treasury.
cereal crop production.316 Figure 3.45 shows how consumer price inflation var-          Source: Treasury, response to SIGAR data call, 9/30/2009.

ied between 2002 and 2009.

FIGURE 3.45

AFGHANI: CONSUMER PRICE INFLATION (PERCENT)


25%

20%

15%

10%

 5%

 0%
      2002/2003 2003/2004 2004/2005 2005/2006 2006/2007 2007/2008 2008/2009

Source: Treasury, response to SIGAR data call, 9/30/2009.




            REPORT TO THE UNITED STATES CONGRESS            I   OCTOBER 30, 2009   93
                                                            ECONOMIC AND SOCIAL DEVELOPMENT




                                                             Banking
The foreign-owned banks based in                             Treasury reported that the banking system has been growing rapidly since the
Afghanistan have their head offices in                       Afghan Parliament passed the banking law in 2004. The Afghan banking system
countries around the world: India (Punjab                    is composed of two state-owned banks, seven foreign-owned banks, and eight
National Bank of India), Iran (Aryan),                       Afghan-owned banks.317
Pakistan (Brac, Habib, National Bank                            The system is regulated by Da Afghanistan Bank (DAB), the central bank of
of Pakistan), the United Arab Emirates
                                                             Afghanistan. DAB is responsible for the health and stability of the country’s finan-
(Alfalah), and the United Kingdom
                                                             cial sector.318 In 2009, DAB published a strategic plan for 2009 to 2014, based on a
(Standard Chartered).
                                                             five-pillar strategy.319 Table 3.7 details the actions associated with the five pillars.
Source: Treasury, response to SIGAR data call, 9/30/2009.       According to Treasury, chief executive officers (CEOs) for Afghan banks cited
                                                             security as the number one challenge to the banking sector. Related problems
                                                             include underdeveloped laws against money laundering and inadequate regula-
                                                             tions to prevent terrorist organizations from using the banks.320
                                                                Traditionally, Afghanistan has not had a “banking culture,” which, combined
                                                             with a fear of long-term deposits, the prevalence of inconsistent and inadequate
                                                             credit information, and limited access to foreign capital, has caused additional
                                                             problems for the sector.321 Bank CEOs also cited the inadequate support of DAB
                                                             as a central banking structure, saying that the weakness of banking supervision
                                                             leads to difficulties. Despite the fact that the private banks all use the Gregorian
                                                             calendar, DAB continues to use the solar calendar.322

                                                             Gross Domestic Product
                                                             For 2009/2010, the growth in Afghanistan’s real gross domestic product (GDP) is
                                                             estimated to be 8.3%, compared with 3.4% in 2008/2009.323 Treasury reported that
                                                             the services industry contributed the largest percentage of GDP between 2008
                                                             and 2009, primarily through financial services and telecommunications, but also

                                                             TABLE 3.7

                                                             DAB FIVE-PILLAR STRATEGY
                                                             Pillar Number               Pillar Title                                      Activities
                                                             Pillar 1                    Improve the effectiveness of monetary             Incorporate more monetary tools, including open market
                                                                                         policy                                            operations, reserve requirements, and lending facilities
                                                             Pillar 2                    Deepen financial intermediation                   Bolster the financial sector by diversifying and improving
                                                                                                                                           financial products and services; focus on small and
                                                                                                                                           medium enterprises; introduce medium- to long-term
                                                                                                                                           lending mechanisms
                                                             Pillar 3                    Accelerate capacity building                      Enhance organizational efficiency by designing an ef-
                                                                                                                                           ficient organizational structure and providing qualitative
                                                                                                                                           and quantitative resources and goals
                                                             Pillar 4                    Enhance information management                    Strive to collect information efficiently and brief deci-
                                                                                                                                           sion makers in a timely manner
                                                             Pillar 5                    Promote good corporate governance                 Implement best practices in relationships with the
                                                                                                                                           Supreme Council and the government

                                                             Source: DAB, “Strategic Plan 2009–2014: Fostering Price Stability and Building a Robust Financial System,” 2/22/2009.




                                                                 94                             SPECIAL INSPECTOR GENERAL                     I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




through translation and transportation services for donor agencies. The second                                                       FIGURE 3.46

largest contribution came from the agriculture sector, predominantly through
                                                                                                                                     COMPOSITION OF AFGHANISTAN’S GDP,
wheat production. Industry (primarily manufacturing) contributed the third
                                                                                                                                     2008–2009
largest amount.324 Figure 3.46 depicts the approximate contributions of these
groups to GDP.

Employment                                                                                                                                                   Services
                                                                                                                                                             43%
Although no detailed information is available, the U.S. Agency for International
Development (USAID) reported that approximately 40% of Afghans are believed to
                                                                                                                                                      Industry       Agriculture
be unemployed, out of the total population of 25 million people. USAID has identi-                                                                    26%            31%
fied unemployment as a factor driving the country toward increased instability.325
   Unemployment percentages are not tracked because of capacity constraints
at the Afghan ministry level and the challenges associated with implementing a
national census. Neither the International Monetary Fund nor the World Bank                                                          Notes: Numbers affected by rounding. Numbers are estimates.
                                                                                                                                     Source: Treasury, response to SIGAR data call, 9/30/2009.
tracks Afghan employment on a regular basis.326


ESSENTIAL SERVICES
Essential services combine the “hard infrastructure” elements of the ANDS (such
as energy, transportation, and water) with “soft infrastructure,” which describes
human and institutional capacities (including education and health services).
According to the ANDS, limitations in these areas must be addressed for sustain-
able economic growth to take place.327

Energy
Information about how many Afghans have access to electricity is limited, which
the GIRoA has acknowledged as a concern. By best estimates, as of September
30, 2009, approximately 15 to 17% of Afghans had access to the isolated electric-
ity grid systems in different parts of the country.328
   The ANDS describes energy development as “critical to economic growth.”329
Table 3.8 provides a list of several metrics by which the ANDS measures progress
in this sector.


TABLE 3.8

STRATEGIC PRIORITIES TO GROW THE ENERGY SECTOR
ANDS Goal                                               Status                                                          ANDS Completion Date
Electricity will reach at least 65% of urban            Approximately 15 to 17% of households are connected to          March 2010
households and 90% of non-residential urban             isolated grid systems.
establishments.
Electricity will reach at least 25% of rural house- Approximately 5.5 to 6% of Afghans in rural provinces are           March 2010
holds.                                              connected to isolated electric systems.

Note: USAID defines “rural provinces” as “provinces wherein less than 25% of the population lives in market centers.”

Source: GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development%20Strategy_
eng.pdf, pp. 79–80; SIGAR audit, response to energy questions, 9/16/2009. Some data sourced to USAID.




             REPORT TO THE UNITED STATES CONGRESS                         I   OCTOBER 30, 2009                          95
                                                         ECONOMIC AND SOCIAL DEVELOPMENT




                                                          TABLE 3.9

                                                          STRATEGIC PRIORITIES TO STRENGTHEN EDUCATION OPPORTUNITIES
                                                          ANDS Goal                                         Status                                    ANDS Completion Date
                                                          Allow at least 1.8 million Afghans access to      Approximately 18% of adult women          March 2010
                                                          literacy programs, including 60% women,           are literate; 50% of adult men.
                                                          minorities, nomads, or people with
                                                          disabilities.
                                                          Millennium Development Goal: All Afghan           Approximately 53.5% of Afghan             2020
                                                          children will have access to a complete           children attended school in 2009.
                                                          course of primary education.

                                                          Sources: GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20
                                                          National%20Development%20Strategy_eng.pdf, pp. 79–80; USAID, response to SIGAR data call, 10/2/2009. USAID sources these
                                                          numbers to the MoE Planning Department.




                                                          Education
                                                          The main ANDS goal in this sector is to see that every Afghan has equal access to
                                                          education. As stated in the ANDS, “An education sector that engenders a healthy
                                                          workforce with relevant skills and knowledge is key to long-term economic
                                                          growth.”330 Table 3.9 provides an overview of the educational goals established in
FIGURE 3.47
                                                          the ANDS.
FEMALE STUDENTS IN AFGHAN SCHOOLS,                           Approximately 53.5% of Afghan children (6.7 million) attended school in 2009.
GRADES 1–12 (THOUSANDS)                                   The Afghan Ministry of Education (MoE) has estimated that 37% of the children
                                                          attending school are girls. According to USAID, there are still an estimated 5.3
1,000
                                                          million Afghan children who are not enrolled in any education program.331 Figure
                                                          3.47 shows a breakdown of grade enrollment by gender.
 800
                                                          Education by Province
 600                                                      According to USAID, Afghanistan has one central education system, managed by
                                                          the MoE. This system covers primary and secondary schooling, youth and adult
 400
                                                          literacy, and technical and vocational education.332
 200                                                          The southern provinces tend to face greater challenges in providing educa-
                                                          tion. USAID reported that the education systems in Kabul, Herat, and Nangarhar
   0                                                      tend to be more functional than those in other provinces.333
        1   2 3 4 5 6 7 8 9 10 11 12
                                                              According to USAID, one way to increase access to education is through com-
                                                          puters. The United States is supporting a program through which nine provinces
            Total
            Female                                        have received a new e-learning training program for midwives. The first module
Notes: Numbers affected by rounding. Numbers are          focuses on managing the third stage of labor. Along with the training module,
estimates. USAID sources numbers to the Afghan
Ministry of Education.                                    USAID has provided 51 computers for the program. Computers and training
Source: USAID, response to SIGAR data call, 10/2/2009.    programs will be used in Badakhshan, Bamyan, Ghor, Herat, Jowzjan, Kabul,
                                                          Khowst, Paktiya, and Takhar. USAID also plans to provide e-learning training for
                                                          midwives on counseling skills and newborn care.334

                                                          Challenges to Education
                                                          The educational system in Afghanistan faces multiple challenges, according to
                                                          USAID.335 Some of these challenges include the following:




                                                              96                       SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




•    security, including attacks on schools
•    illiteracy
•    the threat of violence against girls in schools
•    the low education levels of teachers, including limited teaching credentials

   Instability in the country continues to affect Afghan education. In the past two
years, more than 673 schools were burned, attacked, or closed down because
of security concerns. The MoE has estimated that these closings deprived more
than 300,000 Afghan students of education.336
   Access to female teachers is also a challenge. Of 415 educational districts in
the country, approximately 200 have no female teachers. The limited availability
of female teachers diminishes the chance that girls can attend school.337

U.S. Efforts
USAID supports a wide range of educational initiatives. All projects are focused
on improving the quality of education across Afghanistan.338 Table 3.10 lists on-
going projects, as described by USAID.

Health Services
According to the Afghan Ministry of Public Health (MoPH), the health of the
Afghan people is among the worst in the region; USAID has classified it as among
the worst in the world.339 Some representative statistics:

TABLE 3.10

USAID EFFORTS IN THE EDUCATION SECTOR
Project Title                                     Description of Activities
Building Education Support Systems                BESST implements the MoE’s National Program for In-service Teacher Training (NPITT) and provides ongoing training support to more than
for Teachers (BESST)                              50,000 teachers (approximately one-third of the teaching force) in 11 of Afghanistan’s provinces, mainly in methodology and pedagogy.
                                                  The program also trains principals in school management strategies, produces video and radio educational programs for teachers, and
                                                  supports the MoE in creating competency and credentialing systems and strengthening its Human Resources and Planning departments.
Partnership for Advancing                         PACE-A assists the GIRoA in strengthening and increasing high-quality community-based education in areas where there are no gov-
Community-based Education in                      ernmental schools. PACE-A is currently reaching over 50,000 students in 18 provinces and has been administering rapid reading and
Afghanistan (PACE-A)                              numeracy tests to its students every year to track students’ learning achievements.
Literacy and Community Empowerment                LCEP-2 implements the MoE’s National Literacy Program and uses literacy and productive skills training as tools to enhance human capital
Program (LCEP-2)                                  and improve livelihood opportunities for youth and adults in Afghanistan. The project has established 3,916 learning centers in 994 com-
                                                  munities of 44 districts in 20 provinces.
Afghan e-Quality Alliances (AeQa)                 AeQa is working to build the capacity of 19 Afghan higher education institutions to meet standards of excellence and quality assurance.
                                                  It establishes e-learning centers for teaching and learning. It also joins university experts from the region, Europe, and the United States
                                                  with Afghan university leaders to build core competencies in digital libraries, teaching and learning software platforms, English language,
                                                  student preparation, facilities management, and higher education leadership and management.
International School of Kabul (ISK)               The ISK provides high-quality American-style K–12 education in Afghanistan. The program has received a full 5-year accreditation by the
                                                  Middle States Association of Colleges and Schools and has been granted a 20-year registration as a private international school by the
                                                  MoE and the Presidential Cabinet of Afghanistan.
Higher Education Project (HEP)                    HEP assists the GIRoA in improving the quality of higher education, particularly through teacher training. The project focuses on improving
                                                  the teaching skills of professors through training in pedagogy, subject knowledge, and professional attitudes. A key aspect is to institution-
                                                  alize structures and develop an academic culture that supports high-quality teaching and professional activities. The project covers 16
                                                  faculties of education in provincial universities.

Source: USAID, response to SIGAR data call, 10/2/2009.




              REPORT TO THE UNITED STATES CONGRESS                         I   OCTOBER 30, 2009                          97
                                                        ECONOMIC AND SOCIAL DEVELOPMENT




                                                         • Afghanistan is one of only four countries in the world where polio
                                                           remains endemic.340
                                                         • Infant, under-five, and maternal mortality rates are among the highest in
                                                           the world.341
                                                         • More than half of all Afghan children are “stunted”—their height-to-age ratio
                                                           is underdeveloped.342

                                                            In order to enhance the MoPH’s ability to provide competitive and cost-
  Health and Nutrition Sector Strategy:                  effective health services, the ANDS recommends the adoption of a Health and
  a health care policy based on studies                  Nutrition Sector Strategy (HNSS). Under the HNSS, the MoPH would study the
  compiled and completed by the MoPH. The                regulatory and legal instruments governing health care. The MoPH would also
  strategy is meant to enhance the minis-                conduct research studies to create new policies, strategies, and plans for the
  try’s ability to address a series of problems          health care sector.343
  within the Afghan health care system.                     In its 2009 annual report, the MoPH announced that it had completed an HNSS
                                                         for 2009 to 2013 and expanded on the basic health care priorities in the ANDS.
                                                         The MoPH has adopted an integrated strategic health planning and budgeting
Source: GIRoA, “The Afghanistan National Development
Strategy,” www.ands.gov.af/ands/final_ands/src/final/    strategy. This strategy is expected to use existing GIRoA structures and models
Afghanistan%20National%20Development%20Strategy_eng.
pdf, p. 12.                                              to reach the following objectives:344
                                                         • provide a direction and mechanism for introducing meaningful
                                                             decentralization
                                                         • link the focus of action with the implementation of national strategies
                                                         • provide a management tool for implementation planning and monitoring
                                                         • include all budget sources while supporting the Ministry of Finance (MoF)
                                                             program budgeting structure and terminology
                                                         • use GIRoA accounting codes (to align with current financial management systems)
                                                         • eventually contribute to the start of national health accounts development
According to the ANDS, implementation of                 Improved conditions in the Afghan population are measured by several indica-
the HNSS would aid the MoPH in address-                  tors, as identified by the ANDS. Table 3.11 lists some of the goals that the ANDS
ing some key health care issues:                         established in this sector, and the status of the metrics as of September 30, 2009.
• inadequate financing for many key                      Maternal and Infant Mortality
  programs
• reliance  on external sources of funding               The ANDS lists maternal and infant mortality as two of the indicators of progress
• inadequately   trained health workers                  in the health sector. However, information on both mortality rates is very limited.
• lack of qualified female health workers                Infant mortality rates are available only as of 2006, and maternal mortality rates
  in rural areas                                         have not been measured since 2002. According to USAID, it is common global
• dispersed population and geographical                  practice to measure maternal mortality every 8 to 10 years; a survey is planned
  barriers                                               for 2013, three years after the ANDS goal deadline. USAID reported that it mea-
• low levels of utilization for certain                  sures progress with proxy indicators including prenatal care, assisted delivery,
  health services
                                                         and conception prevalence rates.345
• variable levels of service quality
• poor security in some provinces                        Challenges
• lack of effective financial protection                 Progress in health care is still being stymied by the security situation, as reported
  mechanisms
Source: GIRoA, “The Afghanistan National Development
                                                         by USAID. Other challenges include a lack of qualified health workers and inad-
Strategy,” www.ands.gov.af/ands/final_ands/src/final/
Afghanistan%20National%20Development%20Strategy_eng.
                                                         equate health care funding. Social determinants have also affected the health of
pdf, pp. 11–12.




                                                           98                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




TABLE 3.11

STRATEGIC PRIORITIES TO ENHANCE HEALTH SERVICES
                                                                                                                        ANDS                 Basic Package of Health Services: a
ANDS Goal                                     Status                                                                    Completion Date      standard level of health care that should
At least 90% of Afghans will have             67% have access to health care within two hours’ walking                  March 2010           be available to all Afghan people
access to the Basic Package of                distance; 85% have access four to six hours away.
Health Services.
Maternal mortality will be reduced.           Survey will be completed in 2013. See text for further                    March 2010         Source: GIRoA, “The Afghanistan National Development
                                              discussion.                                                                                  Strategy,” www.ands.gov.af/ands/final_ands/src/final/
                                                                                                                                           Afghanistan%20National%20Development%20Strategy_eng.
All children under 5 years of age             95% of children have been immunized against polio;                        March 2010         pdf, p. 112.
will be immunized.                            83% against six other major diseases: pertussis,
                                              tuberculosis, measles, tetanus, diphtheria, and
                                              Hemophilus influenza B.
Infant mortality will drop by 20%.            Data not available past 2006. See text for further                        March 2010
                                              discussion.
Millennium Development Goal:                  Data not available past 2006. See text for further                        2020
reduce infant mortality to one-third          discussion.
 of 2003 levels.
Millennium Development Goal:                  The World Bank and the GIRoA are collaborating on                         2020
halt and begin to reverse the                 a $10 million HIV/AIDS Prevention Project (2007–2010).
spread of HIV and AIDS in
Afghanistan.                                  The Global Fund for HIV/AIDS, Tuberculosis and Malaria is
                                              providing an additional $10.08 million for prevention,
                                              treatment, care, and support activities (2008–2012).

Source: GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20
Development%20Strategy_eng.pdf, pp 111–112; USAID, response to SIGAR data call, 10/2/2009.



individual Afghans; issues such as poverty, illiteracy, secure access to food, poor
sanitation, and limited access to water all affect health.346
   To overcome these challenges, USAID has reported that it is working more
closely with community elders to encourage ownership and protection of health
services. USAID has also increased training for health care workers.347

Water and Sanitation
The ANDS strategic vision for the water sector emphasizes the management and
development of water resources through the implementation of an Integrated
Water Resource Management (IWRM) system.348 However, an IWRM system
requires cohesive support from social, political, and economic elements. The
limitations on all three of these elements in Afghanistan have led international
donors and Afghan ministries to focus on specific tasks instead of a national sys-
tem, as reported by USAID.349 Table 3.12 lists ANDS metrics for the water sector.

Transportation
The ANDS metrics for transportation focuses on road reconstruction, airport
development, and railway construction.350 No updates were provided for airports
or railways this quarter. Table 3.13 provides updates on some ANDS metrics.
   The World Bank has classified Afghanistan’s road system as one of the worst
in the world. The Ring Road, a series of roads that connected the country’s major



              REPORT TO THE UNITED STATES CONGRESS                             I   OCTOBER 30, 2009                                   99
                                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                                               TABLE 3.12


                                                               STRATEGIC PRIORITIES FOR WATER AND SANITATION
                                                               ANDS Goal                                                     Status                                           ANDS Completion Date
                                                               The GIRoA will develop and use an Integrated                  Currently, activities are locally focused.       Ongoing
                                                               Water Resource Management (IWRM) System.
                                                               Approximately 50% of Kabul residents and                      Urban population: over 60% have                  March 2010
                                                               30% of other Afghans will have access to                      access to safe water; 12% to
                                                               piped water and improved sanitation.                          adequate sanitation.

                                                                                                                             Rural population: 30% have access to
                                                                                                                             safe water; 10% have access to
                                                                                                                             adequate sanitation.
                                                               At least 30% of the Afghan water supply                       Availability of piped water remains              March 2010
                                                               will come from large waterworks.                              limited.
                                                               Millennium Development Goal: 50% more                         See percentages of access to safe                2020
                                                               Afghans will have access to a sustainable                     water, above.
                                                               water supply.

                                                               Source: GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20
                                                               Development% 20Strategy_eng.pdf, pp. 84–85; USAID, response to SIGAR data call, 10/2/2009. USAID references the ANDS and the Ministry of
                                                               Rural Rehabilitation and Development.



                                                               TABLE 3.13


                                                               STRATEGIC PRIORITIES TO REHABILITATE THE TRANSPORTATION SYSTEM
                                                               ANDS Goal                                                       Status as of September 30, 2009               ANDS Completion Date
                                                               The “Ring Road” project will be fully operational, con-         Approximately half of the roads have          March 2008
                                                               necting roads around Afghanistan and roads to neigh-            been fully repaired.
                                                               boring countries.
                                                               Kabul International Airport and Herat Airport will be fully     No update reported.                           March 2010
                                                               compliant with International Civil Aviation Organization
                                                               standards.
                                                               The GIRoA will launch the Afghanistan Railway Project.          No update reported.                           Ongoing

                                                               Source: GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20
                                                               National%20Development%20Strategy_eng.pdf, pp. 95–96; USAID, response to SIGAR data call, 10/2/2009.




Among landlocked developing countries,                         cities in a large circle around the entire country, was partially destroyed by war,
Afghanistan is one of the farthest from a                      leaving many Afghans with no access to well-maintained roadways.351 When it is
seaport—more than 2,000 km over rough                          fully rebuilt, approximately 60% of Afghans will live within 50 km of the road.352
terrain.                                                          USAID leads the Ring Road project, which aims to reconnect the loop of
Source: World Bank, “Afghanistan Transport Sector,” http://
                                                               roads. The ANDS had set completion of the project for March 2008; however,
web.worldbank.org, accessed 10/9/2009.                         some pieces of the road have yet to be repaired. In the west, the Laman–Bala
                                                               Murghab (143 km) and Armalik-Laman (50 km) projects are at 0% completion. In
                                                               the northeast, the Doshi–Pul-i-Khomri (50 km) project is only 3% complete. By
                                                               comparison, the Herat–Mazar-e Sharif (511 km) project is 90% complete.353 Figure
                                                               3.48 depicts the Ring Road and its state of completion as of September 30, 2009.
                                                                  Increased access to roads has improved conditions in village markets, accord-
                                                               ing to USAID. In the case of the Baharak Bazaar, a remote market in Badakhshan,




                                                                  100                             SPECIAL INSPECTOR GENERAL                    I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.48

AFGHANISTAN RING ROAD STATUS

                                                               Project: Herat to Mazar-e Sharif                     Project: Kabul to Mazar-e Sharif
                                                               Length: 511 km                                       Length: 360 km
                                                               Complete: 90%       UZBEKISTAN                       Complete: 100%
Project: Herat to Mazar-e Sharif                                                                                                                               TAJIKISTAN                       CHINA
Length: 511 km
Complete: 90%                                                                                                                      Project: Doshi to Pul-i-Khomri
                                                                                                                                   Length: 50 km
                                                                                                                                   Complete: 3%
                                                                         JOWZJAN
                       TURKMENISTAN                                                                       KUNDUZ                 BADAKHSHAN
                                                                                        BALKH                        TAKHAR                                  Project: Kabul to Mazar-e Sharif
Project: Armalik to Laman                                                                                                                                    Length: 360 km
Length: 50 km                                                                                                                                                Complete: 100%
                                                                                             SAMANGAN
Complete: 0%                                                                                                    BAGHLAN
                                                           FARYAB
                                                                         SAR-E PUL                                   PANJSHIR NURISTAN                       Project: Kabul to Maldan Shahar
Project: Herat to Armalik                       BADGHIS                                                                                                      Length: 46 km
Length: 53 km                                                                                            PARWAN        KAPISA      KUNAR                     Complete: 100%
Complete: 100%                                      Project: Laman to Bala Murghab      BAMYAN                             LAGHMAN
                                                    Length: 143 km
                                                                                                                    KABUL
                                                    Complete: 0%                                    WARDAK
                HERAT                                                                                                        NANGARHAR                       Project: Kabul-Kandahar Road
                                                       GHOR                                                                                                  Length: 49 km
                                                                                                               LOGAR
                                     Project: Kandahar-Herat Road         DAYKUNDI                                                                           Complete: 100%
                                     Length: 101 km
                                                                                                                  PAKTIYA
                                                                                              GHAZNI
                                     Complete: 100%                                                                        KHOWST
                                                                                                                                                             Project: Kabul-Kandahar Road
                                                                                                                                                             Length: 85 km
                                                                    URUZGAN                                                                                  Complete: 100%
                       FARAH
Project: Kandahar-Herat Road
                                                                                     ZABUL
Length: 125 km                                                                                            PAKTIKA
                                                                                                                                                             Project: Kabul-Kandahar Road
Complete: 100%                                                                                                                                               Length: 85 km
                                                                                                                                                             Complete: 100%
                                                                                                                                       PAKISTAN
   IRAN                     NIMROZ
                                            HELMAND
                                                               KANDAHAR                                                                                      Project: Kabul-Kandahar Road
                                                                                                                                                             Length: 85 km
                                                                                                                                                             Complete: 100%
Project: Kandahar-Herat Road              Project: Kandahar-Herat Road          Project: Kandahar to Grishak       Project: Kabul-Kandahar Road
Length: 125 km                            Length: 116 km                        Length: 114 km                     Length: 85 km
Complete: 100%                            Complete: 100%                        Complete: 100%                     Complete: 100%




            International Donor Section
            USAID Section

Notes: Numbers affected by rounding. Numbers are estimates. Outstanding projects are currently overdue; therefore target
completion dates are unknown at this time.
Source: USAID, response to SIGAR data call, 10/2/2009.




the number of traders selling produce has increased from 3 to 30. Walnut exports
(to Kabul and overseas) increased from 270 tons last year to 2,000 tons this year.354
   USAID reported that paving roads in the region improved travel times and
enabled farmers to get their produce to market without damage. In the past, farm-
ers had to pay all-terrain vehicle drivers to carry their produce to market over the
unpaved roads; now they can make the trip themselves for much less money.355



             REPORT TO THE UNITED STATES CONGRESS                         I   OCTOBER 30, 2009                          101
                                                         ECONOMIC AND SOCIAL DEVELOPMENT




                                                          Communications
                                                          The ANDS metrics for communications focus on providing affordable communi-
                                                          cation services to every district and village.356 Table 3.14 lists some of the goals
                                                          associated with the communications sector.
                                                             Approximately 33% of Afghans (10 million people) subscribe to basic voice
                                                          services; 100,000 of these are land-line subscribers, and the rest are cell (mobile)
                                                          phone users. However, the Ministry of Communications and Information Technol-
                                                          ogy (MCIT) believes that the number of Afghans with access to telecommunications
                                                          services is higher: close to 75% of the population. The MCIT believes that Afghans
                                                          share phone service with family and friends, and have access to public call offices.357
National Identity Management Initiative:                     Access to telecommunications varies by province, according to USAID. Mo-
GIRoA regulations require that telecom-                   bile service companies have built communications infrastructure in places with
munication subscribers provide highly                     larger populations. The major urban areas of Afghanistan have a strong com-
detailed information about themselves in                  munications infrastructure, as does the northern part of the country (between
order to receive service. Because there                   Herat, Mazar-e Sharif, Jalalabad, and Kabul).358
are about 10 million subscribers (as of                      Extending communications services to rural areas is one of the biggest chal-
September 30, 2009), a large amount of
                                                          lenges to communications development, according to USAID. The GIRoA has
information has already been amassed.
                                                          established a Telecom Development Fund to bolster communications infrastruc-
According to USAID, this information
could be very valuable to the National                    ture in rural areas. As of September 30, 2009, the fund has collected approximate-
Identity Management Initiative, which                     ly $25 million for distribution and has provided $2.5 million to 20 districts.359
seeks to compile Afghanistan demograph-                      USAID supports the Afghanistan Economic Governance and Private Sector
ic statistics.                                            Strengthening program, which provided over $1.5 billion for communications de-
Source: USAID, response to SIGAR data call, 10/2/2009.    velopment between 2003 and September 30, 2009. The program also aided in the
                                                          initial establishment of the independent telecommunications sector for Afghani-
                                                          stan in 2003 by issuing licenses to four private telephone companies.360
                                                             USAID also provided $1 million to assist the MCIT in building public Web sites
                                                          for all the Afghan ministries and provincial governments; these sites were written
                                                          in local languages in order to provide Afghans with better information about gov-
                                                          ernment resources.361 Many of the sites have an English language component.362
                                                             USAID also provided funding for the national satellite system, operated by the
                                                          MCIT. The system connects the President of Afghanistan with the 34 governors of
                                                          the provinces. They have a weekly videoconference meeting; according to USAID,
                                                          the weekly meetings have brought “enormous political cohesion” to the GIRoA.363

                                                          TABLE 3.14

                                                          STRATEGIC PRIORITIES TO DEVELOP THE COMMUNICATIONS SECTOR
                                                          ANDS Goal                                            Status                                                  ANDS Completion Date
                                                          Increase access to telecommunications                33% of Afghans subscribe to voice services;             2010
                                                          services to include at least 80% of                  approximately 75% are estimated to have
                                                          Afghans.                                             access to telecommunications.
                                                          Extend satellite services (mobile cellular           3,000 communities have operating mobile                 2010
                                                          devices) to reach at least 3,000 villages.           towers.

                                                          Source: GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20
                                                          Development%20Strategy_eng.pdf, pp. 98–99; USAID, response to SIGAR data call, 10/2/2009.




                                                             102                            SPECIAL INSPECTOR GENERAL                    I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




INDUSTRY
The United States has provided support to Afghan industry through several pro-
grams. For example, the Afghanistan Small and Medium Enterprise Development
project has received approximately $40 million for distribution among smaller
businesses in Afghanistan.364 This section provides an overview of some larger
Afghan industries.

Agriculture
The Ministry of Agriculture, Irrigation, and Livestock (MAIL) has recently imple-
mented a new policy for agriculture called the National Agriculture Development
Framework (NADF). This framework builds on the strategic vision set forth            An Afghan beekeeper tends to one of his
                                                                                     hives in Panjshir. The man’s original two
in the ANDS through the Agricultural and Rural Development Zones (ARDZ)
                                                                                     colonies were given to him during a bee-
program. According to USAID, the NADF is more detailed than the ANDS and             keeping program sponsored by the Panjshir
the ARDZ, and therefore supersedes both. As such, international donors are no        Ministry of Agriculture. (U.S. Air Force
longer contributing to the ARDZ.365                                                  photo, Staff Sgt. Michael B. Keller)
   According to MAIL, the NADF focuses on four key program areas:366
• natural resource management
• agricultural production and productivity
• economic regeneration
• program support and change management

   The proportion of agriculture kept for the family (versus what is sold to the
public) varies greatly by province, district, and product. For example, in Nangar-
har, an estimated 98% of wheat would be kept on the farm, but only about 10 to
20% of vegetables and 5% of onions (because they are considered a cash crop).
By comparison, in Balkh, only approximately 60 to 70% of wheat would be kept
for personal consumption, because farms are larger.367

U.S. Support for Agricultural Development
The United States supports programming to expand agricultural opportunities
in rural areas and develop agribusiness across Afghanistan. USAID has provided
approximately $402.8 million in support of agribusiness.368 Table 3.15 describes
some of the efforts USAID currently supports.

Challenges to Agricultural Development
USAID reported that between 75 and 85% of Afghans (27 to 35 million people) are
involved in the agriculture sector labor force.369 Of that number, approximately
4.8 million are currently unemployed. According to USAID, the implications of
high unemployment in agriculture include these risks:370
• Unemployed and marginalized youth are potential recruits for the insurgency.
• Low incomes perpetuate the intergenerational “cycle of poverty.”
• Unemployment in rural areas leads to a high rate of urbanization.
• Lack of income to enroll children in the formal Afghan education system
    leads to increased enrollment in fundamentalist institutions.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009         103
                                                                ECONOMIC AND SOCIAL DEVELOPMENT




                                                                           The high threat environment in Afghanistan and consequent instability of the
                                                                        security situation raise challenges to the implementation of agricultural pro-
                                                                        gramming, according to USAID. As a result, USAID has focused its development
                                                                        programming in stable areas, increased the use of private security contractors,
                                                                        and reworked programming to reduce the risk.371

                                                                        Private Sector Development
                                                                        Afghanistan ranked 160 of 181 countries in the World Bank’s 2010 Doing
                                                                        Business survey.372 The Overseas Private Investment Corporation (OPIC) report-
                                                                        ed that investment in Afghanistan is expanding, but not as quickly as anticipated;
                                                                        pervasive insecurity, corruption, and delays in passing key business legislation
                                                                        have deterred more rapid growth.373
TABLE 3.15


ONGOING USAID AGRICULTURE PROJECTS
Project                               Description
Village-Based Watershed               This project is designed to launch restoration projects in seven watersheds in Ghor. The project plans to catalyze community restoration of watersheds
Restoration in Ghor Province          through the re-establishment and enhancement of local systems for natural resource management. Women’s groups will promote women’s participation.
Advancing Afghan Agriculture          The alliance works to build an agriculture knowledge system that improves agriculture education, research, and extension. The project is focused on
Alliance                              enhancing the capabilities of the Afghan faculties of agriculture and veterinary science and the MAIL.
Afghanistan Water, Agriculture, The transfer is working to identify feasible, sustainable, natural resource-based technologies that improve water management and increase agricul-
and Technology Transfer         tural production. The program is also planning to identify water and land use policies and institutional frameworks that encourage individuals—in
                                the local, provincial, and national governments—to increase sustainable economic development from the agricultural and natural resource sectors.
                                Finally, the program plans to improve the capabilities of the professional staffs of Afghanistan’s ministries and universities by partnering with them on
                                information-based decision-making and outreach projects to benefit the people and economy of Afghanistan.
Agro-Enterprise Development           The goal of this three-year program is to enable rural and peri-urban households to expand and improve sustainable agriculture-based livelihoods
Alliance Afghanistan                  through market-oriented agricultural development. The program provides extension, materials, and other agriculture services to small-scale farmers,
                                      traders, and processors in Herat, Ghor, and Bamyan. The objectives of the program are to increase on-farm and off-farm incomes of resource-poor
                                      rural households in western and central Afghanistan and to increase local capacity in market-led agriculture.
Incentives Driving Economic           This program represents a $150 million, five-year (March 2009–March 2104) cooperative agreement with DAI and subgrantees ACDI-VOCA and
Alternatives: North, East, and        Mercy Corps to implement alternative development programs focused in the provinces in the north, east, and west formerly targeted by ADP-E and
West                                  ADP-N (Nangarhar, Laghman, Kunar, Nuristan, Badakhshan, Balkh, Takhar, Badghis).
Afghanistan Farm Services             This alliance is working to establish a network of six farm service centers (FSCs) in six targeted provinces—Ghazni, Helmand, Kandahar, Laghman,
Alliance                              Kunar, and Zabul—benefiting over 20,000 Afghan farmers through increased access to agricultural inputs, training, and output markets. The FSCs
                                      will be profit-oriented, privately owned enterprises intended to provide the agricultural inputs, services, and market linkages Afghan farmers need to
                                      transition to successful commercial agriculture.
Accelerating Sustainable              The goal of this program is to create a vibrant and diversified commercial agriculture sector that provides alternatives to poppy production by provid-
Agriculture Program (ASAP)            ing employment opportunities for rural Afghans. ASAP facilitates trade opportunities by providing linkages between buyers and farmers. The project
                                      will actively identify and make investments to overcome factors that constrain the growth of local product sales.
Afghanistan Vouchers for              AVIPA Plus is an expansion of USAID’s successful wheat seed voucher program. The program will provide counter-insurgency stability programming
Increased Production in               in Helmand and Kandahar within an agricultural framework. Adjacent southern provinces will be assisted as required. AVIPA will directly employ over
Agriculture (AVIPA) Plus              500 Afghans and will capitalize on its close working relationship with MAIL’s national, provincial, and district authorities, and continue using private
                                      sector Afghan business distribution networks.
Alternative Development               This program aims to reduce the economic dependence of Farah, Uruzgan, Nimroz, and Helmand on opium production, processing, and trade. USAID
Program – Southwest                   will help communities identify and seize meaningful opportunities to increase incomes and create sustained jobs through the licit economy, while
                                      reinforcing the social and economic infrastructure on which these opportunities depend. The anticipated results include improved infrastructure with
                                      significantly increased local employment opportunities for landless laborers, poor farmers, widows, and others susceptible to opium production,
                                      processing, or trade, as well as opportunities seized by these same groups to start or expand local businesses, work for growing local enterprises, or
                                      raise farm or firm revenue through a range of marketing, processing, and business development improvements.

Sources: USAID, response to SIGAR data call, 10/2/2009; USAID, response to SIGAR vetting, 10/15/2009.




                                                                           104                          SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




   According to Treasury, the biggest challenges to private sector development         Additional private sector development
are weak and discretionary applications of the rule of law, and lackluster govern-     support is provided by the United Nations
ment regulation.374 USAID reported additional challenges: reliable power, obtaining    Development Programme (UNDP) through
tenure of land, access to credit, and corruption.375 OPIC also noted the expense of    its Trade and Private Sector Development
private security contractors, as well as unreliable physical infrastructure (includ-   Program, which works to bolster economic
                                                                                       growth, create employment opportuni-
ing electricity) and services infrastructure (including basic banking services).376
                                                                                       ties, and reduce poverty. The World Bank
   In response to concerns about the weakness of regulation in Afghanistan, the
                                                                                       provides support through its Private
Multilateral Investment Guarantee Agency (MIGA) has established the Afghani-           Sector Development Support Project,
stan Investment Guarantee Facility (AIGF). Through the AIGF, MIGA acts as an           which focuses on enhancing capacity for
insurance organization, reimbursing up to 90% of business losses that may arise        delivering electricity, land services, water,
from transfer restrictions and expropriation, war and civil disruption, and breach     and communication in order to promote a
of contract.377                                                                        better business investment environment.
   USAID reported that its programs also address many of the challenges facing         Source: Treasury, response to SIGAR data call, 9/30/2009.
private investment. USAID’s Office of Economic Growth (OEG) focuses on three
areas of private sector development:378
• Economic Policy and Trade: works to develop commercial law, regulatory
    reform, monetary policy and banking supervision, trade policy and facilita-
    tion, and customs modernization
• Financial Sector Development: supports the development of microfinance
    institutions, commercial banks, credit cooperatives, and non-bank financial
    institutions
• Business Competitiveness: provides firm-level support to small- and
    medium-sized businesses, privatization of state-owned enterprises, improve-
    ment in land tenure, and industrial parks

   OPIC reported that it works closely with American investors and their part-         Because the ANDS identifies counter-
ners to provide financing and insurance products, enabling investments that            narcotics as a cross-cutting issue, this
“otherwise would not be made.”379                                                      report discusses counter-narcotics efforts
   OPIC cited its pending program to assist the Insurance Corporation of Afghan-       in more than one place. Please see the
istan, the only private commercial insurance company in the country, as a sign of      Security section for details on poppy
                                                                                       eradication, narcotics seizure, and related
incremental improvements in the Afghan private sector. The growth of insurance
                                                                                       security issues.
and banking products enhances the services available for businesses, which can
increase employment opportunities and bolster the economy as a whole.380                                           GOV   DEV
                                                                                                            SEC        E     EL
                                                                                                                 URIT RNANC OPMEN
                                                                                                                     Y     E     T
COUNTER-NARCOTICS                                                                      REGIONAL
The ANDS classifies counter-narcotics as a “cross-cutting issue” because if the        COOPERATION
drug problems in Afghanistan are not addressed, “the overall success of the            COUNTER-NARCOTICS
ANDS will be in jeopardy.”381 Cross-cutting issues also affect more than one pillar
of the ANDS. According to the ANDS, counter-narcotics efforts are designed to          ANTICORRUPTION
achieve four objectives:382                                                            GENDER EQUALITY
• disrupt the drug trade
• bolster legal rural livelihood                                                       CAPACITY

• reduce demand for illicit drugs (and provide treatment for drug addicts)             ENVIRONMENTAL
• strengthen counter-narcotics organizations within central and provincial
    governments



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009          105
                                                         ECONOMIC AND SOCIAL DEVELOPMENT




                                                                 Under the Economic and Social Development Pillar, alternative development
                                                              and public information are the two primary counter-narcotics programs.
                                                                 According to USAID and the UN Office on Drugs and Crime (UNODC), Afghan
                                                              drug activity is decreasing. Poppy cultivation is down 22% in 2009, and opium
                                                              production is down 10%. Prices are at a 10-year low.383
                                                                 In addition, UN statistics indicate decreases in the drug work force, revenue,
  Poppy-free Provinces: provinces are                         and exports. The number of poppy-free provinces continues to grow, as does the
  declared “poppy-free” when less than 100                    number of drug seizures; however, the UNODC cautions that drugs remain a seri-
  hectares of provincial land is being used                   ous threat to Afghan development initiatives.384 It estimates that 123,000 hectares
  to produce opium.                                           (ha) of land are still being used to grow poppy.385
                                                                 The drug trade also encourages government corruption, which undermines
                                                              public faith in government services. The money laundering associated with the
Source: UNODC, “Afghanistan Opium Survey: 2008,”
8/2008, p. 4.
                                                              drug trade has affected the strength of Afghan banks.386
                                                                 In addition to these large-scale problems, the drug trade continues to recruit
                                                              addicts, many of whom are classified as “vulnerable,” meaning they are refugees
                                                              or severely impoverished. With drug use come overdoses, HIV, and AIDS.387

                                                              Alternative Development
                                                              According to USAID, there is evidence that alternative development programs
                                                              have played a role in reducing opium production. USAID manages alternative
                                                              development programming for the United States. As of September 30, 2009, two
                                                              such programs are operating; one for all northern, eastern, and western prov-
                                                              inces, and one for the southwest. All alternative development programs aim to in-
                                                              crease the number of legal employment opportunities and to promote the sale of
                                                              legitimate produce in the region. However, USAID reported that adjustments are
                                                              made for the specific economic and geographical conditions of each location.388
                                                              Table 3.16 details ongoing USAID programs for alternative development.

                                                              Public Information
                                                              The United States has supported counter-narcotics public information program-
                                                              ming in Afghanistan since 2006. Figure 3.49 shows the development of these
                                                              programs over time. According to the Bureau of International Narcotics and
                                                              Law Enforcement Affairs (INL), it is difficult to measure the effect that public

TABLE 3.16

ALTERNATIVE DEVELOPMENT ACTIVITIES
Activity                                                 Description
Improving infrastructure programs                        Provide construction and rehabilitation of irrigation and drainage systems and district roads
Cash-for-work programs                                   Work to address high unemployment rates
Farmer training and technology transfer                  Provides farmers with access to improved technologies and farm management practices
Support for high-value crops                             Encourages farmers to grow produce, including vegetables, fruits, nuts, tree crops, and wheat
Distribution of inputs                                   Provides farmers with improved seeds and fertilizer
Fruit and forestry tree distribution                     Provides farmers with access to new fruit and forestry trees, planting, nursery development, and orchard services
Animal health and veterinary services                    Promotes healthy animals through livestock and poultry programs

Source: USAID, response to SIGAR data call, 10/2/2009.




                                                                 106                       SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.49

COUNTER-NARCOTICS PUBLIC INFORMATION ACTIVITIES, 2006–2010

 2006                                    2007                              2008                               2009                             2010
   t  t  t  t  t   t  t  t  t  t   t  t  t  t  t   t  t  t  t  t  t  t  t  t  t  
  2006: Contractor conducts              2007: Colombo Plan awarded        2008: CNAT and Colombo             2009: Work of CNAT and           2010: Colombo Plan, CNAT,
  counter-narcotics public               grant to conduct counter-         Plan conduct comprehensive         Colombo Plan continues.          and others continue public
  information activities                 narcotics messaging training      pre-planting campaigns in          CNATs conduct activities in      information work and aim to
  (distribution of print materials,      for local leaders. PEP teams      provinces to persuade farmers      region and in seven provinces.   expand radio, TV, and new
  radio broadcasts). Poppy               changed to Counter-Narcotics      not to plant poppy. Other public                                    media messaging (mainly
  Elimination Program (PEP)              Advisory Teams (CNATs), given     information efforts: radio, TV,                                     through text messaging).
  teams started to advise                more public information           and mobile theater
  provincial governors.                  mission.                          programming with counter-
                                                                           narcotics messages.
Source: INL, response to SIGAR data call, 10/5/2009.




information programming has on counter-narcotics efforts because it is impos-
sible to know how much poppy was not planted owing to these efforts. However,
UNODC statistics indicate that the reasons that nearly 55% of farmers cited for
not growing poppy included one of the INL-funded public information message
themes:389
• respect for the government ban on poppy cultivation (33% of responders)
• Islamic prohibitions against poppy cultivation (16% of responders)
• shura or elders’ decision-making processes
• the danger of opiates to humans

   Between July 1 and September 30, 2009, public information campaigns were
planned and approved for 25 Afghan provinces. These were “pre-planting” cam-
paigns, designed to reduce public support for poppy cultivation.390
   The Message Multipliers program, another public information initiative, is
ongoing. It provides Afghan community leaders with counter-narcotics messages
and training on how to convey the messages.391

Poppy-Free Provinces
UNODC reports that 20 of Afghanistan’s 34 provinces are now poppy-free. Three
others (Badakhshan, Herat, and Nimroz) are expected to become poppy-free in
the next farming season.392
   Poppy-free and low-poppy-producing provinces still receive counter-narcotics
programming. INL reported that in these provinces, public information campaigns
work to sustain low poppy production and shape public opinion against the nar-
cotics trade. Counter-Narcotics Advisory Teams, supported by INL, work closely
with the Afghan Ministry of Counter-Narcotics to support provincial initiatives.393
   Demand-reduction activities also continue in these provinces. Treatment
clinics for addicts operate in several poppy-free provinces; addiction remains a
national problem.394




             REPORT TO THE UNITED STATES CONGRESS                    I   OCTOBER 30, 2009                      107
                                     QUARTERLY HIGHLIGHT




                                                                                                          GOV   DEV
WOMEN OF AFGHANISTAN                                                                                 SEC      E     EL
                                                                                                        URIT RNANC OPMEN
                                                                                                            Y     E     T

Afghanistan is one of the most dangerous places in                              REGIONAL
                                                                                COOPERATION
the world for women, according to the United Nations
                                                                                COUNTER-NARCOTICS
Development Fund for Women (UNIFEM). Afghan wom-
en have limited access to property, education, and                              ANTICORRUPTION
information, especially in the more rural provinces.395                         GENDER EQUALITY
Some basic statistics:
                                                                                CAPACITY
• Over 87% of married women in the country are
  victims of domestic abuse.396                                                 ENVIRONMENTAL
• Only 18% of women over age 15 are literate (com-
  pared with 50% of adult men).397
• Only 10% of women in rural areas are literate
  (higher than rural men: 7%).398
                                                                 National Action Plan for the Women of Afghanistan
                                                                 Approved by the Council of Ministers in April 2009,
• Approximately 13% of Afghan women are widows;
                                                                 the National Action Plan for the Women of Afghani-
  94% of widows are illiterate.399
                                                                 stan (NAPWA) is a 10-year policy framework for the
                                                                 GIRoA. According to USAID, NAPWA is expected to
EQUALITY UNDER THE LAW
                                                                 support continuity and consistency in GIRoA action to
The Constitution of Afghanistan prohibits discrimina-
                                                                 protect women’s citizenship rights.404
tion and privilege for any group of Afghan citizens.
                                                                    NAPWA is being implemented by all ministries
Article 22 of the Constitution states that men and
                                                                 through the Afghan Ministry of Women’s Affairs
women “have equal rights and duties before the law.”
                                                                 (MoWA), the lead institution for women’s advocacy in
However, the rights afforded to women in theory do
                                                                 Afghanistan.405 Partnering with government ministries
not always translate into practice.400
                                                                 and international organizations, the MoWA advocates
                                                                 that government policies, budgets, and services in-
Shia Personal Status Law
                                                                 clude consideration of their effects on both men and
The Shia Personal Status Law (2009) is an example
                                                                 women. The MoWA has been implementing NAPWA by
of the life lived by Shia women in Afghanistan. Shia
                                                                 signing agreements with ministries and international
people make up approximately 15% of the Afghan
                                                                 organizations to support gender equality programs.406
population.401 According to USAID, the law requires
                                                                 Table 3.17 lists some of the agreements signed with
that women gain permission from their husbands to
                                                                 the MoWA in 2009.
work and enables rapists to avoid prosecution if they
pay “blood money” to women who are injured in the                TABLE 3.17
act of rape.402
    The Shia Personal Status Law also regulates                   NAPWA AGREEMENTS, 2009
marriage, divorce, remarriage (in the event of spousal           MoWA Partner                 Goal
death), inheritance, rights of movement, sexual rela-            Afghanistan Civil            Promote women’s participation in government
tions within marriage, and bankruptcy. According to              Service Commission           and political positions
                                                                 Ministry of Haj and          Raise gender equality awareness nationwide
USAID, some human rights groups believe that the law
                                                                 Religious Affairs            and conduct public information campaigns
directly contradicts elements of the Constitution, spe-
                                                                 UNIFEM and the               Strengthen civil society institutions in
cifically Article 22. The first draft of the law was signed      Afghan Women’s               implementing NAPWA
by the President of Afghanistan in March 2009; USAID             Network
reported that although the current draft has been re-            Afghan Ministry of           Increase enrollment rate of girls and adult
vised, the restrictions on women remain intact.403               Education                    women in schools and universities

                                                                 Source: USAID, response to SIGAR data call, 10/2/2009.




                                       108                SPECIAL INSPECTOR GENERAL          I   AFGHANISTAN RECONSTRUCTION
                         QUARTERLY HIGHLIGHT




At a Kabul home, a woman makes rugs and embroiders table cloths to sell at the market. (SIGAR photo)


FREEDOMS BY GEOGRAPHY                                               on women’s personal lives are also more common in
Opportunities for women vary greatly depending on                   remote regions.409
where they live. According to the MoWA, the more                       Table 3.18 provides examples of U.S. efforts to
secure the province, the more women are found in                    promote women’s equality.
the public sphere. In safer provinces, USAID reported
that more girls attend school and more women have                   TABLE 3.18
access to health care.407 Major cities tend to be more
secure; women living in urban areas (including Kabul,                 USAID SUPPORT FOR WOMEN OF AFGHANISTAN
Herat, and Mazar-e Sharif) have greater opportunities               Activity or Program                          Potential Impact
to participate in public life. Basic freedoms and rights            USAID has supported Afghan wom-              This funding has the potential to
have improved in these areas in the past few years,                 en and girls with at least $445 mil-         make a national impact on the
                                                                    lion in U.S. funding, as of July 2009.       lives of Afghan women and girls.
according to USAID.408
                                                                     “Learning for Life” classes provide         More than 8,000 women have
   Women in more remote provinces (such as                          women with information about                 participated in “Learning for Life”
Helmand, Paktika, Zabul, Uruzgan, and Khowst) are                   literacy, numeracy, and good health          classes.
                                                                    and hygiene practices.
less likely to have access to the same rights and
                                                                    USAID provides training for female           Since 2002, over 500 female
freedoms seen in urban areas. As reported by USAID,                 journalists, supporting the indepen-         journalists have received training
the lives of rural women tend to be governed by                     dent media network in Afghanistan.           from USAID.
traditional roles and responsibilities, rather than the             According to USAID, the Afghan               Over 1,000 Afghan women are
dictates of the Constitution. For example, although                 Midwives Association “works with             members of the Afghan Midwives
                                                                    the GIRoA to promote the skills of           Association.
women in rural areas may help with agricultural labor               midwives and to ensure that mid-
or work in the home, the traditional perception that                wives are part of the policy develop-
the man supports his family means that women’s                      ment process.”
labors must be defined as “household duties,” which                 Source: USAID, “Afghanistan: Cross-Cutting,” http://afghanistan.usaid.gov/en/
                                                                    Program.33.aspx, accessed 10/23/2009; SIGAR Audits Directorate, response to
do not need to be compensated. Women in rural                       questions, 10/23/2009: Data sourced to USAID; USAID, “Minister Fatimi Opens Afghan
                                                                    Midwives Association Annual Congress,” 5/4/2008.
areas are also more likely to be at risk for a forced
marriage or an early marriage. Greater restrictions



        REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2009                    109
Educating the Next Generation
Two Afghan boys show off their new school supplies
at the Nawa schoolhouse in Helmand. U.S. Marines
distribute the school supplies as a part of the counterin-
surgency operations in partnership with Afghan security
forces in southern Afghanistan. (U.S. Marine Corps
photo, LCpl Jeremy Harris)
4           OTHER AGENCY
            OVERSIGHT

Introduction: The Year of Transfer
    Rise in Income
    Expanding Iraqi Security Authority
    Afghanistan Reconstruction Update
    Afghanistan Audits
    Afghanistan Inspections
    Reconstruction Teams
    The Role of the International Community


Anticorruption Efforts


Security
    Security Conditions Still Hinder
    Reconstruction Activities
    Concerned Local Citizen Initiative


Legislative Developments


The Human Toll




                         111
OTHER AGENCY OVERSIGHT




112    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                           OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
Each quarter, the Special Inspector General for Afghanistan Reconstruction
(SIGAR) requests updates from other government agencies on the number of
oversight activities completed and the number of ongoing oversight activities
currently being performed. The following agencies are currently performing
oversight activities in Afghanistan and providing results to SIGAR:
• Department of Defense Office of Inspector General (DoD OIG)
• Department of State Office of Inspector General (DoS OIG)
• Government Accountability Office (GAO)
• U.S. Agency for International Development Office of Inspector General
   (USAID OIG)
• U.S. Army Audit Agency (USAAA)


COMPLETED OVERSIGHT ACTIVITIES
Table 4.1 lists the eight reconstruction or security-related oversight projects that
were completed this quarter.

TABLE 4.1


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES
Agency               Project Number         Date Issued        Project Title
DoD OIG              D-2009-113             9/30/2009          Medical Equipment Used to Support Operations in Southwest Asia
DoD OIG              D-2009-100             9/30/2009          Afghanistan Security Forces Fund Phase III-Accountability for Equipment Purchased for the Afghanistan National
                                                               Police
DoD OIG              D-2009-109             9/25/2009          Contracts Supporting DoD Counter-Narcoterrorism Technology Program Office
DoD OIG              D-2009-099             8/12/2009          Afghanistan Security Forces Fund Phase III-Accountability for the Equipment Purchased for the Afghanistan
                                                               National Army
DoS OIG-MERO         09-MERO-3006           8/31/2009          Diplomatic Security (DS) Management of WPPS - Afghanistan
DoS OIG-MERO         09-MERO-3005           8/31/2009          Personal Security Detail (WPPS) Contracts - Afghanistan
GAO                  GAO-09-1015T           9/9/2009           Afghanistan and Pakistan: Oversight of U.S. Interagency Efforts
GAO                  GAO-10-01              10/1/2009          Contingency Contracting: DoD, State, and USAID Continue to Face Challenges in Tracking Contractor Personnel and
                                                               Contracts in Iraq and Afghanistan

Note: MERO = Middle East Regional Office.
Source: DoD OIG, response to SIGAR data call, 9/3/2009; DoS OIG-MERO, response to SIGAR data call, 9/3/2009; GAO, response to SIGAR data call, 9/3/2009; USAAA,
response to SIGAR data call, 9/3/2009; USAID OIG, response to SIGAR data call, 9/3/2009.




            REPORT TO THE UNITED STATES CONGRESS           I    OCTOBER 30, 2009                          113
                                                          OTHER AGENCY OVERSIGHT




                                                          ONGOING OVERSIGHT
                                                          As of September 30, agencies had 28 oversight activities in progress. These activi-
                                                          ties are listed by agency, and the descriptions appear as they were submitted to
                                                          SIGAR, with these mechanical changes for consistency with the preceding sec-
                                                          tions of this report: acronyms and abbreviations in place of repeated full names;
TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES
Agency              Project Number                Date Initiated       Project Title
DoD OIG             D2009-D000LC-0237.000         6/11/2009            Air Cargo Transportation Contracts in Support of Operation Iraqi Freedom and Operation
                                                                       Enduring Freedom
DoD OIG             D2009-D000JB-0230.000         6/5/2009             Inter-agency Audit on DoD Obligations and Expenditures of Funds Provided to DoS for the Training and
                                                                       Mentoring of the Afghan National Police
DoD OIG             D2009-D000AE-0102.000         12/9/2008            DoD Countermine and Improvised Explosive Device Defeat Systems Contracts
DoD OIG             D2007-D000FD-0198.001         10/10/2008           Reannouncement of the Audit of Funds Appropriated for Afghanistan and Iraq Processed
                                                                       Through the Foreign Military Sales Trust Fund
DoS OIG-MERO        09-MERO-3004                  April 2009           Effectiveness of Counter-Narcotics Programs in Afghanistan
DoS OIG-MERO        09-MERO-3009                  June 2009            Afghanistan National Police Training and Mentoring Program (Joint with DoD OIG)
GAO                 351399                        9/17/2009            DoD’s Oversight of Operational Contract Support in Afghanistan
GAO                 320712                        9/2/2009             U.S. Efforts to Develop Capable Afghan National Army (ANA) Forces
GAO                 351395                        8/21/2009            Supply and Equipment Support for U.S. Military Operations In Afghanistan
GAO                 351393                        8/21/2009            DoD Health Care Requirements for Contingency Operations
GAO                 320709                        8/17/2009            Afghanistan’s Security Environment
GAO                 351385                        8/11/2009            Combat Skills Training for Support Units
GAO                 351376                        7/30/2009            Readiness of Air Force Combat and Expeditionary Combat Support Forces
GAO                 351387                        7/30/2009            Army and Marine Corps Training Capacity 
GAO                 351388                        7/26/2009            Availability of Trained and Ready Forces to Support Military Operations in Iraq and Afghanistan
GAO                 320680                        5/8/2009             Potable Water, Sanitation, and Crop Irrigation Projects in Afghanistan
GAO                 320662                        3/16/2009            USAID’s Alternative Development and Agriculture Projects in Afghanistan
GAO                 320657                        1/29/2009            U.S. Counter-narcotics Activities in Afghanistan
GAO                 120790                        11/25/2008           Afghanistan and Iraq Contracting
USAAA               A-2008-ALL-0531.000           7/26/2009            Commander’s Emergency Response Program (CERP) - Afghanistan
USAAA               A-2009-ALL-0106.000           2/2/2009             Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—Kabul and Jalalabad (Afghanistan)
USAAA               A-2008-ALL-0401.000           9/1/2008             Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—Kandahar and Salerno
                                                                       (Afghanistan)
USAAA               A-2008-ALL-0320.000           1/28/2008            Contracting Operations at the Joint Contracting Command—Iraq/Afghanistan (Bagram)
USAID OIG           Not provided                  Not provided         Audit of USAID/Afghanistan’s Oversight of Private Security Contractors in Afghanistan
USAID OIG           Not provided                  Not provided         Audit of USAID/Afghanistan’s School and Health Clinic Buildings Completed Under the Schools and Clinics
                                                                       Construction and Refurbishment (SACCARP) Program
USAID OIG           Not provided                  Not provided         Audit of USAID/Afghanistan’s Afghan Civilian Assistance Program
USAID OIG           Not provided                  Not provided         Audit of Selected Power Sector Activities Funded Under USAID/Afghanistan’s Infrastructure
                                                                       and Rehabilitation Program
USAID OIG           Not provided                  Not provided         Audit of USAID/Afghanistan’s Building Education Support Systems for Teachers Project


Source: DoD OIG, response to SIGAR data call, 9/3/2009; DoS OIG-MERO, response to SIGAR data call, 9/3/2009; GAO, response to SIGAR data call, 9/3/2009; USAAA, response
to SIGAR data call, 9/3/2009; USAID OIG, response to SIGAR data call, 9/3/2009.




                                                               114                     SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                     OTHER AGENCY OVERSIGHT




standardized capitalization, hyphenation, and preferred spellings; and third-
person instead of first-person construction.
   Table 4.2 lists the ongoing reconstruction or security-related oversight activi-
ties being performed by other government agencies as of September 30, 2009.

Department of Defense Office of Inspector General
In May 2009, the DoD OIG, on behalf of the member DoD and Federal oversight
agencies, issued an update to the statutorily required Comprehensive Oversight
Plan for Southwest Asia, including the additional FY 2009 statutorily required
oversight.
   The Comprehensive Oversight Plan for Southwest Asia includes the indi-
vidual oversight plans of the Inspectors Generals for the DoD, DoS, and USAID;
the Special Inspector General for Iraq Reconstruction; and the SIGAR. It also
includes the oversight work of the Army Audit Agency, Naval Audit Service, Air
Force Audit Agency, and Defense Contract Audit Agency because of the major
contributions they make to improve the efficiency and effectiveness of support
to the military. The comprehensive plan was expanded beyond the statutorily
mandates to include other functional areas that DoD OIG believes are germane
to supporting operations in Southwest Asia, including Operation Enduring Free-
dom (OEF), such as contract administration and management, reset of equip-
ment, financial management, and reconstruction support effort. In addition, the
update issued in May 2009 includes the Commander, U.S. Central Command’s
request for DoD OIG and the Service Audit Agencies to review asset accountabil-
ity within Southwest Asia. DoD OIG is in the process of updating the Comprehen-
sive Oversight Plan for Southwest Asia.
   The DoD OIG–led Southwest Asia Joint Planning Group coordinates and de-
conflicts Federal and DoD OCO–related oversight activities. The Group held its
tenth meeting in August 2009. Several representatives from the Commission on
Wartime Contracting in Iraq and Afghanistan attended and discussed the over-
sight efforts and some of the issues and concerns that they identified through
their initial work. The representatives from the DoD Inspector General, the
SIGAR, and Army Audit Agency agreed to coordinate their oversight efforts
related to the Commander’s Emergency Response Program (CERP) in Afghani-
stan to better maximize use of oversight resources and to lessen the burden for
support from the coalition forces in Iraq and Afghanistan.
   The DoD OIG expanded its Southwest Asia presence, deploying additional au-
ditors and investigators to Iraq and Afghanistan. The additional staff support the
increased oversight workload required by statutory requirements, Congressional
requests, senior DoD and military officials requests, and as DoD OIG determines
based on high-risks and challenges in the operations. DoD OIG field offices in
Qatar, Iraq, Kuwait, and Afghanistan enhance the office’s ability to provide audit,
inspection, and investigative support to DoD operations in support to OCO.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009           115
OTHER AGENCY OVERSIGHT




   For the quarter ending September 30, 2009, the DoD OIG had 49 ongoing over-
sight activities, and issued 13 reports that support Operation Enduring Freedom.
Of those 49 ongoing projects, four directly relate to reconstruction or security
operations in Afghanistan and are incorporated in this quarterly report. Of the
13 issued reports, four directly relate to reconstruction or security operations in
Afghanistan and are incorporated in this quarterly report.
   Overall, during FY 2009, the DoD OIG completed and ongoing OEF-related
oversight activities addressed the following areas:
• the use and accountability of Afghanistan Security Forces Funds (ASFF)
• adequacy of building materials
• accountability of property
• contract administration
• contractor common access cards
• armoring capabilities
• management of fuels
• procurement and use of non-tactical vehicles
• disposal of IT equipment
• and transportation of goods and material

   In response to a request from the Commission on Wartime Contracting in
Iraq and Afghanistan, DoD OIG initiated an audit addressing the construction of
the New Kabul Compound Facilities for U.S. Forces - Afghanistan (USFOR-A).
Additionally, in response to a congressional request, DoD OIG has initiated a
joint audit with the DoS OIG, to review the status of ASFF money that DoD has
provided to DoS for the training of the Afghan National Police (ANP).

OVERSIGHT ACTIVITIES
Air Cargo Transportation Contracts in Support of Operation Iraqi Freedom and Operation
Enduring Freedom
(PROJECT NO. D2009-D000LC-0237.000, INITIATED JUNE 11, 2009)
The DoD OIG is determining whether air cargo transportation contracts in sup-
port of Operation Iraqi Freedom (OIF) and OEF are administered in accordance
with applicable Federal and DoD regulations. Specifically, the DoD OIG will
determine whether the decision to use air transportation was justified, whether
delivery orders were awarded in accordance with vendor selection criteria, and
whether the cargo transported by air was delivered within required time frames.

Inter-agency Audit on DoD Obligations and Expenditures of Funds Provided to DoS for the
Training and Mentoring of the Afghan National Police
(PROJECT NO. D2009-D000JB-0230.000, INITIATED JUNE 5, 2009)
The Inspectors General of DoD and DoS are performing this joint audit in re-
sponse to a congressional request. The objective is to review the status of ASFF




  116                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                     OTHER AGENCY OVERSIGHT




money that DoD has provided to DoS for the training of the ANP. Specifically,
the DoD OIG will review the contract, appropriate task orders, statements of
work, and any contract or task order modifications for training and mentoring
to ensure they comply with all relevant Federal regulations and meet the needs
of DoD. Further, the DoD OIG will review contractor invoices to ensure that
claimed costs are allowable, allocable, and reasonable for the services received.
The DoS OIG will be assisting DoD OIG on this audit and will be assessing the
staffing, training, contract management, and contract effectiveness of the civilian
police trainers.

DoD Countermine and Improvised Explosive Device Defeat Systems Contracts
(PROJECT NO. D2009-D000AE-0102.000, INITIATED DECEMBER 9, 2008)
The DoD OIG is determining whether DoD procurement efforts for countermine
and improvised explosive device defeat systems for use in Iraq and Afghanistan
were developed, awarded, and managed in accordance with Federal and Defense
acquisition regulations.

Reannouncement of the Audit of Funds Appropriated for Afghanistan and Iraq Processed
Through the Foreign Military Sales Trust Fund
(PROJECT NO D2007-D000FD-0198.001, INITIATED OCTOBER 10, 2008)
Based on observations during audit fieldwork under the originally announced
project (D2007-D000FD-0198.000), the DoD OIG determined an additional project
was required to separately discuss relevant issues identified during fieldwork.
Accordingly, the DoD OIG addressed the transfer of funds to the FMS Trust Fund
and the collection of administrative fees from these funds in Report No. D-2009-
063. Under the second announced project (D2007-D000FD-0198.001), the DoD
OIG is determining whether the funds appropriated for the security, reconstruc-
tion, and assistance of Afghanistan and Iraq and processed through the Foreign
Military Sales Trust Fund are being properly managed. However, the DoD OIG
has reduced the sub-objectives to determining whether the appropriated funds
transferred into the Foreign Military Sales Trust Fund are properly accounted for,
used for the intended purpose, and properly reported in DoD financial reports.




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009           117
OTHER AGENCY OVERSIGHT




Department of State Office of Inspector General–
Middle East Regional Office

OVERSIGHT ACTIVITIES
Effectiveness of Counter-Narcotics Programs in Afghanistan
(PROJECT NO. 09-MERO-3004, INITIATED APRIL 2009)
Objective: To assess U.S. efforts to plan and manage counter-narcotics activities
in Afghanistan, including an analysis of (1) U.S. obligations and expenditures,
(2) results of assistance projects, (3) assistance coordination mechanisms and
strategy, and (4) major obstacles that affect the achievement of U.S. goals.

Afghanistan National Police Training and Mentoring Program (Joint w/DODIG)
(PROJECT NO. 09-MERO-3009, INITIATED JUNE 2009)
Objective: To provide an overall review and summary of the requirements, provi-
sions, and costs of the ANP Training and Mentoring Program contract; objectives
of the contracts and task orders; what indicators have been established to mea-
sure performance; and how DoS administered the contract to oversee DynCorp’s
performance and costs of the contract. The work will also assess the status of
contract records, management controls, costs, and value of this contract to the
mission of DoS and DoD.

Government Accountability Office
During the last quarter, GAO testified at a hearing concerning oversight of U.S.
interagency efforts in Afghanistan and Pakistan. The testimony included a
discussion of key issues GAO identified in its April 2009 transition report to the
Congress and the President (GAO-09-473SP), as well as details about past GAO
work, findings, and recommendations; how GAO coordinates its efforts with
other members of the accountability community; and the steps GAO takes to
mitigate the challenges it faces in carrying out its oversight work in Afghanistan
and Pakistan.
   In addition, GAO began 10 new Afghanistan-related engagements on a wide
variety of topics:
• Afghanistan’s changing security environment
• Developing a capable Afghan National Army (ANA)
• Availability of trained and ready forces to support military operations in Iraq
    and Afghanistan
• Readiness of Air Force combat and expeditionary combat support capabilities
• DoD efforts to adjust training capacity to support ongoing operations
• Combat skills training for military support units
• Supply and equipment support for U.S. military operations in Afghanistan
• DoD health care requirements for contingency operations
• DoD’s oversight of operational contract support in Afghanistan
• U.S. military burns of solid waste in open pits at some locations in Iraq and
    Afghanistan




  118                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




OVERSIGHT ACTIVITIES
DOD’s Oversight of Operational Contract Support in Afghanistan
(PROJECT NO. 351399, INITIATED SEPTEMBER 17, 2009)
This review will focus on DoD’s ability to provide sufficient numbers of trained
oversight personnel, the challenges facing DoD in providing oversight, and the
department’s implementation of lessons learned from Iraq.

U.S. Efforts to Develop Capable Afghan National Army (ANA) Forces
(PROJECT NO. 320712, INITIATED SEPTEMBER 2, 2009)
This review will focus on what the U.S. goals for the ANA are; how much the U.S.
has obligated and expended, as well as estimated costs to complete and sustain,
the ANA; what progress the U.S. has made in developing ANA forces; and how
other donors have assisted the ANA.

Supply and Equipment Support for U.S. Military Operations in Afghanistan
(PROJECT NO. 351395, INITIATED AUGUST 21, 2009)
This review will focus on identifying DoD organizations and processes for mov-
ing supplies and equipment to/within/from Afghanistan, challenges that may have
affected distribution, and lessons learned from other operations.

DoD Health Care Requirements for Contingency Operations
(PROJECT NO. 351393, INITIATED AUGUST 21, 2009)
This review will focus on the extent to which DoD and the services identified
wartime health care personnel requirements for current operations; what chal-
lenges they are encountering meeting those requirements; and to what extent
they have the tools needed to meet those requirements.

Afghanistan’s Security Environment
(PROJECT NO. 320709, INITIATED AUGUST 17, 2009)
This review will focus on changes in U.S. troop presence, the security situation
as gauged by trends in enemy-initiated attacks, and challenges for U.S. recon-
struction efforts posed by security conditions.

Combat Skills Training for Support Units
(PROJECT NO. 351385, INITIATED AUGUST 11, 2009)
This review will focus on how the services determine appropriate training for
support forces, including the extent that this training is consistent with service
and theater training requirements and reflects lessons learned from ongoing
operations.




         REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2009         119
OTHER AGENCY OVERSIGHT




Readiness of Air Force Combat and Expeditionary Combat Support Forces
(PROJECT NO. 351376, INITIATED JULY 30, 2009)
This review will focus on the Air Force’s ability to provide combat and expedi-
tionary combat support forces to support ongoing operations, including in Af-
ghanistan, and its plans to address gaps, including adjustments to force structure
and manning authorizations.

Army and Marine Corps Training Capacity
(PROJECT NO. 351387, INITIATED JULY 30, 2009)
This review will focus on the extent to which DoD, the Army, and the Marine
Corps have identified differences in ground force training requirements for Iraq
and Afghanistan, and developed plans to adjust training capacities to meet re-
quirements for changing force levels in Afghanistan in Iraq. 

Availability of Trained and Ready Forces to Support Military Operations in
Iraq and Afghanistan
(PROJECT NO. 351388, INITIATED JULY 26, 2009)
This review will focus on the extent to which DoD has identified requirements for
supporting ongoing operations, developed an approach to manage deployment of
forces to meet requirements, and DoD’s ability to meet other commitments.

Potable Water, Sanitation, and Crop Irrigation Projects in Afghanistan
(PROJECT NO. 320680, INITIATED MAY 8, 2009)
This review will focus on U.S. efforts to assist with the development of the
Afghan water sector and achieve the Afghanistan National Development Strat-
egy (ANDS) goal of supplying clean water, sanitation, and irrigation services in
Afghanistan.

USAID’s Alternative Development and Agriculture Projects in Afghanistan
(PROJECT NO. 320662, INITIATED MARCH 16, 2009)
This review will focus on USAID agriculture programs’ funding, goals, results,
monitoring, and evaluation efforts.

U.S. Counter-narcotics Activities in Afghanistan
(PROJECT NO. 320657, INITIATED JANUARY 29, 2009)
This review will focus on U.S. efforts to assist with interdiction, elimination, judi-
cial reform, public information, and demand reduction counternarcotics efforts.




  120                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




U.S. Army Audit Agency
OVERSIGHT ACTIVITIES
Commander’s Emergency Response Program (CERP) - Afghanistan
(Project Code A-2009-ALL-0531.000, INITIATED JULY 26, 2009)
This audit will determine if the CERP in Afghanistan had adequate internal
controls in place to ensure commanders and unit personnel implemented the
program properly.

Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—
Kabul and Jalalabad (Afghanistan)
(Project Code A-2009-ALL-0106.000, INITIATED FEBRUARY 2, 2009)
This audit is being performed in Afghanistan. It will determine if goods and ser-
vices acquired under contract were properly justified, awarded, and administered.

Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—Kandahar
and Salerno (Afghanistan)
(Project Code A-2008-ALL-0401.000, INITIATED SEPTEMBER 1, 2008)
This audit is being performed in Afghanistan. It will determine if goods and ser-
vices acquired under contract were properly justified, awarded, and administered.

Contracting Operations at the Joint Contracting Command—Iraq/Afghanistan (Bagram)
(Project Code A-2008-ALL-0320.00, INITIATED JANUARY 28, 2008)
This audit is being performed in Afghanistan. It will determine if goods and ser-
vices acquired under contract were properly justified, awarded, and administered.

U.S. Agency for International Development
Office of Inspector General

OVERSIGHT ACTIVITIES
Audit of USAID/Afghanistan’s Oversight of Private Security Contractors in Afghanistan
Objective: Determine how much money has been spent by USAID/Afghanistan’s
implementing partners for private security services, and has there been effective
oversight of these security costs. Determine if USAID/Afghanistan’s oversight of
private security firms contracted by the mission’s implementing partners ensured
that those private security contractors employed only responsible, armed person-
nel. Determine what types of serious security incidents have been reported by pri-
vate security firms, contracted with USAID/Afghanistan’s implementing partners,
during the period from October 1, 2006, through June 30, 2009.




         REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2009             121
OTHER AGENCY OVERSIGHT




Audit of USAID/Afghanistan’s School and Health Clinic Buildings Completed Under the
Schools and Clinics Construction and Refurbishment (SACCARP) Program
Objective: Determine whether the school and health clinic buildings completed
under the program are being used for their intended purposes, and measure the
impact of the program on the provision of educational and health services to the
people of Afghanistan.

Audit of USAID/Afghanistan’s Afghan Civilian Assistance Program
Objective: Determine if USAID/Afghanistan’s humanitarian assistance service, pro-
vided through the Afghan Civilian Assistance Program, is achieving its main goal.

Audit of Selected Power Sector Activities Funded Under USAID/Afghanistan’s Infrastructure
and Rehabilitation Program
Objective: Determine if USAID/Afghanistan’s main goal for power sector activi-
ties, provided under the Afghanistan Infrastructure and Rehabilitation Program,
is being achieved.

Audit of USAID/Afghanistan’s Building Education Support Systems for Teachers Project
Objective: Determine if USAID/Afghanistan’s Building Education Support Sys-
tems for Teachers project is achieving its main goals.


OTHER AGENCY INVESTIGATIONS
SIGAR regularly coordinates with other government agencies conducting investi-
gations in Afghanistan, in an effort to monitor the progress of those investigations.
As of September 30, 2009, five open cases were being investigated by the Depart-
ment of State Office of Inspector General Investigations (DoS-OIG-INV). Table 4.3
lists the number of open and closed investigations as of September 30, 2009.


TABLE 4.3


INVESTIGATIVE ACTIVITIES: OTHER AGENCY INVESTIGATIONS
Agency                                  Open Cases                Closed Cases        Total Cases
DoS-OIG-INV                                           5                     0                  5
Total                                                 5                     0                  5

Source: DoS-OIG-INV, response to SIGAR data call, 9/3/09.




   122                         SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                OTHER AGENCY OVERSIGHT




OTHER AGENCY INSPECTIONS
COMPLETED INSPECTIONS
Table 4.4 lists inspections completed as of September 30, 2009. One inspection
was completed by the Department of State Office of Inspector General Inspec-
tions (DoS OIG-ISP) during the last quarter.

ONGOING INSPECTIONS
SIGAR also coordinates with other agencies that are conducting inspections in
Afghanistan. During the past quarter, DoS OIG-ISP initiated one new inspection,
listed in Table 4.5.


TABLE 4.4


COMPLETED INSPECTION ACTIVITIES: OTHER AGENCY INSPECTIONS
                  Project              Date             Project
Agency            Number               Initiated        Title         Objective
DoS OIG-ISP       09-ISP-3059          April 2009       Review        To review and determine whether policy and program
                                                        of Radio      goals of Radio Deewa are being effectively achieved
                                                        Deewa         and to provide analysis and recommendations for
                                                                      systemic improvements in policy implementation
                                                                      and program management.

Source: DoS-OIG-ISP, response to SIGAR data call, 9/3/2009.




TABLE 4.5


ONGOING INSPECTION ACTIVITIES: OTHER AGENCY INSPECTIONS
                  Project              Date             Project
Agency            Number               Initiated        Title         Objective
DoS OIG-ISP       09-ISP-3051          April 2009       De-mining     To evaluate the implementation and effectiveness of
                                                        Programs in   de-mining programs in Afghanistan.
                                                        Afghanistan

Source: DoS-OIG-ISP, response to SIGAR data call, 9/3/2009.




             REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2009                      123
The Official Seal of the SIGAR
The Official Seal of the SIGAR represents the coordination of efforts
between the United States and Afghanistan to provide accountability
and oversight in reconstruction activities. The phrase along the top
side of the seal’s center is in Dari and, translated into English, means
“SIGAR.” The phrase along the bottom side of the seal’s center is in
Pashtu and as translated into English, has the same meaning.
                                                      APPENDICES
                                                      AND ENDNOTES

                                 Introduction: The Year of Transfer
                                            Rise in Income
                                            Expanding Iraqi Security Authority
                                            Afghanistan Reconstruction Update
                                            Afghanistan Audits
                                            Afghanistan Inspections
                                            Reconstruction Teams
                                            The Role of the International Community


                                 Anticorruption Efforts


                                 Security
                                            Security Conditions Still Hinder
                                            Reconstruction Activities
                                            Concerned Local Citizen Initiative


                                 Legislative Developments


                                 The Human Toll




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009      125
APPENDICES




APPENDIX A
CROSS-REFERENCE OF REPORT
TO STATUTORY REQUIREMENTS
This appendix cross-references the pages of this report to the quarterly reporting
and related requirements under SIGAR’s enabling legislation, the National De-
fense Authorization Act for Fiscal Year 2008, P.L. No. 110-181, § 1229 (Table A.1),
and to the reporting requirements prescribed for semiannual reporting by inspec-
tors general, generally under the Inspector General Act of 1978, as amended (5
U.S.C. App. 3) (Table A.2).


TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS
UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                          SIGAR Action            Section
Supervision
Section 1229(e)(1)      The Inspector General shall report directly      Report to the           All sections
                        to, and be under the general supervision of,     Secretary of State
                        the Secretary of State and the Secretary of      and the Secretary of
                        Defense                                          Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN                         Review appropriated/ All sections
                        RECONSTRUCTION.—                                 available funds
                        It shall be the duty of the Inspector General
                        to conduct, supervise, and coordinate            Review programs,
                        audits and investigations of the treatment,      operations, contracts
                        handling, and expenditure of amounts             using appropriated/
                        appropriated or otherwise made available for     available funds
                        the reconstruction of Afghanistan, and of the
                        programs, operations, and contracts carried
                        out utilizing such funds, including—
Section 1229(f)(1)(A)   The oversight and accounting of the obligation   Review obligations      Section 2.0 –
                        and expenditure of such funds                    and expenditures        SIGAR Oversight
                                                                         of appropriated/
                                                                         available funds         Section 3.1 –
                                                                                                 Funding
Section 1229(f)(1)(B)   The monitoring and review of reconstruction      Review reconstruction Section 2.0 -
                        activities funded by such funds                  activities funded by  SIGAR Oversight
                                                                         appropriations and
                                                                         donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded    Review contracts        Note 1
                        by such funds                                    using appropriated
                                                                         and available funds




  126                    SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                              APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS
UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                             SIGAR Action           Section
Section 1229(f)(1)(D)   The monitoring and review of the transfer           Review internal and    Appendix B
                        of such funds and associated information            external transfers
                        between and among departments, agencies,            of appropriated/
                        and entities of the United States, and private      available funds
                        and nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of            Maintain audit records Section 2.0 -
                        such funds to facilitate future audits and                                 SIGAR Oversight
                        investigations of the use of such fund[s]                                  Appendix C
                                                                                                   Appendix D
Section 1229(f)(1)(F)   The monitoring and review of the effectiveness      Monitoring and review Section 2.1 -
                        of United States coordination with the              as described          Audits
                        Governments of Afghanistan and other
                        donor countries in the implementation of the
                        Afghanistan Compact and the Afghanistan
                        National Development Strategy
Section 1229(f)(1)(G)   The investigation of overpayments. . .and any       Conduct and reporting Section 2.4 -
                        potential unethical or illegal actions of Federal   of investigations as  Investigations
                        employees, contractors, or affiliated entities,     described
                        and the referral of such reports, as necessary,
                        to the Department of Justice. . .
Section 1229(f)(2)      OTHER DUTIES RELATED TO OVERSIGHT.—                 Establish, maintain, All sections
                        The Inspector General shall establish,              and oversee systems,
                        maintain, and oversee such systems,                 procedures, and
                        procedures, and controls as the Inspector           controls
                        General considers appropriate to discharge
                        the duties under paragraph (1)
Section 1229(f)(3)      DUTIES AND RESPONSIBILITIES UNDER                   Duties as specified in All sections
                        INSPECTOR GENERAL ACT OF 1978.—                     Inspector General Act
                        In addition,. . .the Inspector General shall
                        also have the duties and responsibilities of
                        inspectors general under the Inspector General
                        Act of 1978
Section 1229(f)(4)      COORDINATION OF EFFORTS.—                           Coordination with the Section 4.0 –
                        The Inspector General shall coordinate with,        inspectors general of Other Agency
                        and receive the cooperation of, each of the         DoD, DoS, and USAID Oversight
                        following: (A) the Inspector General of the
                        Department of Defense, (B) the Inspector
                        General of the Department of State, and (C)
                        the Inspector General of the United States
                        Agency for International Development




           REPORT TO THE UNITED STATES CONGRESS                  I   OCTOBER 30, 2009                        127
APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS
UNDER P.L. NO. 110-181, § 1229
Public Law Section       SIGAR Enabling Language                            SIGAR Action            Section
Federal Support and Other Resources
Section 1229(h)(5)(A)    ASSISTANCE FROM FEDERAL AGENCIES.—                 Expect support as       All sections
                         Upon request of the Inspector General              requested
                         for information or assistance from any
                         department, agency, or other entity of the
                         Federal Government, the head of such entity
                         shall, insofar as is practicable and not in
                         contravention of any existing law, furnish such
                         information or assistance to the Inspector
                         General, or an authorized designee
Reports
Section 1229(i)(1)       QUARTERLY REPORTS.—                                Report – 30 days        All sections
                         Not later than 30 days after the end of each       after the end of each   Appendix B
                         fiscal-year quarter, the Inspector General         calendar quarter
                         shall submit to the appropriate committees
                         of Congress a report summarizing, for the          Summarize activities
                         period of that quarter and, to the extent          of the inspector
                         possible, the period from the end of such          general
                         quarter to the time of the submission of the
                         report, the activities during such period of the   Detailed statement
                         Inspector General and the activities under         of all obligations,
                         programs and operations funded with amounts        expenditures, and
                         appropriated or otherwise made available for       revenues
                         the reconstruction of Afghanistan. Each report
                         shall include, for the period covered by such
                         report, a detailed statement of all obligations,
                         expenditures, and revenues associated with
                         reconstruction and rehabilitation activities in
                         Afghanistan, including the following –
Section 1229(i)(1)(A)    Obligations and expenditures of appropriated/      Obligations and         Appendix B
                         donated funds                                      expenditures of
                                                                            appropriated/
                                                                            donated funds
Section 1229(i)(1)(B)    A project-by-project and program-by-program        Project-by-project      Section 3.1 –
                         accounting of the costs incurred to date for       and program-by-         Funding
                         the reconstruction of Afghanistan, together with   program accounting
                         the estimate of the Department of Defense,         of costs. List          Note 1
                         the Department of State, and the United            unexpended funds
                         States Agency for International Development,       for each project or
                         as applicable, of the costs to complete each       program
                         project and each program
Section 1229(i)(1)(C)    Revenues attributable to or consisting of funds    Revenues, obligations, Section 3.1 –
                         provided by foreign nations or international       and expenditures of    Funding
                         organizations to programs and projects funded      donor funds
                         by any department or agency of the United
                         States Government, and any obligations or
                         expenditures of such revenues




  128                     SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                            APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS
UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action           Section
Section 1229(i)(1)(D)   Revenues attributable to or consisting of         Revenues,              Section 3.1 –
                        foreign assets seized or frozen that contribute   obligations, and       Funding
                        to programs and projects funded by any U.S.       expenditures of
                        government department or agency, and any          funds from seized
                        obligations or expenditures of such revenues      or frozen assets
Section 1229(i)(1)(E)   Operating expenses of agencies or entities        Operating expenses     Section 3.1 –
                        receiving amounts appropriated or otherwise       of agencies or any     Funding
                        made available for the reconstruction of          organization receiving
                        Afghanistan                                       appropriated funds     Appendix B
Section 1229(i)(1)(F)   In the case of any contract, grant, agreement,    Describe contract      Note 1
                        or other funding mechanism described in           details
                        paragraph (2)* —
                        (i) The amount of the contract or other funding
                        mechanism;
                        (ii) A brief discussion of the scope of the
                        contract or other funding mechanism;
                        (iii) A discussion of how the department or
                        agency of the United States Government
                        involved in the contract, grant, agreement,
                        or other funding mechanism identified and
                        solicited offers from potential contractors to
                        perform the contract, grant, agreement, or
                        other funding mechanism, together with a list
                        of the potential individuals or entities that
                        were issued solicitations for the offers; and
                        (iv) The justification and approval documents
                        on which was based the determination to use
                        procedures other than procedures that provide
                        for full and open competition
Section 1229(i)(3)      PUBLIC AVAILABILITY.—                             Publish report         www.sigar.mil
                        The Inspector General shall publish on a          as directed
                        publically-available Internet website each                               Dari and Pashtu
                        report under paragraph (1) of this subsection                            in process
                        in English and other languages that the
                        Inspector General determines are widely used
                        and understood in Afghanistan
Section 1229(i)(4)      FORM.—Each report required under this             Publish report         All sections
                        subsection shall be submitted in unclassified     as directed
                        form, but may include a classified annex if the
                        Inspector General considers it necessary




            REPORT TO THE UNITED STATES CONGRESS                I   OCTOBER 30, 2009                       129
APPENDICES




The table below lists the reporting requirements prescribed for semiannual
reporting by inspectors general, generally under the Inspector General Act of
1978, as amended (5 U.S.C. App. 3) (Table A.2).

TABLE A.2


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP.3)
Public Law Section    SIGAR Enabling Language                SIGAR Action                       Section
Section 5(a)(1)      “Description of significant problems,   Extract pertinent information      Section 4.0 – Other
                      abuses, and deficiencies... ”          from SWA/JPG member reports        Agency Oversight

                                                             List problems, abuses, and         See letters of Inquiry
                                                             deficiencies from SIGAR audit      at www.sigar.mil
                                                             reports, investigations, and in-
                                                             spections
Section 5(a)(2)      “Description of recommendations         Extract pertinent information      Section 4.0 – Other
                      for corrective action…with respect     from SWA/JPG member l reports      Agency Oversight
                      to significant problems, abuses, or
                      deficiencies...”                       List recommendations from          See letters of Inquiry
                                                             SIGAR audit reports                at www.sigar.mil
Section 5(a)(3)      “Identification of each significant     List all instances of incomplete   In process
                      recommendation described in            corrective action from previous
                      previous semiannual reports on         semiannual reports
                      which corrective action has not
                      been completed...”
Section 5(a)(4)      “A summary of matters referred to       Extract pertinent information      Section 4.0 – Other
                      prosecutive authorities and the        from SWA/JPG member reports        Agency Oversight
                      prosecutions and convictions
                      which have resulted...”                List SIGAR Investigations that
                                                             have been referred
Section 5(a)(5)      “A summary of each report made          Extract pertinent information      Section 4.0 – Other
                      to the [Secretary of Defense]          from SWA/JPG member reports        Agency Oversight
                      under section 6(b)(2)... ”
                      (instances where information           List instances in which informa-
                      requested was refused or not           tion was refused SIGAR auditors,
                      provided)                              investigators, or inspectors
Section 5(a)(6)      “A listing, subdivided according        Extract pertinent information      Section 4.0 – Other
                      to subject matter, of each audit       from SWA/JPG member reports        Agency Oversight
                      report, inspection report and
                      evaluation report issued...” showing   List SIGAR reports
                      dollar value of questioned costs
                      and recommendations that funds
                      be put to better use
Section 5(a)(7)      “A summary of each particularly         Extract pertinent information      Section 4.0 –
                      significant report...”                 from SWA/JPG member reports        Other Agency
                                                                                                Oversight
                                                             Provide a synopsis of the
                                                             significant SIGAR reports          A full list of
                                                                                                significant reports
                                                                                                can be found at
                                                                                                www.sigar.mil




  130                       SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                              APPENDICES



TABLE A.2 (CONTINUED)


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP.3)
Public Law Section         SIGAR Enabling Language                      SIGAR Action                                Section
Section 5(a)(8)          “Statistical tables showing the                Extract pertinent information               See reports of SWA/
                          total number of audit reports                 from SWA/JPG member reports                 JPG members
                          and the total dollar value of
                          questioned costs... ”                         Develop statistical tables                  In Process
                                                                        showing dollar value of ques-
                                                                        tioned cost from SIGAR reports
Section 5(a)(9)          “Statistical tables showing the total          Extract pertinent information from          See reports of SWA/
                          number of audit reports, inspection           SWA/JPG member reports                      JPG members
                          reports, and evaluation reports and
                          the dollar value of recommendations           Develop statistical tables showing          In Process
                          that funds be put to better use by            dollar value of funds put to better
                          management...”                                use by management from SIGAR
                                                                        reports
Section 5(a)(10)         “A summary of each audit report,               Extract pertinent information               See reports of SWA/
                          inspection report, and evaluation             from SWA/JPG member reports                 JPG members
                          report issued before the commence-
                          ment of the reporting period for              Provide a synopsis of SIGAR                 None
                          which no management decision                  audit reports in which
                          has been made by the end of                   recommendations by SIGAR
                          reporting period, an explanation              are still open
                          of the reasons such management
                          decision has not been made, and
                          a statement concerning the desired
                          timetable for achieving a manage-
                          ment decision...”
Section 5(a)(11)         “A description and explanation of the          Extract pertinent information               See reports of SWA/
                          reasons for any significant revised           from SWA/JPG member reports                 JPG members
                          management decision...”
                                                                        Explain SIGAR audit reports in              None
                                                                        which significant revisions have
                                                                        been made to management
                                                                        decisions
Section 5(a)(12)         “Information concerning any sig-               Extract pertinent information               See reports of SWA/
                          nificant management decision with             from SWA/JPG member reports                 JPG members
                          which the Inspector General is in
                          disagreement...”                              Explain SIGAR audit reports in              No disputed
                                                                        which SIGAR disagreed with                  decisions during the
                                                                        management decision                         reporting period
Section 5(a)(13)         “Information described under                   Extract pertinent information               See reports of SWA/
                          Section 804 [sic] of the Federal              from SWA/JPG member reports                 JPG members
                          Financial Management Improve-
                          ment Act of 1996...” (instances and           Provide information where                   No disputed
                          reasons when an agency has not                management has not met targets              decisions during the
                          met target dates established in a             from a remediation plan                     reporting period
                          remediation plan)

Note 1: This information is not included in this quarterly report. The list of contracts is available at www.sigar.mil.

* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No.
110-181 as being—
“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United
States Government that involves the use of amounts appropriated or otherwise made available for the reconstruction of Afghanistan
with any public or private sector entity for any of the following purposes:
To build or rebuild physical infrastructure of Afghanistan.
To establish or reestablish a political or societal institution of Afghanistan.
To provide products or services to the people of Afghanistan.”




              REPORT TO THE UNITED STATES CONGRESS                             I   OCTOBER 30, 2009                              131
                                                                 APPENDICES


                                                                 APPENDIX B
                                                                 U.S. GOVERNMENT APPROPRIATED FUNDS ($ MILLIONS)
                                                                 Table B.1 lists appropriated funds by program, per year, for Afghanistan
                                                                 reconstruction efforts.


                                                                  U.S. FUNDING SOURCES                                                  AGENCY               TOTAL
                                                                  SECURITY
                                                                  Afghan Security Forces Fund (ASFF)                                    DoD                 18,666.47
                                                                  Train & Equip (DoD)                                                   DoD                   440.00
                                                                  Foreign Military Financing (FMF)                                      DoS                  1,058.51
                                                                  International Military Education and Training (IMET)                  DoS                        6.85
                                                                  NDAA Section 1207 Transfer                                            Other                      9.90
                                                                  Total: Security                                                                         20,181.73
                                                                  GOVERNANCE & DEVELOPMENT
                                                                  Commander’s Emergency Response Program (CERP)                         DoD                  1,639.00
                                                                  Economic Support Fund (ESF)                                           USAID                7,703.84
                                                                  Development Assistance (DA)                                           USAID                 891.78
                                                                  Afghanistan Freedom Support Act (AFSA)                                DoD                   550.00
                                                                  Child Survival & Health (CSH + GHAI)                                  USAID                 392.12
                                                                  Commodity Credit Corp (CCC)                                           USAID                     25.87
                                                                  Freedom Support Act (FSA)                                             USAID                      5.00
                                                                  USAID (other)                                                         USAID                     30.64
                                                                  Non-Proliferation, Antiterrorism, Demining, & Related (NADR)          DoS                   309.06
                                                                  Provincial Reconstruction Team Advisors                               USDA                       5.70
                                                                  Treasury Technical Assistance                                         DoT                        5.71
                                                                  Total: Governance & Development                                                         11,558.72
                                                                  COUNTER-NARCOTICS
                                                                  International Narcotics Control & Law Enforcement (INCLE)             DoS                  2,032.34
                                                                  Drug Interdiction & Counter-Drug Activities, (DoD CN)                 DoD                  1,114.02
                                                                  Drug Enforcement Administration (DEA)                                 DoJ                   127.37
                                                                  Total: Counter-Narcotics                                                                 3,273.73
                                                                  HUMANITARIAN
                                                                  PL 480 Title II                                                       USAID                 673.81
                                                                  International Disaster Assistance (IDA)                               USAID                 343.54
                                                                  Transition Initiatives (TI)                                           USAID                     34.03
                                                                  Migration and Refugee Assistance (MRA)                                DoS                   502.23
                                                                  Voluntary Peacekeeping (PKO)                                          DoS                       69.34
                                                                  Emergency Refugee & Migration Assistance (ERMA)                       DoS                       25.20
                                                                  Food for Progress                                                     USDA                  109.49
                                                                  416(b) Food Aid                                                       USDA                      95.18
Notes: Numbers affected by rounding. Data may include inter-
agency transfers. Funding is based on agency-reported data        Food for Education                                                    USDA                      50.49
for monies made available for Afghanistan reconstruction. If
an agency did not report monies made available, funding is        Emerson Trust                                                         USDA                      21.60
based on agency-reported obligation or expenditure data. If an
agency did not report obligation or expenditure data, funding
                                                                  Total: Humanitarian                                                                      1,924.90
is based on OMB allocations.                                      OVERSIGHT AND OPERATIONS
Sources: DoD, responses to SIGAR data call, 10/1/2009,            Oversight                                                                                       42.64
10/14/2009, and 10/15/2009; DoS, response to SIGAR
data call, 10/13/2009; DoS/INL, response to SIGAR data            Other                                                                                      2,343.35
call, 10/16/2009; USAID, response to SIGAR data call,
10/9/2009; OMB, responses to SIGAR data call, 4/2009
                                                                  Total: Oversight and Operations                                                          2,385.99
and 7/16/2009; USDA, response to SIGAR data call,                 TOTAL FUNDING                                                                           39,325.07
4/2009; DoJ/DEA, response to SIGAR data call, 7/7/2009.




                                                                   132                          SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                  APPENDICES




FY 2002       FY 2003        FY 2004             FY 2005      FY 2006     FY 2007      FY 2008     FY 2009

    0.00           0.00           0.00               995.00    1,908.13     7,406.40    2,750.00     5,606.94
    0.00           0.00         150.00               290.00       0.00         0.00        0.00          0.00
   57.00         191.00         413.71               396.80       0.00         0.00        0.00          0.00
    0.18           0.33           0.60                 0.80       0.79         1.14        1.62         1.40
    0.00           0.00           0.00                 0.00       0.00         0.00        9.90          0.00
  57.18         191.33         564.31             1,682.60    1,908.93     7,407.54    2,761.52     5,608.34


    0.00           0.00          40.00               136.00     215.00       209.00      488.33       550.67
  117.51         239.29         894.82             1,280.29     473.40      1,210.71    1,399.51     2,088.32
   18.30          42.54         153.14               169.58     191.58       166.81      149.43         0.40
    0.00         165.00         135.00               250.00       0.00         0.00        0.00          0.00
    7.52          49.68          33.40                38.00      41.45       100.77       63.07        58.23
    7.30           1.33           0.00                 0.00       0.00         0.00       13.02          4.22
    0.00           0.00           5.00                 0.00       0.00         0.00        0.00          0.00
    0.00           0.50           5.00                 0.00       0.00         0.00       22.32          2.81
   44.00          34.70          63.77                36.62      18.22        36.58       26.63        48.55
    0.00           0.00           0.00                 0.00       0.00         0.00        0.00          5.70
    0.70           1.00           1.00                 1.00       0.62         1.39        0.00          0.00
 195.33         534.04        1,331.13            1,911.49     940.26      1,725.26    2,162.31     2,758.90


   60.00           0.00         220.00               709.28     232.65       251.74      320.67       238.00
    0.00           0.00          71.80               224.54     108.05       290.97      189.62       229.04
    0.58           2.87           3.72                16.77      23.66        20.38       40.59        18.80
  60.58           2.87         295.52               950.59     364.36       563.09      550.88       485.84


  159.50          46.10          49.20                56.60      60.00        60.00      177.00        65.41
  197.09          86.67          11.16                 4.24       0.04         0.03       17.02        27.29
    8.65          11.69          11.22                 1.60       0.00         0.00        0.00          0.87
  135.77          63.00          67.10                47.10      41.80        54.00       43.46        50.00
   23.94           9.90          20.00                15.50       0.00         0.00        0.00         0.00
   25.00           0.00           0.00                 0.00       0.00         0.00        0.00         0.20
    0.00           4.96           9.08                30.10      23.24         9.47       20.55        12.09
   46.46          14.14          34.58                 0.00       0.00         0.00        0.00         0.00
    0.00           9.27           6.12                10.02      25.08         0.00        0.00          0.00
    0.00           0.00           0.00                 0.00       0.00         0.00       21.60          0.00
 596.41         245.72         208.46               165.16     150.16       123.50      279.63       155.86


    0.00           0.00           0.00                 0.00       0.00         2.49       14.30        25.85
  155.05          32.83         203.51               130.25     131.90       207.71      434.45      1,047.64
 155.05          32.83         203.51               130.25     131.90       210.20      448.75      1,073.49
1,064.55      1,006.79        2,602.93            4,840.08    3,495.61    10,029.59    6,203.08    10,082.44




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2009         133
APPENDICES




APPENDIX C
SIGAR AUDITS AND INSPECTIONS
Completed Audits
SIGAR issued five audit reports as of October 30, 2009, as listed in Table C.1.

TABLE C.1


SIGAR COMPLETED AUDITS, AS OF OCTOBER 30, 2009
Agency      Report Identifier      Date Issued    Report Title
SIGAR       SIGAR Audit-10-01      10/27/2009     Barriers to Greater Participation by Women in Afghan Elections
SIGAR       SIGAR Audit-09-07      9/30/2009      Documenting Detention Procedures Will Help Ensure Counter-
                                                  Narcotics Justice Center is Utilized as Intended
SIGAR       SIGAR Audit-09-06      9/22/2009      Strategy and Resources Needed To Sustain Afghan Electoral Capacity
SIGAR       SIGAR Audit-09-05      9/9/2009       Increased Visibility, Monitoring, and Planning Needed for
                                                  Commander’s Emergency Response Program in Afghanistan
SIGAR       SIGAR Audit-09-04      8/27/2008      Actions Needed To Resolve Construction Delays at the Counter-
                                                  Narcotics Justice Center



Ongoing Audits
SIGAR has 10 audits in progress, as listed in Table C.2.

TABLE C.2


SIGAR ONGOING AUDITS, AS OF SEPTEMBER 30, 2009
Agency      Audit Identifier     Date Initiated   Project Title
SIGAR       SIGAR-013A           September 2009   Review of Afghan National Security Forces (ANSF) Personnel
                                                  Management
SIGAR       SIGAR-012A           September 2009   Review of the Capabilities Assessment of the Afghan National
                                                  Security Forces (ANSF)
SIGAR       SIGAR-010A           August 2009      Review of the Use of Funds Earmarked for Afghan Women and Girls
SIGAR       SIGAR-009A           July 2009        Review of Agencies’ Use of Contractors to Provide Security for
                                                  Reconstruction Programs in Afghanistan
SIGAR       SIGAR-008A           July 2009        Review of U.S. and Other Donor Efforts To Address and Build
                                                  Afghanistan’s Capacity To Address Corruption in the Provincial
                                                  Governments
SIGAR       SIGAR-007A           July 2009        Review of U.S. and Other Donor Efforts To Address and Build
                                                  Afghanistan’s Capacity to Address Corruption
SIGAR       SIGAR-006A           April 2009       Review of U.S. Assistance for the Preparation and Conduct of
                                                  Presidential and Provincial Council Elections in Afghanistan
SIGAR       SIGAR-004A           April 2009       Review of U.S. and International Donor Programs To Assist
                                                  Afghanistan’s Energy Sector
SIGAR       SIGAR-003A           March 2009       Review of Contractor Performance and Agency Oversight of U.S.
                                                  Government Contracts in Afghanistan with Louis Berger Group
SIGAR       SIGAR-002A           March 2009       Review of Agencies’ Management Oversight, Procedures, and
                                                  Practices for Reconstruction Funds and Projects




  134                           SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                                               APPENDICES




Completed Inspections
SIGAR has completed five inspections as of October 30, 2009,
as listed in Table C.3.
TABLE C.3


SIGAR COMPLETED INSPECTIONS, AS OF OCTOBER 30, 2009
Agency Report Identifier     Date Issued     Report Title                                            Assessment Type
SIGAR    SIGAR Inspection    10/26/2009      Inspection of Kohi Girl’s School Construction Project   Infrastructure
         10-4                                in Kapisa Province: Construction Delays Resolved,
                                             But Safety Issues Remain
SIGAR    SIGAR Inspection    10/26/2009      Inspection of Habib Rahman Secondary School             Infrastructure
         10-3                                Construction Project in Kapisa Province: Design and
                                             Safety Require Attention
SIGAR    SIGAR Inspection    10/26/2009      Inspection of Abdul Manan Secondary School              Infrastructure
         10-2                                Construction Project in Kapisa Province: Insufficient
                                             Planning, Safety Problems, and Poor Quality Control
                                             Affect Project Results
SIGAR    SIGAR Inspection    10/26/2009      Inspection of the Farukh Shah School Construction       Infrastructure
         10-1                                Project in Kapisa Province: Project Completion
                                             Approved Before All Contract Requirements Met
SIGAR    SIGAR Inspection    10/2/2009       Inspection of Mahmood Raqi to Najrab Road Project       Infrastructure
         9-2                                 in Kapisa Province: Contract Requirements Met, But
                                             Sustainability Concerns Exist



Ongoing Inspections
SIGAR has seven ongoing inspections as of October 30, 2009,
as listed in Table C.4.

TABLE C.4


SIGAR ONGOING INSPECTIONS, AS OF OCTOBER 30, 2009
            Inspection
Agency      Identifier      Date Initiated   Project Title                                       Assessment Type
SIGAR       SIGAR-010-I     October 2009     Joint Regional Afghan Security Forces               Infrastructure
                                             Compound— Infrastructure Vicinity Farah
SIGAR       SIGAR-008-I     September 2009 Joint Regional Afghan Security Forces                 Infrastructure
                                           Compound—Vicinity Kandahar Airfield
SIGAR       SIGAR-004a-I    August 2009      Kabul 105-MW Power Plant and Switching              Infrastructure
                                             Station Construction
SIGAR       SIGAR-002-I     June 2009        Management and Operations Aspects of the            Management
                                             Farah Provincial Reconstruction Team
SIGAR       SIGAR-002a-I    June 2009        Farah Radio/TV Studio Infrastructure Project        Infrastructure
SIGAR       SIGAR-002b-I    June 2009        Tojg Bridge Project                                 Infrastructure
SIGAR       SIGAR-003-I     June 2009        Management and Operations Aspects of the            Management
                                             Kapisa-Parwan Provincial Reconstruction Team




             REPORT TO THE UNITED STATES CONGRESS                  I   OCTOBER 30, 2009                       135
APPENDICES




APPENDIX D
SIGAR HOTLINE
Reported Complaints
Of the 37 complaints received last quarter, 16 complaints have been assigned to a
SIGAR directorate, 7 have been referred to other agencies, 1 complaint is under
review, and 13 have been closed, as listed in Figure D.1.

FIGURE D.1

SIGAR HOTLINE COMPLAINTS RECEIVED THIS QUARTER


  Assigned/Open                                                                             16

    Referred Out                                       7

   Under Review           1

         Closed                                                                  13


                   0                        5                          10              15

Source: SIGAR Inspections Directorate, 10/22/2009.




Since the hotline’s official launch in May 2009, SIGAR has received a total of 73
complaints. Figure D.2 provides a breakdown of the sources of these complaints.

FIGURE D.2

SOURCE OF SIGAR HOTLINE COMPLAINTS


                   Total Complaints: 73



                               Email
                               18
                                                 Walk-in
                                                 3
                       Phone                     Written (non-email)
                       45                        7




  136                          SPECIAL INSPECTOR GENERAL          I    AFGHANISTAN RECONSTRUCTION
                                                                              APPENDICES




APPENDIX E
ACRONYMS AND ABBREVIATIONS
Acronym       Definition                                                                  Acronym    Definition
ABP           Afghan Border Police                                                        CID        United States Army Criminal Investigation Command
ADB           Asian Development Bank                                                      C-IED      counter–improvised explosive device
ADF           Asian Development Fund                                                      CJTF       Criminal Justice Task Force
ADP           alternative development programs                                            CJTF       Combined Joint Task Force Phoenix
                                                                                          Phoenix
ADT           Agribusiness Development Team
                                                                                          CJTF-101   Combined Joint Task Force-101
AEG & PSS     Afghanistan Economic Governance and Private Sector Strengthening
                                                                                          CM         Capability Milestones
AFP           Annual Funding Program
                                                                                          CNAT       Counter-Narcotics Advisory Team
AFSA          Afghanistan Freedom Support Act
                                                                                          CNJC       Counter-Narcotics Justice Center
AGO           Attorney General’s Office
                                                                                          CNT        Central Narcotics Tribunal
AGOAS         Attorney General’s Office Assistance Section
                                                                                          COMPRI-A   Communication for Behavior Change: Expanding Access to Private Sector
AIGF          Afghanistan Investment Guarantee Facility
                                                                                                     Health Products and Services in Afghanistan
AIG Audits    Assistant Inspector General for Audits
                                                                                          CPC        Criminal Procedure Code
AIHRC         Afghanistan Independent Human Rights Commission
                                                                                          CSH        Child Survival and Health
AJIS          Access to Justice and Integration Section
                                                                                          CSRP       Civil Service Reform Project (World Bank)
AMF           Afghan Military Forces
                                                                                          CSSP       Corrections Systems Support Program
AMSP          Afghan Municipal Strengthening Program
                                                                                          CSTC-A     Combined Security Transition Command - Afghanistan
ANA           Afghan National Army
                                                                                          CTAG       Combined Trainers Advisory Group
ANAAC         Afghan National Army Air Corps
                                                                                          CTC-A      Counterinsurgency Training Center - Afghanistan
ANDS          Afghanistan National Development Strategy
                                                                                          CWD        conventional weapons destruction
ANP           Afghan National Police
                                                                                          DA         Development Assistance
ANSF          Afghan National Security Forces
                                                                                          DAB        Da Afghanistan Bank
ARDZ          Agricultural and Rural Development Zones
                                                                                          DAD        Development Assistance Database
ARSIC         Afghan Regional Security Integration Command
                                                                                          DC&P       Disease Control and Prevention
ARTF          Afghanistan Reconstruction Trust Fund
                                                                                          DCIS       Defense Criminal Investigative Service
ARTF-RC       Afghanistan Reconstruction Trust Fund – Recurrent Cost
                                                                                          DEA        Drug Enforcement Administration
ASFF          Afghanistan Security Forces Fund
                                                                                          DEA CN     Drug Enforcement Administration Counter-Narcotics
ASMED         Afghanistan Small and Medium Enterprise Development
                                                                                          DFR        Donor Financial Review
AUP           Afghan Uniformed Police
                                                                                          DIAG       Disbandment of Illegal Armed Groups (program)
BAF           Bagram Airfield
                                                                                          DICE       Data and Intelligence Collection and Exchange
BWT           Basic Warrior Training
                                                                                          DoD        Department of Defense (U.S.)
CARD          Comprehensive Agriculture and Rural Development
                                                                                          DoD CN     Department of Defense Counter-Narcotics (U.S.)
CCC           Commodity Credit Corp
                                                                                          DoD E&EE   Department of Defense Emergency and Extraordinary Expense (U.S.)
CDC MRE       Centers for Disease Control Mine Risk Education
                                                                                          DoD IG     Department of Defense Inspector General (U.S.)
CEO           chief executive officers
                                                                                          DoD        Department of Defense Overseas Disaster, Humanitarian and Civic Aid
CERP          Commander’s Emergency Response Program                                      OHDACA     (U.S.)
CIA           Central Intelligence Agency




             REPORT TO THE UNITED STATES CONGRESS                I     OCTOBER 30, 2009                137
                                                          APPENDICES




Acronym    Definition                                                             Acronym   Definition
DoD OMA    Department of Defense Operations and Maintenance (U.S.)                IMET      International Military and Educational Training
DoD T&E    Department of Defense Train and Equip (U.S.)                           IMF       International Monetary Fund
DoJ        Department of Justice (U.S.)                                           INCLE     International Narcotics Control and Law Enforcement
DoN        Department of the Navy (U.S.)                                          INL       Bureau of International Narcotics and Law Enforcement Affairs
DoS        Department of State (U.S.)                                             INLTC     Independent National Legal Training Center
ECC        Electoral Complaints Commission                                        IO&P      International Organizations and Programs
EMC        Electoral Media Commission                                             IRI       International Republican Institute
EOD        explosive ordnance disposal                                            IRP       Infrastructure and Rehabilitation Program
ERMA       Emergency Refugee and Migration Assistance                             ISAF      International Security Assistance Force
ERW        exploding remnants of war                                              IWRM      integrated water resource management
ESF        Economic Support Fund                                                  JCMB      Joint Coordination and Monitoring Board
ETT        Embedded Training Team                                                 JICA      Japanese International Cooperation Agency
EUPOL      European Union Police Mission                                          JSSP      Justice Sector Support Program
FBI        Federal Bureau of Investigation                                        KAF       Kandahar Airfield
FDD        Focused District Development                                           KMTC      Kabul Military Training Center
FEFA       Free and Fair Elections Foundation of Afghanistan                      LBG/B&V   Louis Berger Group/Black & Veatch Joint Venture
FMF        Foreign Military Financing                                             LGCD      Local Governance and Community Development
FMR        Financial Management Regulation (DoD)                                  LOTFA     Law and Order Trust Fund for Afghanistan
FOB        Forward Operating Base                                                 LTV       light tactical vehicle
FSA        Freedom Support Act                                                    MACCA     Mine Action Coordination Center of Afghanistan
FY         fiscal year                                                            MAD       Mothers Against Drugs
GAO        Government Accountability Office                                       MAIL      Ministry of Agriculture, Irrigation, and Livestock (Afghan)
GDP        gross domestic product                                                 MAPA      Mine Action Program in Afghanistan
GHAI       Global HIV/AIDS Initiative                                             MCIT      Ministry of Communication Information and Technology (Afghan)
GIRoA      Government of the Islamic Republic of Afghanistan                      MCN       Ministry of Counter-Narcotics (Afghan)
HCRC       Hotline Complaints Review Committee                                    MIGA      Multilateral Investment Guarantee Agency
HHS        Department of Health and Human Services                                MOA       Memorandum of Agreement
HMMWV      high-mobility, multi-purpose wheeled vehicle                           MoD       Ministry of Defense (Afghan)
HNSS       Health and Nutrition Sector Strategy                                   MoE       Ministry of Education (Afghan)
HOO        High Office of Oversight                                               MoF       Ministry of Finance (Afghan)
HSSP       Health Services Support Project                                        MoI       Ministry of Interior (Afghan)
IARCSC     Independent Administrative Reform and Civil Service Commission         MoJ       Ministry of Justice (Afghan)
ICCTF      International Contract Corruption Task Force                           MoPH      Ministry of Public Health (Afghan)
IDA        International Development Association                                  MoPW      Ministry of Public Works (Afghan)
IDEA-NEW   Incentives Driving Economic Alternatives for North, East, and West     MoTCA     Ministry of Transportation and Civil Aviation (Afghan)
IEC        Independent Election Commission                                        MoWA      Ministry of Women’s Affairs (Afghan)
IED        improvised explosive device                                            MRA       Migration and Refugee Assistance
IET        Initial Entry Training                                                 MRAP      Mine Resistant Ambush Protected
IG         Inspector General                                                      MTV       medium tactical vehicles




                                                               138              SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                              APPENDICES




Acronym       Definition                                                                 Acronym      Definition
NAC          North Atlantic Council                                                      PRT          Provincial Reconstruction Team
NADF         National Agriculture Development Framework                                  PSC          private security contractor
NADR-ATA     Non-Proliferation, Anti-Terrorism, Demining, and Related Programs–          QIP          quick impact projects
             Anti-Terrorism Assistance
                                                                                         RPG          rocket-propelled grenade
NADR-CTF     Non-Proliferation, Anti-Terrorism, Demining, and Related Programs–
                                                                                         RTC          Regional Training Center
             Counterterrorism Finance
                                                                                         RUF          Rules for the Use of Force
NADR-EXBS Non-Proliferation, Anti-Terrorism, Demining, and Related Programs–
          Export and Border Security                                                     SCoG         Support for the Center of Government
NADR-HD      Non-Proliferation, Anti-Terrorism, Demining, and Related Programs–          SIGIR        Special Inspector General for Iraq Reconstruction
             Humanitarian Demining                                                       SOG          Special Operations Group
NADR-NDS     Non-Proliferation, Anti-Terrorism, Demining, and Related Programs–          U.S.         United States
             Non-Proliferation and Disarmament
                                                                                         UN           United Nations
NADR-SALW Non-Proliferation, Anti-Terrorism, Demining, and Related Programs–
          Small Arms Light Weapons                                                       UN OCHA      United Nations Office for the Coordination of Humanitarian Affairs

NADR-TIP     Non-Proliferation, Anti-Terrorism, Demining, and Related Programs–          UNAMA        United Nations Assistance Mission in Afghanistan
             Terrorist Interdiction Program                                              UNCAC        United Nations Convention Against Corruption
NATO         North Atlantic Treaty Organization                                          UNDP         United Nations Development Programme
NCO          Non-commissioned Officer                                                    UNDP/ELECT Enhancing Legal and Electoral Capacity for Tomorrow (UNDP)
NDAA         National Defense Appropriations Act                                         UNICEF       United Nations Children’s Fund
NGO          non-governmental organization                                               UNIFEM       United Nations Development Fund for Women
NMCC         National Military Command Center                                            UNODC        United Nations Office on Drugs and Crime
NPCC         National Police Command Center                                              USACE        United States Army Corps of Engineers
NSP          National Solidarity Program                                                 USAID        United States Agency for International Development
OCO          Overseas Contingency Operations                                             USAID OE     United States Agency for International Development Operating Expense
OEF          Operation Enduring Freedom                                                  USCENTCOM United States Central Command
OEG          Office of Economic Growth (USAID)                                           USDA         United States Department of Agriculture
OHDACA       Overseas Humanitarian Disaster and Civic Aid                                USFOR-A      United States Forces - Afghanistan
OIG          Office of the Inspector General                                             USMS         United States Marshals Service
OMAR         Organization for Mine Action and Afghan Rehabilitation                      VOA          Voice of America
OMB          Office of Management and Budget                                             VTT          Validation Tracking Team
OMLT         Operational Mentoring and Liaison Team
OoP          Office of the President (Afghan)
OPIC         Overseas Private Investment Corporation
OSCE         Organization for Security and Co-operation in Europe
OSD          Office of the Secretary of Defense
OSI          U.S. Air Force Office of Special Investigations
OTI          Office of Transition Initiatives
PKO          Peacekeeping Operations
PMT          Provincial Management Team
PMT          Police Mentoring Team
POMLT        Police Organizational Mentor and Liaison Team
PRGF         Poverty Reduction and Growth Facility




           REPORT TO THE UNITED STATES CONGRESS                  I    OCTOBER 30, 2009                  139
                                                           ENDNOTES




1.    U.S. Embassy Kabul, “The U.S. Government Integrated Civilian-Military Campaign Plan for Support to Afghanistan,” August 10, 2009.
2.    GAO, “Progress Made in Constructing Roads, but Assessments for Determining Impact and a Sustainable Maintenance Program are Needed,”
      Report GAO-08-689, July 2008; GAO, Report GAO-09-476T, “Security, Economic, and Governance Challenges to Rebuilding Efforts Should Be
      Addressed in U.S. Strategies,” March 25, 2009.
3.    USFOR-A comments to the draft SIGAR report, “Inspection of Mahmood Raqi to Nijrab Road Project in Kapisa Province: Contract Require-
      ments Met; But Sustainability Concerns Exist,” October 2, 2009.
4.    UN, “Report of the UN Secretary-General to the United Nations General Assembly and Security Council, September 22, 2009.
5.    SIGAR Audit 09-5, “Increased Visibility, Monitoring, and Planning Needed for Commander’s Emergency Response Program in Afghanistan,”
      September 9, 2009, pp. 16–17.
6.    SIGAR Inspection 09-2, “Inspection of Mahmood Raqi to Nijrab Road Project in Kapisa Province: Contract Requirements Met; But Sustainabil-
      ity Concerns Exist,” 10/2/2009, p. 16.
7.    SIGAR Inspection 09-2, “Inspection of Mahmood Raqi to Nijrab Road Project in Kapisa Province: Contract Requirements Met; But Sustainabil-
      ity Concerns Exist,” 10/2/2009, p. 16.
8.    The other members of the ICCTF are the Federal Bureau of Investigations, the Defense Criminal Investigative Service, the Major Procurement
      Fraud Unit of the U.S. Army’s Criminal Investigation, the Naval Criminal Investigative Service, the Air Force Office of Special Investigations,
      the DoS Office of the Inspector General, the USAID Office of the Inspector General, and the Office of the Special Inspector General for Iraq
      Reconstruction.
9.    As of October 13, 2009.
10.   DoD, “U.S. Plan for Sustaining the ANSF,” www.defenselink.mil/pubs/united_states_plan_for_sustaining_the_afghanistan_national_security_
      forces_1231.pdf, accessed 9/16/2009, p. 6.
11.   P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.
12.   DoD, “U.S. Plan for Sustaining the ANSF,” www.defenselink.mil/pubs/united_states_plan_for_sustaining_the_afghanistan_national_security_
      forces_1231.pdf, accessed 9/9/2009, p. 5.
13.   DoD, response to SIGAR data call, 10/9/2009.
14.   P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.
15.   DoD, response to SIGAR data call, 10/9/2009.
16.   DoD, response to SIGAR data call, 10/9/2009.
17.   DoD IG, “Distribution of Funds and the Validity of Obligations for the Management of the Afghanistan Security Forces Fund – Phase I,” www.
      dodig.mil/audit/reports/fy08/08-012.pdf, accessed 9/9/2009, p. 2.
18.   DoD, Financial Management Regulation, “Commander’s Emergency Response Fund: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
19.   DoD, response to SIGAR data call, 10/14/2009.
20.   SIGAR, Audit-09-5, “Increased Visibility, Monitoring, and Planning Needed for Commander’s Emergency Response Program in Afghanistan,”
      9/9/2009, p. 2.
21.   SIGAR, Audit-09-5, “Increased Visibility, Monitoring, and Planning Needed for Commander’s Emergency Response Program in Afghanistan,”
      9/9/2009, p. 4.
22.   SIGAR, Audit-09-5, “Increased Visibility, Monitoring, and Planning Needed for Commander’s Emergency Response Program in Afghanistan,”
      9/9/2009, p. 17.
23.   DoD, response to SIGAR vetting, 7/16/2009.
24.   USAID, response to SIGAR data call, 10/9/2009.
25.   USAID, response to SIGAR data call, 10/9/2009.
26.   USAID, response to SIGAR data call, 10/9/2009.
27.   CRS, “Foreign Aid: An Introduction to U.S. Programs and Policy,” 4/9/2009, http://assets.opencrs.com/rpts/R40213_20090409.pdf, accessed
      9/10/2009, p. 7.
28.   DoS, “Congressional Budget Justification: Foreign Operations, Fiscal Year 2010,” p. 32.
29.   USAID, response to SIGAR data call, 10/9/2009.
30.   USAID, response to SIGAR data call, 10/9/2009.
31.   USAID, response to SIGAR data call, 10/9/2009.
32.   DoS, response to SIGAR data call, 10/13/2009.
33.   INL receives DoD funds to carry out police training programs.
34.   DoS, response to SIGAR data call, 10/13/2009.
35.   DoS, response to SIGAR data call, 10/13/2009.
36.   MoF, Web site, www.mof.gov.af, accessed 9/10/2009.
37.   Treasury, response to SIGAR data call, 9/24/2009.
38.   Treasury, response to SIGAR data call, 9/24/2009.
39.   Treasury, response to SIGAR data call, 9/24/2009.
40.   MoF, “Islamic Republic of Afghanistan: 1388 National Budget,” www.budgetmof.gov.af/Budget_Resources/1388/1388_National_Budget_ENG.
      pdf, p. 7.
41.   Treasury, response to SIGAR data call, 9/24/2009.




                                                    140                   SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




42.   Treasury, response to SIGAR data call, 9/24/2009.
43.   MoF, “Islamic Republic of Afghanistan: 1388 National Budget,” www.budgetmof.gov.af/Budget_Resources/1388/1388_National_Budget_ENG.
      pdf, p. 27; As of 10/22/2009, the exchange rate was Afs 1 = $0.02 USD, www.xe.com, accessed 10/22/2009.
44.   World Bank, “Afghanistan Reconstruction Trust Fund,” 9/2009, p. 4.
45.   CRS, “United Nations Assistance Mission in Afghanistan: Background and Policy Issues,” 7/30/2009, www.fas.org/sgp/crs/row/R40747.pdf,
      accessed 9/25/2009, p. 8; MoF, “Islamic Republic of Afghanistan: 1388 National Budget,” www.budgetmof.gov.af/Budget_Resources/1388/1388_
      National_Budget_ENG.pdf, p. 27. As of 10/22/2009, the exchange rate was 1Afs = .0201694 USD, www.xe.com, accessed 10/22/2009.
46.   MoF, “Islamic Republic of Afghanistan: 1388 National Budget,” www.budgetmof.gov.af/Budget_Resources/1388/1388_National_Budget_ENG.
      pdf, pp. 27–28.
47.   World Bank, “Afghanistan Reconstruction Trust Fund,” 9/2009, p. 4.
48.   World Bank, “Afghanistan Reconstruction Trust Fund,” 9/2009, p. 3.
49.   World Bank, “The World Bank Group in Afghanistan: Quarterly Country Update,” 10/2009.
50.   World Bank, “Afghanistan Reconstruction Trust Fund,” 9/2009, p. 4.
51.   World Bank, “Afghanistan Reconstruction Trust Fund,” 9/2009, p. 3.
52.   World Bank, “Afghanistan Reconstruction Trust Fund,” 9/2009, p. 3.
53.   World Bank, “Afghanistan Reconstruction Trust Fund,” 9/2009, p. 13.
54.   World Bank, “ARTF: Administrator’s Report on Financial Status as of August 22, 2009,” p. 1.
55.   Treasury, response to SIGAR data call, 9/24/2009.
56.   Treasury, response to SIGAR data call, 9/24/2009.
57.   UNAMA logo obtained from http://unama.unmissions.org/default.aspx?, accessed 10/14/2009. UNDP/ELECT logo obtained from
      www.afghanelections.org, accessed 10/14/2009. World Bank logo obtained from www.worldbank.org, accessed 10/14/2009. IMF logo
      obtained from www.imf.org/external/index.htm, accessed 10/14/2009.
58.   UNAMA, “FAQs,” http://unama.unmissions.org/Default.aspx?tabid=1748, accessed 10/16/2009.
59.   UN, Report of the Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 15.
60.   UNAMA, “Mandate,” http://unama.unmissions.org/Default.aspx?tabid=1742, accessed 10/16/2009.
61.   UNAMA, “Background,” http://unama.unmissions.org/Default.aspx?tabid=1743, accessed 10/16/2009.
62.   SIGAR, Audit-09-6, “Strategy and Resources Needed To Sustain Afghan Electoral Capacity,” 9/22/2009, p. 3.
63.   SIGAR, Audit-09-6, “Strategy and Resources Needed To Sustain Afghan Electoral Capacity,” 9/22/2009, p. 2.
64.   World Bank, “The World Bank in Afghanistan: Quarterly Country Update,” 10/2009.
65.   ADB, “Asian Development Bank & Afghanistan: Fact Sheet,” www.adb.org/Documents/Fact_Sheets/AFG.pdf, accessed 10/16/2009.
66.   ADB, “Asian Development Bank & Afghanistan: Fact Sheet,” www.adb.org/Documents/Fact_Sheets/AFG.pdf, accessed 10/16/2009.
67.   IMF, “Islamic Republic of Afghanistan–Program Note,” www.imf.org/external/np/country/notes/pdf/afghanistan.pdf, accessed 9/15/2009.
68.   IMF, “Islamic Republic of Afghanistan–Program Note,” www.imf.org/external/np/country/notes/pdf/afghanistan.pdf, accessed 9/15/2009.
69.   IMF, “What We Do,” www.imf.org/external/about/whatwedo.htm, accessed 9/15/2009.
70.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 7.
71.   CSTC-A, response to SIGAR data call, 10/2/2009.
72.   CSTC-A, response to SIGAR data call, 10/2/2009.
73.   CSTC-A, response to SIGAR data call, 10/2/2009.
74.   CSTC-A, response to SIGAR data call, 10/2/2009.
75.   NATO, “International Security Assistance Force and Afghan National Army Strength & Laydown,” www.nato.int/isaf/docu/epub/pdf/placemat.
      pdf, accessed 9/30/2009.
76.   CIA, “The World Factbook Afghanistan,” www.cia.gov/library/publications/the-world-factbook/geos/af.html#top, accessed 9/1/2009; ANA logo
      obtained from www.mod.gov.af/, accessed 9/23/2009.
77.   CSTC-A, response to SIGAR data call, 10/2/2009.
78.   GIRoA, “Afghanistan National Development Strategy, Executive Summary,” p. 4.
79.   CSTC-A, response to SIGAR data call, 10/2/2009; CIA, “The World Factbook Afghanistan,” www.cia.gov/library/publications/the-world-fact-
      book/geos/af.html#top, accessed 9/20/2009.
80.   CSTC-A, response to SIGAR data call, 10/2/2009.
81.   CSTC-A, response to SIGAR data call, 10/2/2009.
82.   CSTC-A, response to SIGAR data call, 10/2/2009.
83.   CSTC-A, response to SIGAR data call, 10/2/2009.
84.   CSTC-A, response to SIGAR data call, 10/2/2009.
85.   CSTC-A, response to SIGAR data call, 10/2/2009.
86.   CSTC-A, response to SIGAR data call, 10/2/2009.
87.   CSTC-A, “The Enduring Ledger,” 4/2009, p. 18.
88.   CSTC-A, response to SIGAR data call, 10/2/2009.
89.   CSTC-A, response to SIGAR data call, 10/2/2009.




        REPORT TO THE UNITED STATES CONGRESS          I   OCTOBER 30, 2009                  141
                                                           ENDNOTES




90.    DoD OSD, response to SIGAR data call, 7/8/2009.
91.    CSTC-A, response to SIGAR data call, 10/2/2009.
92.    CSTC-A, response to SIGAR data call, 10/2/2009.
93.    CSTC-A, response to SIGAR data call, 10/2/2009.
94.    GAO, “Lack of Systematic Tracking Raises Significant Accountability Concerns about Weapons Provided to Afghan National Security Forces,”
       Report GAO-09-267, 1/2009, p. 11.
95.    CSTC-A, response to SIGAR data call, 10/2/2009.
96.    DoD, “Growing Afghan Air Corps Provides Election Support,” 9/12/2009.
97.    USAF, “Afghan National Army Air Corps Commander Travels to AETC,” 7/22/2009.
98.    NATO, “Afghan National Army Air Corps now integrated in ISAF’s Intra-Theatre Air Support System,” 6/15/2008.
99.    DoD, “Growing Afghan Air Corps Provides Election Support,” 9/12/2009.
100.   CSTC-A, response to SIGAR data call, 10/2/2009.
101.   CSTC-A, response to SIGAR data call, 10/2/2009.
102.   DoD, “Progress Toward Security and Stability in Afghanistan,” 6/2009, p. 28.
103.   DoD, response to SIGAR data call, 10/2/2009; DoD, “Progress Toward Security and Stability in Afghanistan,” 6/2009, p. 26; ANP logo obtained
       from www.budgetmof.gov.af/sectors/Security/resurces/MoI%20Strategy%20-%20English.pdf, accessed 9/23/2009.
104.   DoD OSD, response to SIGAR data call, 10/13/2009.
105.   CSTC-A, response to SIGAR data call, 10/2/2009.
106.   CSTC-A, response to SIGAR data call, 10/2/2009.
107.   CSTC-A, response to SIGAR data call, 10/2/2009.
108.   CSTC-A, response to SIGAR data call, 10/2/2009.
109.   CSTC-A, response to SIGAR data call, 10/2/2009.
110.   CSTC-A, response to SIGAR data call, 10/2/2009.
111.   CSTC-A, response to SIGAR data call, 10/2/2009.
112.   USAID, response to SIGAR data call, 10/2/2009.
113.   USMC, “Marines Train, Mentor Afghan Police in South Helmand,” 8/10/2009.
114.   CSTC-A, response to SIGAR data call, 10/2/2009.
115.   DoD OSD, response to SIGAR data call, 7/8/2009.
116.   CSTC-A, response to SIGAR data call, 10/2/2009.
117.   CSTC-A, response to SIGAR data call, 10/2/2009.
118.   CSTC-A, response to SIGAR data call, 10/2/2009.
119.   CSTC-A, response to SIGAR data call, 10/2/2009.
120.   CSTC-A, response to SIGAR data call, 10/2/2009.
121.   CSTC-A, response to SIGAR data call, 10/2/2009.
122.   CSTC-A, response to SIGAR data call, 10/2/2009.
123.   CSTC-A, response to SIGAR data call, 10/2/2009.
124.   DoD, “Progress Toward Security and Stability in Afghanistan,” 6/2009, p. 39.
125.   CSTC-A, response to SIGAR data call, 10/2/2009.
126.   DoD, “Progress Toward Security and Stability in Afghanistan,” 6/2009, p. 39; CSTC-A, response to SIGAR data call, 10/2/2009.
127.   CSTC-A, response to SIGAR data call, 10/2/2009.
128.   DoD, “Progress Toward Security and Stability in Afghanistan,” 6/2009, p. 39.
129.   CSTC-A, response to SIGAR data call, 10/2/2009.
130.   DoD, “Progress Toward Security and Stability in Afghanistan,” 6/2009, p. 39.
131.   CSTC-A, response to SIGAR data call, 10/2/2009.
132.   GIRoA, “Afghanistan National Development Strategy, Executive Summary,” p. 6.
133.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 9/21/2009, p. 14.
134.   GIRoA, “Afghanistan National Development Strategy,” p. 55.
135.   DoS, response to SIGAR data call, 10/2/2009.
136.   DoS, response to SIGAR data call, 10/2/2009.
137.   DoS, response to SIGAR data call, 10/2/2009.
138.   UNDP Afghanistan, “DIAG Second Quarter Project Progress Report – 2009,” p. 7.
139.   DoS, response to SIGAR data call, 10/2/2009.
140.   DoS, response to SIGAR data call, 10/2/2009.
141.   UNDP Afghanistan, “DIAG Second Quarter Project Progress Report – 2009,” p. 3.
142.   GIRoA, “Afghanistan National Development Strategy, Executive Summary,” p. 6.
143.   UN, “Afghanistan Making Significant Progress in Mine Clearance, Reports UN Official,” 7/21/2008.
144.   DoS, “Community-Based Demining Links Development and Counterinsurgency in Afghanistan,” 6/23/2009.




                                                    142                  SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                             ENDNOTES




145.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 14.
146.   DoS, response to SIGAR data call, 10/2/2009.
147.   GIRoA, “ANDS First Annual Report 1387 (2008/2009), Part II – Appendices,” 8/1/2009, p. 36.
148.   DoS, response to SIGAR data call, 10/2/2009.
149.   DoS, response to SIGAR data call, 10/2/2009.
150.   DoS, response to SIGAR data call, 10/2/2009.
151.   CSTC-A, response to SIGAR data call, 10/2/2009.
152.   DoS, response to SIGAR data call, 10/2/2009.
153.   GIRoA, “ANDS First Annual Report 1387 (2008/2009), Part II – Appendices,” 8/1/2009, p. 36.
154.   DoS, response to SIGAR data call, 10/2/2009.
155.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 13.
156.   GIRoA, “Afghanistan National Development Strategy, Executive Summary” p. 6.
157.   UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 9/2009, p. 17.
158.   INL, “INL Programs,” www.state.gov/p/inl/narc/c27187.htm, accessed 9/28/2009.
159.   UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 9/2009, pp. 2–3.
160.   UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 9/2009, p. 3.
161.   UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 9/2009, Commentary by the Executive Director, p. i.
162.   DoD, “Progress Toward Security and Stability in Afghanistan,” 6/2009, p. 66.
163.   DoS, response to SIGAR data call, 10/2/2009.
164.   UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 9/2009, p. 31.
165.   UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 9/2009, p. 31.
166.   UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 9/2009, Commentary by the Executive Director, p. ii.
167.   UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 9/2009, p. 18.
168.   NATO, “NATO’s Role in Afghanistan,” www.nato.int/cps/en/natolive/topics_8189.htm, accessed 9/03/2009; ISAF logo obtained from www.nato.
       int/isaf, accessed 9/23/2009.
169.   NATO, “International Security Assistance Force and Afghan National Army Strength & Laydown,” www.nato.int/isaf/docu/epub/pdf/placemat.
       pdf, accessed 9/30/2009.
170.   NATO, “International Security Assistance Force and Afghan National Army Strength & Laydown,” www.nato.int/isaf/docu/epub/pdf/placemat.
       pdf, accessed 9/30/2009.
171.   NATO, “NATO’s Role in Afghanistan,” www.nato.int/cps/en/natolive/topics_8189.htm, accessed 9/03/2009.
172.   NATO, “ISAF Mandate,” www.nato.int/isaf/topics/mandate/index.html, 4/29/09; NATO, “International Security Assistance Force and Afghan
       National Army Strength & Laydown,” www.nato.int/isaf/docu/epub/pdf/placemat.pdf, accessed 9/30/2009.
173.   DoD OSD, response to SIGAR data call, 10/13/2009.
174.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 1;
       UNDP/ELECT, ELECT Weekly, 9/8–9/21/2009, p. 10.
175.   IEC, Home page, www.iec.org.af/, accessed 10/19/2009; ECC, Home page, www.ecc.org.af/en, accessed 10/19/2009.
176.   ECC, press release, “ECC Issues Its Decisions to the IEC with Respect to the Certification of the Presidential Election Results,” 10/19/2009;
       IEC, press release, “Announcement of the Final Results of the Presidential Election of 20 August 2009,” 10/20/2009.
177.   GIRoA, “The Afghanistan Compact,” 1/31–2/1/2006, p. 7; GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/
       final_ands/src/final/Afghanistan%20National%20Development%20Strategy_eng.pdf, p. 62.
178.   GIRoA, “The Afghanistan Compact,” 1/31–2/1/2006, p. 7; GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/
       final_ands/src/final/Afghanistan%20National%20Development%20Strategy_eng.pdf, p. 62.
179.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 1.
180.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 1.
181.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 1;
       IEC, “Candidate List,” www.iec.org.af/assetts/pdf/nomination/list/presidentialeng.pdf,” accessed 10/21/2009.
182.   UNDP/ELECT, ELECT Weekly, 8/18–24/2009, p. 2.
183.   ECC, press release, “ECC Issues Its Decisions to the IEC with Respect to the Certification of the Presidential Election Results,” 9/19/2009.
184.   ECC, press release, “ECC Issues Its Decisions to the IEC with Respect to the Certification of the Presidential Election Results,” 9/19/2009.
185.   ECC, press release, “ECC Issues Its Decisions to the IEC with Respect to the Certification of the Presidential Election Results,” 10/19/2009;
       IEC, press release, “Announcement of the Final Results of the Presidential Election of 20 August 2009,” 10/20/2009.
186.   GIRoA, Afghanistan Constitution, Article 61; IEC, press release, “Announcement of the Final Results of the Presidential Election of 20 August
       2009,” 10/20/2009.
187.   UNDP/ELECT, ELECT Weekly, 9/8–9/21/2009, p. 10.
188.   UNDP/ELECT, ELECT Weekly, 9/8–9/21/2009, p. 10.
189.   UNDP/ELECT, ELECT Weekly, 9/8–9/21/2009, p. 2; IEC, “Presidential & Provincial Elections, Afghanistan 2009 Elections,” www.iec.org.af/
       results/leadingCandidate.html, accessed 10/14/2009.




         REPORT TO THE UNITED STATES CONGRESS          I   OCTOBER 30, 2009                  143
                                                          ENDNOTES




190. IEC, “Presidential & Provincial Elections, Afghanistan 2009 Elections,” www.iec.org.af/results/leadingCandidate.html, accessed 10/14/2009.
191. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 1.
192. ECC, “Decisions,” www.ecc.org.af/en/index.php?option=com_content&view=article&id=50&Itemid=56, last accessed 10/19/2009; Report of the
     UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009.
193. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 4.
194. UNDP/ELECT, ELECT Weekly, 9/8–9/21/2009, p. 2.
195. UNDP/ELECT, ELECT Weekly, 9/8–9/21/2009, p. 1; UNDP/ELECT, ELECT Weekly, 9/30–10/12/2009, p. 2.
196. ECC and IEC, “Fact Sheet on the Audit Process in Response to ECC Order of 8 September 2009,” www.ecc.org.af/en/images/stories/pdf/
     ECC-IEC%20Fact%20Sheet%20Audit%20Process.05.10.09.pdf, 10/5/2009.
197. ECC and IEC, “Fact Sheet on the Audit Process in Response to ECC Order of 8 September 2009,” www.ecc.org.af/en/images/stories/pdf/
     ECC-IEC%20Fact%20Sheet%20Audit%20Process.05.10.09.pdf, 10/5/2009.
198. ECC and IEC, press release, “The ECC and IEC Begin Audit and Recount at Sample Polling Stations,” 10/5/2009; UNDP/ELECT, ELECT Weekly,
     9/30–10/12/2009, p. 8; ECC, press release, “ECC Issues Its Decisions to the IEC with Respect to the Certification of Presidential Election
     Results,” 10/19/2009.
199. UNDP/ELECT, ELECT Weekly, 9/8–9/21/2009, p. 3.
200. UNDP/ELECT, ELECT Weekly, 8/25–8/31/2009, p. 3.
201. IEC, press release, “IEC Press Release on Final Preparations,” www.iec.org.af/assets/pdf/pressrelease/final_preparation_2009_election19%20
     08%202009.pdf, 9/19/2009.
202. UNDP/ELECT, ELECT Weekly, 8/25–8/31/2009, p. 3.
203. DoS, response to SIGAR data call, 10/6/2009.
204. DoS, response to SIGAR data call, 10/6/2009.
205. IEC, press release, “Reference to Announcement of Preliminary Results of 2009 Presidential Election,” 9/16/2009.
206. SIGAR, Audit 10-1, “Barriers to Greater Women’s Participation in Afghanistan Election,” p. 6.
207. SIGAR, Audit 10-1, “Barriers to Greater Women’s Participation in Afghanistan Election,” p. 7.
208. UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 13.
209. UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 13.
210. UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 13.
211. UNDP/ELECT, ELECT Weekly, 7/21–7/27/2009, p. 12.
212. UNDP/ELECT, ELECT Weekly, 9/8–9/21/2009, p. 7.
213. UNDP/ELECT, ELECT Weekly, 7/21–7/27/2009, p. 12; UNDP/ELECT, ELECT Weekly, 9/8–9/21/2009, p. 7.
214. DoD, response to SIGAR data call, 10/13/2009.
215. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 4.
216. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 1.
217. AIHRC, “Joint Monitoring of Political Rights: Presidential and Provincial Elections,” 6/16–8/1/2009, p. ii.
218. AIHRC, “Joint Monitoring of Political Rights: Presidential and Provincial Elections,” 6/16–8/1/2009, p. ii.
219. AIHRC, “Joint Monitoring of Political Rights: Presidential and Provincial Elections,” 6/16–8/1/2009, p. 5.
220. DoD, response to SIGAR data call, 10/13/2009.
221. DoD, response to SIGAR data call, 10/13/2009.
222. DoD, response to SIGAR data call, 10/13/2009.
223. DoD, response to SIGAR data call, 10/13/2009.
224. DoD, response to SIGAR data call, 10/13/2009.
225. UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 2.
226. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 4.
227. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 3;
     DoD, response to SIGAR data call, 10/13/2009.
228. UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 9.
229. UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 9.
230. UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 9.
231. UNDP/ELECT, ELECT Weekly, 9/22–9/24/2009, p. 2.
232. UNDP/ELECT, ELECT Weekly, 9/22–9/24/2009, p. 2.
233. DoS, response to SIGAR data call, 10/6/2009.
234. UNDP/ELECT, “Provincial Council Elections,” www.afghanelections.org/index.php?page=en_Provincial+Council, accessed 10/6/2009.
235. UNDP/ELECT, “Provincial Council Elections,” www.afghanelections.org/index.php?page=en_Provincial+Council, accessed 10/6/2009.
236. GIRoA, Electoral Law, Articles 27, 28; UNDP/ELECT, “Provincial Council Elections,” www.afghanelections.org/index.php?page=en_
     Provincial+Council, accessed 10/6/2009.
237. AIHRC-UNAMA, “Joint Monitoring of Political Rights: Presidential and Provincial Council Elections, First Report,” 4/25-6/12/2009, p. 4.
238. ECC, “Electoral Complaints Commission,” www.ecc.org.af/en, accessed 10/6/2009.
239. ECC, “Electoral Complaints Commission,” www.ecc.org.af/en, accessed 10/6/2009.




                                                   144                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                             ENDNOTES




240.   UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 2.
241.   UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 8.
242.   UN, Report of the Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 15.
243.   International Crisis Group, “Afghanistan’s Elections Challenges: Asia Report No. 171,” 6/24/2009, p. 14.
244.   International Crisis Group, “Afghanistan’s Elections Challenges: Asia Report No. 171,” 6/24/2009, p. 14.
245.   IEC, “Public Outreach,” www.iec.org.af/public_html/index.html, accessed 10/19/2009.
246.   IEC, “Public Outreach Efforts Towards Women During the Registration,” www.iec.org.af/public_html/Civic%20Education/On%20Women/
       women.pdf, accessed 9/15/2009.
247.   International Crisis Group, “Afghanistan’s Election Challenges,” www.observatori.org/paises/pais_87/documentos/171_afghanistan_s_elec-
       tion_challenges.pdf, 6/24/2009, p. 15.
248.   UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 8.
249.   NDI, “Preliminary Statement of the NDI Election Observation Delegation to Afghanistan’s 2009 Presidential and Provincial Council Elections,”
       www.ndi.org/files/Afghanistan_EOM_Preliminary_Statement.pdf, 8/22/2009.
250.   International Crisis Group, “Afghanistan’s Election Challenges,” www.observatori.org/paises/pais_87/documentos/171_afghanistan_s_
       election_challenges.pdf, 6/24/2009, p. 15.
251.   International Crisis Group, “Afghanistan’s Election Challenges,” www.observatori.org/paises/pais_87/documentos/171_afghanistan_s_
       election_challenges.pdf, 6/24/2009, p. i.
252.   IEC, “Background Information: On Security for the Presidential Elections,” www.iec.org.af/public_html/index.html, accessed 9/15/2009.
253.   CRS, “Afghanistan: Presidential and Parliamentary Elections,” 3/10/2005, http://digital.library.unt.edu/govdocs/crs//data/2005/upl-meta-crs-6723/
       RS21922_2005Mar10.pdf, accessed 9/14/2009, p. 5.
254.   UNDP/ELECT, “Electoral Safeguards,” www.afghanelections.org/index.php?page=en_Fact+Sheets, accessed 10/20/2009.
255.   SIGAR, Audit-10-1, “Barriers to Greater Women’s Participation In Afghan Elections,” pp. 7–8.
256.   International Crisis Group, “Afghanistan’s Election Challenges,” www.observatori.org/paises/pais_87/documentos/171_afghanistan_s_
       election_challenges.pdf, 6/24/2009, pp. i, 10, 12.
257.   GlobalSecurity.org, “Millions Vote in Afghan Elections,” www.globalsecurity.org/military/library/news/2004/10/mil-041012-arnews02.htm,
       accessed 10/19/2009.
258.   UNDP/ELECT, “Electoral Safeguards Fact Sheet,” www.afghanelections.org/index.php?page=en_Fact+Sheets, accessed 10/6/2009.
259.   AIHRC-UNAMA, “Joint Monitoring of Political Rights: Presidential and Provincial Council Elections: Second Report,” www.aihrc.org.af/
       English/Eng_pages/Reports_eng/PRV_2009/PRV_2009_Aug_10.pdf, 6/16–8/1/2009, p. ii.
260.   ECC, “Decisions,” www.ecc.org.af/en/index.php?option=com_content&view=article&id=50&Itemid=56, last accessed 10/19/2009; Report of the
       UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 4.
261.   International Crisis Organization, “Afghanistan’s Election Challenges,” www.observatori.org/paises/pais_87/documentos/171_afghanistan_s_
       election_challenges.pdf, 6/24/2009, p. 10.
262.   NDI, “Preliminary Statement of the NDI Election Observation Delegation to Afghanistan’s 2009 Presidential and Provincial Council Elections,”
       www.ndi.org/files/Afghanistan_EOM_Preliminary_Statement.pdf, 8/22/2009, p.8.
263.   SIGAR, Audit-09-6, “Strategy and Resources Needed to Sustain Afghan Electoral Capacity,” 9/22/2009, p. 9.
264.   SIGAR, Audit-09-6, “Strategy and Resources Needed to Sustain Afghan Electoral Capacity,” 9/22/2009, p. 10.
265.   UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 15.
266.   IEC, “Electoral Media Commission,” www.iec.org.af/Content.asp?sect=2&page=electoralmedia, accessed 10/13/2009.
267.   IEC, “Electoral Media Commission,” www.iec.org.af/Content.asp?sect=2&page=electoralmedia, accessed 10/13/2009; UNDP/ELECT, ELECT
       Weekly, 8/18–8/24/2009, p. 3.
268.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 6;
       IEC, “Electoral Media Commission,” www.iec.org.af/Content.asp?sect+2&page=electoralmedia,accessed 10/13/2009.
269.   UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 2.
270.   IEC, “Electoral Media Commission,” www.iec.org.af/Content.asp?sect=2&page=electoralmedia, accessed 10/13/2009.
271.   UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 11.
272.   UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 5.
273.   UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 5.
274.   UNDP/ELECT, ELECT Weekly, 8/18–8/24/2009, p. 6.
275.   SIGAR, Audit-09-6, “ Strategy and Resources Needed To Sustain Afghanistan Electoral Capacity,” www.sigar.mil/reports/pdf/audits/Audit-09-6.
       pdf, 9/22/2009, p. 10.
276.   USAID, response to SIGAR data call, 10/2/2009.
277.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 5.
278.   GIRoA, “Afghanistan National Development Strategy: Governance, Rule of Law, and Human Rights,” www.ands.gov.af/ands/final_ands/src/
       final/Afghanistan%20National%20Development%20Strategy_eng.pdf; GIRoA, “The Afghanistan Compact,” 1/31–2/1/2006, p. 8.
279.   USAID, response to SIGAR data call, 10/2/2009.
280.   Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 4.
281.   UNDP/ELECT, ELECT Weekly, 9/8–9/21/2009, p. 9.




         REPORT TO THE UNITED STATES CONGRESS          I   OCTOBER 30, 2009                  145
                                                           ENDNOTES




282. ECC, press release, “The ECC Orders the IEC To Conduct an Audit and Recount at Polling Stations that Exceed Thresholds Proven To Be
     Strong Indicators of Electoral Irregularities,” www.ecc.org.af/en/images/stories/pdf/ECC2009PressRelease0809Eng.pdf., accessed 10/21/2009.
283. UNDP/ELECT, ELECT Weekly, 9/8–9/21/2009, p. 1; ECC, press release, “The ECC Orders the IEC To Conduct an Audit and Recount at Polling
     Stations that Exceed Thresholds Proven To Be Strong Indicators of Electoral Irregularities,” 9/8/2009.
284. ECC and IEC, press release, “The ECC and IEC Begin Audit and Recount at Sample Polling Stations,” 10/5/2009; Report of the UN Secretary-
     General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 4.
285. UNDP/ELECT, ELECT Weekly, 9/8–9/21/2009, p. 2.
286. ECC and IEC, “Fact Sheet on the Audit Process in Response to ECC Order of 8 September 2009,” www.ecc.org.af/en/images/stories/pdf/
     ECC-IEC%20Fact%20Sheet%20Audit%20Process.05.10.09.pdf, accessed 10/21/2009.
287. ECC, “Decisions,” www.ecc.org.af/en/images/stories/pdf/ECC2009_October%2018%20Decision%20Complaints_20091018.pdf; accessed
     10/21/2009; ECC, “Decision on Presidential Election Priority A Complaints,” www.ecc.org.af/en/index.php?option=com_content&view=
     article&id=50&Itemid=56, accessed 10/21/2009; ECC, press release, “ECC Issues Its Decisions to the IEC with Respect to the Certification of
     Presidential Election Results,” 10/19/2009; ECC and IEC, “Fact Sheet on the Audit Process in Response to ECC Order of 8 September 2009”
     www.ecc.org.af/en/images/stories/pdf/ECC-IEC%20Fact%20Sheet%20Audit%20Process.05.10.09.pdf, accessed 10/5/2009.
288. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 6.
289. USAID, response to SIGAR data call, 10/2/2009.
290. USAID, response to SIGAR data call, 10/2/2009.
291. USAID, response to SIGAR data call, 10/2/2009.
292. USAID, response to SIGAR data call, 10/2/2009.
293. DoS, response to SIGAR data call, 10/5/2009.
294. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 5.
295. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 5.
296. GIRoA, “Afghanistan National Development Strategy: Governance, Rule of Law, and Human Rights,” www.ands.gov.af/ands/final_ands/src/
     final/Afghanistan%20National%20Development%20Strategy_eng.pdf; GIRoA, “The Afghanistan Compact”, 1/31–2/1/2006, p. 8.
297. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 6.
298. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 6.
299. DoS, response to SIGAR data call, 10/5/2009.
300. DoS, response to SIGAR data call, 10/5/2009.
301. DoS, response to SIGAR data call, 10/5/2009.
302. DoS, response to SIGAR data call, 10/5/2009.
303. DoS, response to SIGAR data call, 10/5/2009.
304. DoS, response to SIGAR data call, 10/5/2009.
305. DoS, response to SIGAR data call, 10/5/2009.
306. DoS, response to SIGAR data call, 10/5/2009.
307. DoS, response to SIGAR data call, 10/5/2009.
308. DoS, response to SIGAR data call, 10/5/2009.
309. GIRoA, The Afghanistan Compact, 1/31–2/1/2006, p. 7.
310. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 12.
311. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 12.
312. Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/22/2009, p. 13.
313. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development%20
     Strategy_eng.pdf, p. 75.
314. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development%20
     Strategy_eng.pdf, p. 75.
315. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development%20
     Strategy_eng.pdf, p. 158.
316. Treasury, response to SIGAR data call, 9/30/2009.
317. Treasury, response to SIGAR data call, 9/30/2009.
318. Treasury, response to SIGAR data call, 9/30/2009.
319. DAB, “Strategic Plan 2009–2014: Fostering Price Stability and Building a Robust Financial System,” 2/22/2009.
320. Treasury, response to SIGAR data call, 9/30/2009.
321. Treasury, response to SIGAR data call, 9/30/2009.
322. IMF, “Country Report: Afghanistan,” Report Number 09/135, 4/2009, p. 8; Treasury, response to SIGAR data call, 9/30/2009.
323. Treasury, responses to SIGAR data call, 7/10/2009 and 9/30/2009.
324. Treasury, response to SIGAR data call, 9/30/2009.
325. USAID, response to SIGAR data call, 10/2/2009.
326. Treasury, response to SIGAR data call, 9/30/2009.




                                                   146                   SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                         ENDNOTES




327. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development%20
     Strategy_eng.pdf, p. 4.
328. SIGAR Audits Directorate, response to energy questions, 9/16/2009. Some data sourced to USAID.
329. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development%20
     Strategy_eng.pdf, p. 79.
330. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development%20
     Strategy_eng.pdf, p. 116.
331. USAID, response to SIGAR data call, 10/2/2009. USAID sources these numbers to the Afghan MoE Planning Department.
332. USAID, response to SIGAR data call, 10/2/2009. USAID sources these numbers to the Afghan MoE Planning Department.
333. USAID, response to SIGAR data call, 10/2/2009. USAID sources these numbers to the Afghan MoE Planning Department.
334. USAID, “E-Learning for Mid-wives,” 8/15/2009, http://afghanistan.usaid.gov/en/Article.797.aspx, accessed 9/23/2009.
335. USAID, response to SIGAR data call, 10/2/2009.
336. USAID, response to SIGAR data call, 10/2/2009. USAID sources these numbers to the Afghan MoE Planning Department.
337. USAID, response to SIGAR data call, 10/2/2009.
338. USAID, response to SIGAR data call, 10/2/2009.
339. MoPH, Annual Report, 8/2009, p. 1; USAID, “USAID/Afghanistan Strategy,” http://afghanistan.usaid.gov/en/Page.CountryOverview.aspx,
     accessed 10/13/2009.
340. USAID, “USAID/Afghanistan Strategy,” http://afghanistan.usaid.gov/en/Page.CountryOverview.aspx, accessed 10/13/2009.
341. UNICEF, “Afghanistan: Background,” www.unicef.org/infobycountry/afghanistan_background.html, accessed 10/13/2009; UNICEF, “Infant and
     Young Child Feeding,” www.unicef.org/nutrition/index_breastfeeding.html, accessed 10/13/2009.
342. UNICEF, “Afghanistan: Background,” www.unicef.org/infobycountry/afghanistan_background.html, accessed 10/13/2009; UNICEF, “Infant and
     Young Child Feeding,” www.unicef.org/nutrition/index_breastfeeding.html, accessed 10/13/2009.
343. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development%20
     Strategy_eng.pdf, pp. 11–12.
344. MoPH, Annual Report, 8/2009, p. 1.
345. USAID, response to SIGAR data call, 10/2/2009.
346. USAID, response to SIGAR data call, 10/2/2009.
347. USAID, response to SIGAR data call, 10/2/2009.
348. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development%20
     Strategy_eng.pdf, pp. 84–86.
349. USAID, response to SIGAR data call, 10/2/2009.
350. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development%20
     Strategy_eng.pdf, pp. 95–96.
351. World Bank, “Afghanistan Transport Sector,” http://web.worldbank.org/WBSITE/EXTERNAL/COUNTRIES/SOUTHASIAEXT/EXTSARREG
     TOPTRANSPORT/0,,contentMDK:20560890~menuPK:868765~pagePK:34004173~piPK:34003707~theSitePK:579598,00.html, accessed 10/9/2009.
352. USAID, “Afghanistan: Infrastructure,” http://afghanistan.usaid.gov/en/Program.25a.aspx, accessed 10/13/2009.
353. USAID, response to SIGAR data call, 10/2/2009.
354. USAID, “Cashing in on Improved Roads in Baharak,” 8/31/2009, http://afghanistan.usaid.gov/en/Article.785.aspx, accessed 9/23/2009.
355. USAID, “Cashing in on Improved Roads in Baharak,” 8/31/2009, http://afghanistan.usaid.gov/en/Article.785.aspx, accessed 9/23/2009.
356. GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development%20
     Strategy_eng.pdf, p. 98.
357. USAID, response to SIGAR data call, 10/2/2009.
358. USAID, response to SIGAR data call, 10/2/2009.
359. USAID, response to SIGAR data call, 10/2/2009.
360. USAID, response to SIGAR data call, 10/2/2009.
361. USAID, response to SIGAR data call, 10/2/2009.
362. MoE, Web site, www.moe.gov.af, accessed 10/9/2009; MCIT, Web site, www.mcit.gov.af, accessed 10/9/2009.
363. USAID, response to SIGAR data call, 10/2/2009.
364. USAID, response to SIGAR data call, 10/2/2009.
365. USAID, response to SIGAR data call, 10/2/2009.
366. MAIL, “Umbrella Document for the National Agriculture Development Framework,” 4/2009, www.mail.gov.af/m/english/PDF%20Concept%20
     papers/Umbrella%20Document%20for%20NADF%20V4%2001%20April%202009.pdf, accessed 10/9/2009, p. 4.
367. USAID, response to SIGAR data call, 10/2/2009.
368. USAID, response to SIGAR data call, 10/2/2009.
369. USAID, response to SIGAR data call, 10/2/2009.
370. USAID, response to SIGAR data call, 10/2/2009.
371. USAID, response to SIGAR data call, 10/2/2009.
372. World Bank, “Doing Business in 2010,” 5/2009.




       REPORT TO THE UNITED STATES CONGRESS        I   OCTOBER 30, 2009               147
                                                         ENDNOTES




373.   OPIC, response to SIGAR vetting, 10/18/2009.
374.   Treasury, response to SIGAR data call, 9/30/2009.
375.   USAID, response to SIGAR data call, 10/2/2009.
376.   OPIC, response to SIGAR vetting, 10/18/2009.
377.   Treasury, response to SIGAR data call, 9/30/2009.
378.   USAID, response to SIGAR data call, 10/2/2009.
379.   OPIC, response to SIGAR data call, 10/2/2009.
380.   OPIC, response to SIGAR data call, 10/2/2009.
381.   GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development
       %20Strategy_eng.pdf, p. 98.
382.   GIRoA, “The Afghanistan National Development Strategy,” www.ands.gov.af/ands/final_ands/src/final/Afghanistan%20National%20Development
       %20Strategy_eng.pdf, p. 98.
383.   USAID, response to SIGAR data call, 10/2/2009.
384.   UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 9/2009, p. 5.
385.   DoS, response to SIGAR data call, 10/5/2009.
386.   UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 9/2009, p. 5.
387.   UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 9/2009, p. 5.
388.   USAID, response to SIGAR data call, 10/2/2009.
389.   DoS, response to SIGAR data call, 10/5/2009.
390.   DoS, response to SIGAR data call, 10/5/2009.
391.   DoS, response to SIGAR data call, 10/5/2009.
392.   UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 9/2009, p. 5.
393.   DoS, response to SIGAR data call, 10/5/2009.
394.   DoS, response to SIGAR data call, 10/5/2009.
395.   UNIFEM, Annual Report 2008–2009, 7/29/2009, p. 8.
396.   UNIFEM, Annual Report 2008–2009, 7/29/2009, p. 8.
397.   USAID, response to SIGAR data call, 10/2/2009.
398.   USAID, response to SIGAR data call, 10/2/2009.
399.   USAID, response to SIGAR data call, 10/2/2009.
400.   USAID, response to SIGAR data call, 10/2/2009.
401.   USAID, response to SIGAR vetting, 10/16/2009.
402.   USAID, response to SIGAR data call, 10/2/2009; USAID, response to SIGAR vetting, 10/16/2009.
403.   UNIFEM, “Shi’a Personal Status Law Debate Succeeds in Galvanizing Afghan Women and Men Around Women’s Rights,” Women, Peace, and
       Governance Newsletter, 5/1/2009, http://afghanistan.unifem.org/docs/pubs/09/WPG_newsletter_1st_Quarter.pdf, accessed 10/8/2009; USAID,
       response to SIGAR data call, 10/2/2009.
404.   USAID, response to SIGAR data call, 10/2/2009.
405.   USAID, response to SIGAR vetting, 10/16/2009.
406.   USAID, response to SIGAR data call, 10/2/2009.
407.   USAID, response to SIGAR data call, 10/2/2009.
408.   USAID, response to SIGAR data call, 10/2/2009.
409.   USAID, response to SIGAR data call, 10/2/2009.




                                                  148                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
SIGAR
SPECIAL INSPECTOR GENERAL




                                                         SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | OCT 30, 2009
FOR AFGHANISTAN RECONSTRUCTION

2221 South Clark Street
Suite 800
Arlington, VA 22202-3712




        Cover Captions (clockwise from left):
        An ink-stained finger marks one of an
        estimated 15.3 million Afghan citizens who
        voted in the first Afghan-run elections on
        August 20. About 58% of voters were men.
        (U.S. Embassy Kabul Photo, Dan Wilkinson)
        Afghan contractors produce concrete at
        the construction site for the eight-room
        Haish Saidqi Girls School in the Rokha
        District of Panjshir Province. (U.S. Air Force
        photo, Capt. Stacie N. Shafran)
        Afghan children receive backpacks from
        U.S. service members at Rhey village. Five
        hundred backpacks, 20 five-pound bags of
        flour, 20 liters of cooking oil, and various
        school supplies were transported from
        Camp Stone. (U.S. Air Force photo,


                                                         4
        SrA Marc I. Lane)
        Non-commissioned officers of the Afghan
                                                                                                                                 QUARTERLY REPORT TO THE UNITED STATES CONGRESS
        National Police recite an oath of honor at a                                                                                         As a part of the 2009 Peace Day celebration, the United Nations Assistance Mission in
        graduation ceremony at the ANP Academy                                                                                             Afghanistan commissioned calligraphy pieces from Kabul University. This drawing, produced
        in Kabul, Afghanistan. (U.S. Air Force photo,                                                                                       by Abdul Haq Noori Ghaznawi, a Kabul Fine Arts faculty member, represents a peace tree.
        SSgt Beth Del Vecchio)
SIGAR
SPECIAL INSPECTOR GENERAL


                                                                                                         SIGAR                  Special Inspector General for   OCT 30




                                 SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | OCT 30, 2009
FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                Afghanistan Reconstruction       2009
2221 South Clark Street
Suite 800
Arlington, VA 22202-3712




                                 4                                                                       QUARTERLY REPORT TO THE UNITED STATES CONGRESS
